<html>
<title> - OVERSIGHT ON SAGE GROUSE CONSERVATION</title>
<body><pre>[Senate Hearing 108-909]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-909
 
                 OVERSIGHT ON SAGE GROUSE CONSERVATION

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON FISHERIES, WILDLIFE, 
                               AND WATER

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2004

                               __________

  Printed for the use of the Committee on Environment and Public Works




                    U.S. GOVERNMENT PRINTING OFFICE
96-657                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                              ----------                              

             Subcommittee on Fisheries, Wildlife, and Water

                   MICHAEL D. CRAPO, Idaho, Chairman
JOHN W. WARNER, Virginia             BOB GRAHAM, Florida
LISA MURKOWSKI, Alaska               MAX BAUCUS, Montana
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 24, 2004
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado, 
  prepared statement.............................................    44
Baucus, Hon. Max, U.S. Senator from the State of Montana, 
  prepared statement.............................................    45
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     1
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........    11
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    11

                               WITNESSES

Back, Gary, principal ecologist, SRK Consulting..................    28
    Prepared statement...........................................    72
    Responses to additional questions from Senator Crapo.........    78
Calvert, Chad D., Deputy Assistant Secretary for Land and 
  Minerals Management, Department of the Interior................    12
    Prepared statement...........................................    46
    Responses to additional questions from Senator Crapo.........    49
Crawforth, Terry, director, Nevada Department of Wildlife........    21
    Prepared statement...........................................    55
    Responses to additional questions from Senator Crapo.........    60
Deeble, Ben, sage grouse project coordinator, National Wildlife 
  Federation.....................................................    32
    Prepared statement...........................................    82
    Responses to additional questions from Senator Crapo.........    89
Knight, Bruce I., Chief, Natural Resources Conservation Service, 
  Department of Agriculture......................................    14
    Prepared statement...........................................    52
    Response to additional question from Senator Crapo...........    54
O'Keeffe, John, chairman, Public Land Committee, Oregon 
  Cattleman's Association; vice chair, Federal Lands Committee, 
  National Cattlemen's Beef Association; Oregon's Director to the 
  Public Lands Council...........................................    30
    Prepared statement...........................................    80
    Responses to additional questions from Senator Crapo.........    82
Mosher, James A., Ph.D., executive director, North American 
  Grouse Partnership.............................................    33
    Prepared statement...........................................    90
Schnacke, Greg, executive vice president, Colorado Oil and Gas 
  Association....................................................    27
    Prepared statement...........................................    60

                          ADDITIONAL MATERIAL

Letter from the Western Governors' Association...................  6-10
Mission statement, Northeastern Nevada Stewardship Group, Inc....    78
Outline of Ideas for Sustaining Sage Grouse Conservation.........     3
Statements, North American Grouse Partnership....................95-102


                 OVERSIGHT ON SAGE GROUSE CONSERVATION

                              ----------                              


                       FRIDAY, SEPTEMBER 24, 2004

                               U.S. Senate,
         Committee on Environment and Public Works,
                  Subcommittee on Fish, Wildlife and Water,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 o'clock a.m. in 
room 406, Dirksen Senate Office Building, Hon. Michael D. Crapo 
(chairman of the subcommittee) presiding.
    Present: Senators Crapo, Thomas and Reid.

 OPENING STATEMENT OF HON. MICHAEL D. CRAPO, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Crapo. This hearing will come to order.
    This is a hearing of the, I guess we'll call it the 
Subcommittee Oversight Hearing of the Committee on Fisheries, 
Wildlife and Water Dealing with Sage Grouse Conservation.
    For more than 100 years in America, the State Government 
and supportive private wildlife conservation groups have 
protected, restored and sustained our Nation's wildlife. Thirty 
years ago, the Federal Government started the endangered 
species program as a safety net to provide emergency responses 
for needs for wildlife restoration.
    Today, and especially concerning the sage grouse, we are 
learning how these two fundamentals of American wildlife 
policy, the State and local program and the Federal program, 
can work together. The State and local program needs the 
flexibility to respond when concerns arise. The Federal program 
must be vigilant, but not premature in acting. Both need equal 
ability to involve both private and Federal land managers.
    We may not be perfect in this yet, but today we will 
discuss an excellent example of how it is working and where it 
needs to improve. State wildlife managers and private 
conservationists from energy companies, ranching families and 
environmental and sportsmen's groups are leading this effort. 
Federal agencies are helping. This is a good start. Together 
they are responding to declines in the harvestable surplus 
populations of sage grouse. We need this work to continue, and 
we need the ability to try new ideas until we find those that 
work.
    A proposal has been made to list this bird under the ESA.
    Listing the bird, if it happens, ironically, will limit our 
options for helping it. But today, we're here to focus on first 
things first: what we are going to do in the field and what we 
need to try next. I have directed the attention of the 
witnesses to the outline of ideas for sustaining sage grouse 
conservation prepared by our staff. I ask unanimous consent 
that it be included in the record.
    Without objection, it will be.
    [The referenced document follows:]

    [GRAPHIC] [TIFF OMITTED] T6657.029
    
    [GRAPHIC] [TIFF OMITTED] T6657.030
    
    Senator Crapo. This document summarizes the current 
situation and its potential for breakthrough in wildlife 
conservation partnership. The parties represented on our panels 
today want to figure out together what techniques and 
approaches will improve sage grouse populations. They want to 
negotiate the details of who will commit to which of the 
necessary tasks and at what cost.
    I'm certain that if such a diverse group can agree to work 
together for wildlife that our land management policies and 
regulations can support it even if it means revising an 
existing plan or manual or regulation or law. Today, we begin 
to look into this exciting possibility, and I appreciate all 
those who have joined us here in getting this started.
    In addition to those present today, other partners involved 
in this issue have submitted statements for the record. 
Governors Kempthorne of Idaho, Guinn of Nevada, Owens of 
Colorado, and others have pioneered many of the ideas that we 
will cover. Again, I ask unanimous consent that the letter sent 
from the Western Governors Association be included in the 
record. Without objection, so ordered.
    [The referenced document follows.]

    [GRAPHIC] [TIFF OMITTED] T6657.024
    
    [GRAPHIC] [TIFF OMITTED] T6657.025
    
    [GRAPHIC] [TIFF OMITTED] T6657.026
    
    [GRAPHIC] [TIFF OMITTED] T6657.027
    
    [GRAPHIC] [TIFF OMITTED] T6657.028
    
    Senator Crapo. I also welcome the statements to be 
submitted for the record from The Nature Conservancy.
    [The referenced documents follow on pages 95-102.]
    Senator Crapo. Before I go ahead and introduce our 
witnesses, I'd like to turn to Senator Thomas of Wyoming for 
any opening statement that he may have.
    Senator Thomas.

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Thank you for 
having this hearing. Certainly we've had a lot of conservation 
and a lot of interest in sage grouse in Wyoming. I'm 
particularly interested in how we work with these kinds of 
issues with regard to the Endangered Species Act. You were good 
enough to allow us to have a hearing in Wyoming a while back, 
and we're looking for ways to make this Act work better, and I 
think we have an opportunity here to talk about how we can work 
together, hopefully without listing, so that we can have, 
protect the grouse, at the same time be able to have multiple 
use of the lands.
    Those are the things, of course, that we've talked about in 
the West. There are about 11 Western States that have a real 
sage grouse population. In Wyoming, we have a good deal of it 
there, as I said, and have been concerned about the Endangered 
Species Act. We've had over 1,300 species listed and yet only 
recovered about 16. So we ought to be emphasizing the 
opportunity to be able to preserve these without the listing 
and without the problems that go with it.
    So we look forward to the hearing and look forward to being 
able to work together to make this thing work. Thank you, sir.
    Senator Crapo. Thank you very much, Senator.
    Senator Thomas. Oh, by the way, I want to welcome Assistant 
Deputy Secretary Chad Calvert here, who is a native of Wyoming 
and an old friend from years past. Welcome, Chad.
    Thank you.
    Senator Crapo. Senator Reid.

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. I would first like to thank the Chairman for 
the opportunity to hold a hearing on local conservation efforts 
for sage grouse.
    I would also like to welcome the panelists and take a 
moment to especially thank two witnesses who have traveled from 
Nevada: Terry Crawforth, director of the Nevada Department of 
Wildlife and Gary Back of the Northeastern Nevada Stewardship 
Group. With several conservation groups, like Mr. Back's 
Stewardship Group, working together to avoid harm to our local 
economies while at the same time advancing the conservation of 
the sage grouse, I am proud Nevada has evolved as a leader in 
this fight.
    Together with Chairman Crapo, I have advocated using the 
Farm Security and Rural Investment Act of 2002 (Farm bill) 
conservation programs to help local communities like Elko, NV, 
engage in voluntary conservation efforts for species like sage 
grouse.
    In fact, the Farm bill's Wildlife Habitat Incentives 
Program (WHIP) encourages private and public agencies to 
develop wildlife habitat on their properties, and specifically 
has directed funds to enhance habitats for sage grouse.
    I know more can be done, and I am committed to improving 
local conservation efforts. I look forward to hearing 
suggestions from our witnesses.
    Senator Crapo. We have three panels today. I'm going to 
introduce the panels right now and then will give a couple of 
instructions to the witnesses and get going. On our first panel 
is Chad Calvert, who is the Deputy Assistant Secretary for Land 
and Minerals at the Department of Interior and Bruce Knight, 
who is the Director of the Natural Resources Conservation 
Service at the Department of Agriculture.
    Our second panel consists of Terry Crawforth, director of 
the Nevada Department of Wildlife. Terry, you have the second 
panel all to yourself.
    Our third panel consists of Greg Schnacke, who is president 
of the Colorado Oil and Gas Association; Gary Back, principal 
ecologist at SRK Consulting and the Northeast Nevada 
Stewardship Group; John O'Keeffe, vice chairman of NCBA Federal 
Lands Committee and Sage Grouse Task Force; Ben Deeble, the 
sage grouse coordinator for the National Wildlife Federation, 
and Jim Mosher, North American Grouse Partnership and the 
American Wildlife Conservation Partners.
    For our witnesses, we are very interested in what you have 
to say.
    We are going to be very careful and thorough in reading 
your written testimony. We ask you to keep your oral 
presentations to 5 minutes. We have the little lights there to 
help you. That way we will have an opportunity to engage in 
some dialog and some questions.
    So please try to pay attention, I know it's hard to pay 
attention to the lights. I always sort of tongue in cheek say 
that your time will run out before you've said everything you 
want to say. So what we'd like to ask you to do is try to 
finish up what you wanted to say during the questions and the 
dialog that we will have afterwards and try to pay attention to 
those lights.
    With that, let's go ahead and begin with this panel. We'll 
start first with you, Mr. Calvert.

 STATEMENT OF CHAD D. CALVERT, DEPUTY ASSISTANT SECRETARY FOR 
    LAND AND MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Calvert. Thank you, Mr. Chairman, members of the 
committee, Senator Thomas, for giving us an opportunity to 
discuss the Department of Interior's cooperation with State 
wildlife agencies, private landowners and others to conserve 
sage grouse and its habitat.
    There has been an unprecedented effort spanning multiple 
Federal agencies, 11 States and hundreds of counties and local 
partners. I would ask that my written statement be made a part 
of the record, and I will summarize it for you.
    Senator Crapo. Yes, in fact, with regard to all statements, 
they will all be part of the record.
    Mr. Calvert. Thank you.
    Before I begin, I have with me some folks from BLM and from 
the Fish and Wildlife Service, and I may ask them to assist me 
with any technical questions you may have.
    The Department is responsible for managing a lot of sage 
brush across the West. BLM alone has approximately 57 million 
acres. Roughly 40 million acres of that is either occupied or 
suitable habitat for sage grouse. This is well over half of the 
remaining suitable or occupied grouse habitat.
    In 2000, the BLM, Fish and Wildlife Service, U.S. Forest 
Service and Western Association of Fish and Wildlife Agencies, 
WAFWA, signed a MOU to develop a framework for conservation 
planning across the range of the sage grouse. A State and 
Federal team was created to represent three Federal agencies 
and four States. That team and the framework have accomplished 
a lot in 4 years. They have collected and organized information 
about the condition of habitats, the status of populations and 
identified potential threats. Much of this data is available on 
the Sage Map web site, which is maintained by the U.S. 
Geological Survey.
    That team has also been instrumental in initiating 
cooperative conservation planning for sage grouse across all 11 
States at both the statewide and local levels. Those plans are 
now being completed and the majority should be in place within 
the next year. Ultimately, we would like to see all the plans 
pulled together into a range-wide strategy for the sage grouse.
    The BLM has also drafted a national sage grouse habitat 
conservation strategy in the summer of 2003, and put it out for 
comment. In February and March of this year, BLM Director 
Kathleen Clarke went to towns all across the West and held a 
series of listening sessions. The strategy will incorporate 
many of the comments that we received in those listening 
sessions. The strategy is designed to complement the work of 
the State wildlife agencies and to help guide BLM offices in 
their planning and best management practices.
    In terms of funding, the BLM will spend over $14 million on 
sage grouse conservation in fiscal year 2004. It is seeking an 
increase of $3.2 million for fiscal year 2005 for restoration 
and conservation of habitat. These projects supplement our 
planning efforts and support specific cooperative projects to 
improve sage groups breeding, nesting, brood rearing and winter 
habitat.
    As part of the ESA status review, the BLM has also offered 
information to Fish and Wildlife Service on its planning 
standards and programs designed to protect habitat. Examples of 
those include range health standards, systematic monitoring and 
assessment, mitigation measures and fire and riparian 
restoration.
    The Special Status Species Program is BLM's overarching 
regulatory mechanism to protect species. The Department's 
manual requires agencies to utilize authorities to not only 
protect listed species but also to avoid precipitating the 
decline of other species to the point where a listing would be 
appropriate. BLM's manual specifies that sensitive species will 
be given the same level of protection afforded to Federal 
candidate species.
    In all 11 States where BLM manages sage brush, they 
classify greater sage grouse as a sensitive species. So the BLM 
pays close attention to sage grouse in all its planning 
efforts. As an example, the BLM Wyoming standards and 
guidelines for healthy range lands require, among other things, 
that range habitat that supports T&E species or sensitive 
species must be maintained or enhanced.
    For other activities such as mineral development, 
recreation use, rights of way, BLM-Wyoming's mitigation 
guidelines for surface disturbing activities are applied. For 
sage grouse and sharptails grouse, this generally means no 
activities are authorized within nesting habitat from February 
1 to July 31, or in critical winter concentration areas from 
November 15 to April 30. Similar mitigation is required by BLM 
across the range. The standards differ from place to place, 
because they are developed collaboratively between BLM and each 
individual State.
    Fish and Wildlife Service also has many conservation tools 
at its fingertips to help private landowners, State and local 
government and other non-Federal partners in conservation. The 
Candidate Conservation Agreement and Candidate Conservation 
Agreement With Assurances are two very important tools. The 
Candidate Conservation Agreement was used successfully earlier 
this year to help ensure that the slickspot peppergrass in the 
State of Idaho was not necessary to list. That was an agreement 
between the BLM, State of Idaho, Idaho Army National Guard, and 
several private property owners who held grazing permits.
    The Candidate Conservation Agreement With Assurances is an 
important tool for non-Federal property owners who may 
voluntarily agree to remove threats to proposed or candidate 
species, and they receive assurances that their efforts will 
not result in future regulations beyond what they agreed to in 
the event the species is listed.
    The Fish and Wildlife Service also uses the Landowner 
Incentive Program to provide financial assistance to partners 
interested in implementing conservation that benefits listed 
species on their private property.
    Since my time is about up, this concludes my statement. I 
do have more to say, obviously. I'd be happy to answer 
questions that you have.
    Senator Crapo. We will let you get into that in just a 
minute. Thank you very much.
    Mr. Knight.

    STATEMENT OF BRUCE I. KNIGHT, CHIEF, NATURAL RESOURCES 
        CONSERVATION SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Knight. Mr. Chairman and members of the committee, 
thank you for the opportunity to present the Department of 
Agriculture's perspective on habitat restoration and 
preservation associated with sage grouse. I want to express my 
gratitude for your interest in the USDA's role in helping 
farmers and ranchers improve sage grouse habitat.
    For nearly 70 years, NRCS has been assisting owners of 
private lands conserve their soil, water and related natural 
resources. We deliver technical assistance based on sound 
science, suited, we believe, to a farmer's or rancher's 
specific needs.
    In addition, NRCS provides voluntary assistance to 
landowners in the form of financial incentives, cost share and 
conservation easements. As you know, in 2002, President Bush 
signed into law the most conservation oriented Farm bill in 
history, which reauthorized and greatly enhanced conservation 
programs, and emphasized the need to help producers meet 
regulatory challenges.
    From the standpoint of the mission and perspective of NRCS, 
we recognize that the issue of sage grouse habitat has become 
of increased concern to many ranchers. We also recognize that 
28 percent of the existing sage grouse habitat is in fact found 
on private lands, or about 40 million acres. Our goal is to 
help producers maintain and improve sage grouse habitat as part 
of their larger management efforts that provide multiple 
benefits.
    Under the leadership of Secretary Veneman, we have taken 
proactive steps to provide additional program assistance 
specifically for sage grouse habitat conservation. Last month, 
the Secretary announced $2 million in Grassland Reserve Program 
funding for projects that protect sage grouse habitat. The 
initiative was made available in Colorado, Idaho, Utah and 
Washington, and was in addition to nearly $70 million already 
made available this year through the Grassland Reserve Program.
    The Department also recently announced targeted sage grouse 
assistance through the Wildlife Habitat Incentives Program. For 
example, as a result of that project, NRCS provided $350,000 to 
protect habitat at Parker Mountain, UT. Under that specific 
initiative, landowners are using cost share funds for brush 
management, reseeding, water development and wildlife habitat 
management on approximately 104,000 acres.
    But our assistance to sage grouse goes far beyond the 
targeted funding that we have already announced. For example, 
our Agency's flagship conservation cost share program, the 
Environmental Quality Incentives Program, is providing nearly $1 
billion in conservation incentives and cost share assistance 
nationwide this year. That will include a wide range of habitat 
preservation efforts, and water conservation efforts that will 
in turn help the sage grouse.
    We also know that the conversion of farms and ranches to 
non-agricultural use poses a particular challenge to fragmented 
sage grouse habitat. I would note that the Department's Farm 
and Ranch Lands Protection Program is providing $112 million 
this year to protect farm and ranch land from further 
development.
    While it's difficult to quantify the impacts, we know that 
our programs are making important contributions toward 
protecting and developing sage grouse habitat. Combining the 
efforts of all our programs and technical assistance, NRCS 
estimates that this year more than 80,000 acres of sage grouse 
habitat will benefit directly from private lands conservation 
efforts, with more than 1 million acres having secondary 
benefits.
    Although we are proud of these accomplishments, we want to 
try to do even more to ensure that we are ready to meet what we 
see as future challenges. For that reason, we are expanding 
conservation planning and practice measures that benefit sage 
brush and sage grouse habitat, and are also taking steps to 
develop new scientific and technical tools for our field staff. 
We must provide our people with as much knowledge, data and 
technical standards as possible in order to ensure that farmers 
and ranchers are getting the expert advice they need and 
expect.
    We also want to ensure that we partner appropriately with 
agencies with in the Department of Interior and nationwide. 
While it's clear that these significant gains are being made on 
private lands, it's important to ensure that the voice of 
agriculture is being heard and that the stories of success on 
farms and ranches are incorporated into discussions and 
decisions about the sage grouse.
    Earlier this year, we initiated the leadership retreat with 
the Fish and Wildlife Service in order to give the top 
leadership of both agencies insight into each other's 
operations and explore ways in which we can improve upon and 
build upon those collaborations.
    Mr. Chairman, there are many challenges ahead. But we're 
enthusiastic about what is being done on private lands and 
about the further progress that is possible. Thank you for 
inviting USDA to participate in today's hearing. I would be 
pleased to respond to any questions.
    Senator Crapo. Thank you very much, Mr. Knight.
    Mr. Calvert, I'll start with you with my questions. The BLM 
has already classified the sage grouse as a sensitive species. 
That requires the field staff to follow certain specific 
procedures. You referenced the BLM manual and other guidance in 
your remarks as the sources for those current procedures.
    The question I have is, how deeply are these procedures set 
in stone? What I mean is, if we develop more effective 
procedures through the concerted efforts that we are talking 
about here in this hearing, how would those policies be able to 
be adapted?
    Mr. Calvert. The standards and guidelines are flexible. The 
actual factors in the range land health standards guidelines 
are set. But they are amendable, of course, and differ from 
State to State. The actual monitoring and assessment that goes 
along with monitoring grazing allotments is something that can 
be different from field office to field office. Certainly, if 
they are successful best management practices they should be 
incorporated into those. The other mitigation standards that I 
talked about for surface disturbance activities also differ 
from State to State.
    BLM develops those in conjunction with the State 
Government, usually the fish and game from each State, to 
determine what, for example, is the nesting size that needs to 
be protected during nesting season, is it a half a mile or is 
it a mile or is it 3 miles. That's something that can be 
different from place to place.
    Senator Crapo. So there's really no structural, like a 
regulatory or statutory impediment to making the adjustments in 
this process, if we identify through the public-private, State 
and local, Federal efforts that we're talking about today new 
or different procedures that we would like to follow?
    Mr. Calvert. That's correct.
    Senator Crapo. Good.
    Mr. Knight, first of all I want to say thank you for the 
tremendous efforts that you oversee in terms of the resources 
that you described in your testimony that we are bringing to 
bear on conservation through the farm programs. As you know, I 
also chair the committee in the Agriculture Committee that has 
jurisdiction over the conservation title of the Farm bill and 
have been very involved in drafting those provisions which you 
are now administering.
    Many times I have said that I think one of the things that 
goes unnoticed in this country is that perhaps the most 
important environmental legislation that we work on here in 
Congress are the conservation provisions in the Farm bill, 
because of the amount of significant Federal resources that are 
put to bear in terms of accomplishing the conservation 
objectives of the Federal Government. The programs that you 
administer do tremendous good in that context. So first, I want 
to thank you for that.
    Mr. Knight. Thank you.
    Senator Crapo. The question I have is, the programs through 
which you are making funds available are competitive grant 
application type programs, if I understand that correctly. When 
you focus them on the sage grouse conservation, does that mean 
that all sage grouse proposals compete with each other, or that 
the sage grouse proposals are competitive with other non-sage 
grouse proposals?
    Mr. Knight. With most of our programs, what we will have is 
a ranking system designed in each individual State meeting the 
local needs and priorities of that State. That's generally 
established by our professional staff in the State working 
closely with the State Technical Committee which brings in 
outside expertise from State Agencies, including the wildlife 
agencies and very importantly, the ranching and the farming 
community and environmental community. It's a wide open 
process. We're able to establish a ranking procedure.
    So earlier this year, we sent out a strong urging for folks 
to adjust ranking procedures in order to be able to put sage 
grouse habitat efforts higher up in the process. So if you 
establish a ranking procedure and you get the maximum 100 
points, they may be given additional points for sage grouse 
habitat. That's how in most of the States that is being done.
    In a few States they may do a pool. I'm not aware of, at 
this point in time, of us having done a pool separately within 
any of the programs for sage grouse or sage grouse habitat.
    Senator Crapo. OK. Then I have just two other questions 
related to that. One is sort of the same question I asked Mr. 
Calvert. From what you described, I think the answer would be 
yes, but I want to be sure about this. If the partnerships that 
we're talking about here today between State, local, Federal 
and private efforts come together and work effectively and 
generate an approach to sage grouse management, is the system 
that you have in place sufficiently flexible to accommodate 
those new interests and perhaps change or increase priorities 
on different types of projects as a result of the work of this 
group?
    Mr. Knight. We make every attempt to have a process that's 
as flexible and as locally led as possible, and consciously try 
to roll as many decisions down to the county level as we 
possibly can about how to make an evaluation on where we're at. 
We do try to standardize practices to the extent that we're not 
following the latest scientific whim or scientific article 
that's been written. So we try to have things standardized to 
the extent that you have good sound science. But we also try to 
maintain a very flexible, local regime on determinations.
    Senator Crapo. All right, thank you. I do have another 
question or two for each of you, but my time has run out, so I 
will turn to Senator Thomas.
    Senator Thomas. Thank you.
    Mr. Calvert, what is the basic numerical background or 
reason for doing some of the things you're doing with regard to 
sage grouse? Is there evidence that there's a loss of sage 
grouse? Are there numbers that have changed? What's the basis 
for that?
    Mr. Calvert. I would defer to the State fish and wildlife 
folks for the actual discussion about demographics. Clearly 
there's been a large decline in habitat. I don't think that 
there's a definitive number for the population. Over 50 percent 
loss of historical habitat, largely due to agriculture 
conversion in places like Washington State, southern Idaho and 
also urban development, cities and subdivisions moving in and 
piling under sage brush to build homes, occasionally a sage 
grouse, I suspect.
    But in terms of population, that was the subject of the 
WAFWA report that was issued this summer. It's the baseline 
that we're all working from now in terms of numbers. I believe 
it's clearly a subject that the Fish and Wildlife Service is 
looking at in its status review. From Wyoming, Wyoming I 
believe has some 30 or 40 percent of total occupied sage grouse 
habitat, on BLM lands, anyway. In terms of numbers, clearly it 
will have a profound impact on listing on activities in the 
State of Wyoming.
    Senator Thomas. What now? Of course there's no listing, but 
has BLM applied restrictions on the use of land? If so, what's 
the basis for that?
    Mr. Calvert. As a special status species, where identified 
by State fish and game as such, the BLM imposes in its planning 
efforts mitigation factors on all activities. It generally 
either hinges on the surface disturbance mitigation factors, 
which may be, for example, no surface occupancy during times of 
breeding or during critical winter habitat. Or it may be in 
terms of standards and guidelines for range land health, going 
out and looking at the health of the sage brush and the 
understory to make sure that that important habitat for sage 
grouse is being maintained, and then modifying grazing 
practices accordingly.
    But that's something that's been going on since, I think 
probably mid-1990's, at least, managing it as a special 
species.
    Senator Thomas. There may be some seasonal restrictions, 
then. Do these apply, for instance, for energy production and 
so on?
    Mr. Calvert. Yes, absolutely. That's already incorporated 
in most of the plans in the State of Wyoming, at least. There 
are seasonal restrictions. I believe the distance from the lek 
may vary from place to place. But it is generally at least a 
half a mile, where there is no surface occupancy from February 
to July of each year. Then for critical winter habitat, you 
have similar restrictions on surface occupancy.
    Senator Thomas. Mr. Knight, have you in these efforts that 
you both talk about, have you seen changes in the numbers?
    Mr. Knight. With our data, it's difficult to show hard 
changes in numbers of birds yet, with the efforts we're doing 
right now. We're in the process of building that more 
comprehensive conservation assessment.
    But the anecdotal reports coming back are very positive. 
When we're working with a private landowner, building a range 
management plan, pointing out that there's a lek over here or a 
lek there, and you might want to rotate that pasture at a time 
when you're not hitting the cows on it during critical habitat 
needs, you end up having a very positive response fairly 
rapidly.
    But those are still anecdotal and very difficult to 
quantify. That challenge of quantification of conservation 
efforts has been a major challenge for the Agency for a long 
time. We are making major investments outside of the sage 
grouse effort in being able to improve the quantification of 
those efforts to really be able to evaluate which practice has 
the greatest return.
    Senator Thomas. So most of this is in private land farm 
activities as opposed, say, for instance, to the Forest 
Service?
    Mr. Knight. Our specific Agency's work is private lands. We 
do some cooperative work where you have the private lands and 
the Federal lands interspersed. So the EQIP program can provide 
some assistance on Forest Service or other lands where it is of 
benefit to the private lands adjacent or adjoining it.
    Senator Thomas. How much of this is driven, either of you, 
by lawsuits or threats of lawsuits?
    Mr. Calvert. Well, at the Department of Interior, we get 
sued every day. It's something that we deal with. A lot of it, 
and I should probably defer here to the Fish and Wildlife 
Service about their listing, lawsuits clearly drive the listing 
process, although this one is not the subject of a lawsuit. 
There were seven petitions to list filed in the last 4 years, 
and Fish and Wildlife Service combined three of the ones to 
list the greater sage grouse and is now operating on that 
status review. That's not driven by a lawsuit. But a lot of the 
other activities are.
    Senator Thomas. I hope we're not managing by lawsuit.
    Thank you.
    Mr. Knight. In the case of NRCS, if I might add, because so 
many of the decisions are made at the State level with the 
advice of the State Technical Committee, most of our reaction 
to sage grouse has been because of a demand from the ranching 
community wanting to get out in a proactive manner ahead of 
this particular issue.
    Senator Thomas. Good. Thank you.
    Senator Crapo. Thank you. Just a couple of other questions 
here. I assume both of you are familiar with the outline of 
ideas that we've submitted for your review before the hearing. 
I'd just like to ask each of you your general feeling about the 
ideas proposed there, namely the notion that we could develop a 
more inclusive group than the current group that would include 
participants as listed in the outline, for example, from the 
energy community, from the environmental community, from the 
ranching community, State and wildlife management agencies and 
sportsmen's groups to participate in the process.
    My main question here is just, what are your thoughts about 
the approach identified in the outline?
    Mr. Calvert.
    Mr. Calvert. I think it's a very good approach. The one 
thing that isn't clear is the scope. Although on the second 
page, it discusses that there may be six or more areas where we 
would want to carry out sort of pilot projects, I guess.
    The important thing is that management of the sage grouse 
habitat is very different from place to place. In some places 
you have intensive energy development, in other places you have 
none. So it would be very site specific. I think working groups 
such as you have identified here have been very successful in 
bringing together various interests and putting some money on 
the table. Sometimes it's worth it to an energy company to put 
some money on the table for a private landowner to conserve 
sage habitat. You identified Questar here, they've actually 
been very progressive in the Pinedale, WY area about their 
practices that they intend to follow in development.
    Senator Crapo. I note that the State-Federal Sage Grouse 
Conservation Planning Framework Team includes four State 
agencies and three Federal agencies. Is there an impediment to 
expanding that group to include the others identified in the 
outline?
    Mr. Calvert. That group sort of developed from the MOU. I 
don't see any impediments to it, although right now it's all 
State and Federal partners. One thing that you may run into is 
FACA problems if you bring in private parties to sit in on a 
panel and discuss or reach decisions. That could run afoul of 
FACA if it's not properly chartered.
    Senator Crapo. Mr. Knight.
    Mr. Knight. The outline that was presented to us we can 
embrace very warmly. It's the type of collaborative 
conservation that we strive to do. Many of the folks that were 
outlined within that and the goals of it are utilized in our 
State Technical Committees. I might add that this is also very 
much in keeping with the President's recent directive to us 
about Cooperative Conservation, where President Bush had an 
announcement about 3 weeks ago to each of the Federal agencies, 
both the agencies represented here as well as EPA and the 
Department of Defense, to engage in collaborative, cooperative 
conservation efforts to ensure that we have fully embraced 
cooperation and coordination between each of the Federal 
agencies in responding to all conservation needs.
    Senator Crapo. Thank you. I think you can each see from my 
questions and from the outline that we have here the overall 
objective that I'm seeking to accomplish here is what I would 
broadly describe as a collaborative effort for the kinds of 
decisionmaking that we have to engage in on this and other 
issues. I'm trying to find out if there are any legal or 
structural impediments to that.
    From what I've heard from both of you today, with the 
exception of the FACA question, which we'll need to look into, 
the impediment, I don't see any impediments to proceeding with 
a very broad collaborative effort. Would that be a fair 
description of your testimony?
    Mr. Calvert. I've been very impressed just with the 
progress that they've made so far. Sage grouse is sort of an 
effort of first impression, if you will, to bring in all these 
people and talk about how we're going to conserve habitat 
across 11 States. It's really quite an unprecedented effort. 
There are some success stories and lessons learned, I think, 
out of that process that could be very easily incorporated into 
what you've proposed.
    Senator Crapo. Last question for me is, would each of you 
commit to do your very best to try to implement a collaborative 
effort like this as we approach these kinds of decisionmaking 
processes?
    Mr. Calvert. Yes, sir.
    Mr. Knight. Yes, sir.
    Senator Crapo. Senator Thomas, anything further?
    Senator Thomas. No, thank you, Mr. Chairman.
    Senator Crapo. All right. Again, we want to thank you for 
your testimony. To the extent you didn't get to orally present 
everything, I do want you to know that we're very thoroughly 
reviewing your written testimony. Nothing that you have 
presented will be overlooked.
    Thank you very much.
    We'll excuse this panel now and we'll call up our second 
panel, all one of you. As a reminder, our second panel is Terry 
Crawforth, the director of the Nevada Department of Wildlife. 
Mr. Crawforth, we again welcome you here with us and we look 
forward to your testimony.
    You may proceed.

 STATEMENT OF TERRY CRAWFORTH, DIRECTOR, NEVADA DEPARTMENT OF 
                            WILDLIFE

    Mr. Crawforth. Mr. Chairman, thank you for inviting me to 
discuss what I believe is the largest volunteer, species 
conservation effort ever undertaken.
    Sage grouse were first identified by Lewis and Clark in 
1831 and have inhabited North America for over 11,000 years. 
These spiny tailed pheasants once occupied 500,000 square miles 
in numbers estimated at 2 million, and require healthy sage 
brush ecosystems to survive. After undergoing significant 
declines from 1965 to 1985, sage grouse currently occupy 
258,000 square miles in 11 States and 2 Canadian provinces with 
a total population estimate exceeding well over 250,000 adult 
birds.
    Having adapted to a harsh environment and extreme climate, 
sage grouse embody who we are in the West. Concerned with the 
decline in the numbers and distribution, the Western 
Association of Wildlife Agencies committed to take the lead in 
conserving sage grouse through development of a science based 
local area conservation planning strategy.
    To date, we have developed partnerships with all levels of 
government, tribes, industry and a diverse array of local 
individuals. We have installed an interdisciplinary science 
team, achieved grants to fund planning efforts, completed 
significant research, standardized data collection techniques 
and increased data gathering efforts and published a peer 
reviewed species status assessment.
    This information and science was developed in order to 
support our most important achievement, grassroots conservation 
plans. Over 70 local working groups have volunteered 
significant effort in developing sage grouse conservation plans 
and are engaging in on the ground project implementation. There 
is seldom a single silver bullet answer to species 
conservation. So our conservation actions are designed to 
evaluate local conservation challenges, implement treatments to 
address these challenges, monitor the results of the treatment 
and adapt future management based on those results.
    In conclusion, we have learned from previous species 
conservation efforts and succeeded in the largest mobilization 
ever of the public in a conservation effort. Much of that 
success can be attributed to the fact that local groups were 
allowed to develop local solutions without the encumbrance of 
rules and processes such as those required by the Endangered 
Species Act.
    Clearly this effort will benefit sage grouse, other 
wildlife species that depend upon sage brush habitats, and the 
culture and economy of the West. Successful implementation of 
meaningful sage grouse conservation will require years of 
coordinated effort and a substantial infusion of new money to 
match existing Federal programs such as the Farm bill, Fire and 
Fuels Management, Invasive Species and even the Wild Horse 
Program.
    Neither Federal agencies that manage over 70 percent of the 
world's sage grouse habitat nor State and local government nor 
private landowners have the resources to reallocate funds from 
existing programs to sage grouse conservation efforts. What we 
need is financial support in order to implement planned 
projects. If I might even be as bold to suggest that this might 
come in the form of increased State Wildlife Grants, or even a 
separate federally funded sage grouse conservation initiative.
    The range-wide effort to conserve sage grouse using an 
incentive based, publicly driven process is an historic new 
model for conserving a species before it needs protection by 
the Endangered Species Act. Local folks are best qualified to 
address such issues and have exhibited that they are more than 
willing to step up to the plate. All they need at this time is 
your support.
    Thank you, Mr. Chairman. I would be glad to answer any 
questions.
    Senator Crapo. Thank you very much, Mr. Crawforth. I 
appreciate your testimony and have a couple of questions.
    I particularly was interested in your last couple of 
comments about the fact that the State and local personnel and 
entities are prepared and ready and capable to deal with the 
issues. They need resources.
    I'll just give you a quick little aside. I served in the 
House of Representatives for 6 years and this is my sixth year 
in the Senate, so I have been here for 12 years. Back about 10 
years ago, we engaged in a big effort to try to try to bring 
the State and local participation more to the forefront in 
environmental management under a number of the Federal 
environmental laws.
    What we ran into at that time, which totally stopped us, 
was the argument that the States and local efforts were not 
capable or committed to dealing with conservation in the 
country, and that it was because of their unwillingness and 
their lack of capacity, lack of expertise that the Federal laws 
had to be passed in the first place, to do what the State would 
not and could not do.
    I thought that was a false argument at the time and 
continue to believe that the State and local personnel are as 
qualified as the Federal personnel on these issues, and stand 
ready as strong, willing partners who are capable of dealing 
with these issues. I assume from your testimony that you would 
agree, but I would appreciate your comment on that.
    Mr. Crawforth. I think that's why, Mr. Chairman, we took 
the approach in the Western States that we did. We had the 
opportunity to be proactive regarding the species. Although I 
think it's our job to recognize that maybe there are some 
troubles on the horizon and who we wanted to involve, we knew 
the impacts to the lives of virtually every citizen in the 
West. Problems with sage grouse and sage brush habitat could 
impact the delivery of power to the Los Angeles metropolitan 
area. It's very widespread.
    So we thought if we involved all groups and the local 
people who are out there on the ground every day, in many cases 
they have the answers. They just need, I guess in my mind, 
Government to do what it's supposed to do, and that's support 
them in making their lives better.
    Senator Crapo. Provide the support.
    Mr. Crawforth. That's what we're asking for now. We've 
worked on the planning. We have projects ready to go. They're 
on a shelf. But they're simply too expensive. They're landscape 
scale projects. I don't think I need to tell either of the 
Senators on this committee what it costs to dig up the dirt and 
do some other things with it.
    Senator Crapo. Certainly. You're familiar with the outline 
that we have put together from the committee.
    Mr. Crawforth. Yes, I am.
    Senator Crapo. What do you think of the approach 
contemplated in that outline?
    Mr. Crawforth. I think that approach is right on. I think 
it's the approach that the Western States have taken in what 
they're working, and certainly you can always look back and 
evaluate what you've been doing and see if you can do some 
things better. We need to refresh the memorandum of 
understanding that we have with the various Federal agencies to 
implement this program amongst ourselves. In fact, we have 
recently discussed bringing in at least two other Federal 
agencies.
    You asked earlier about the framework team. The framework 
team is a group of biologists and scientists. We wanted that to 
stay as a science group, if you will. If there are other 
partners who can provide that science based knowledge to the 
group, we would certainly be willing to do that.
    I would be hopeful that since it is, although it's a 
science group and it's sponsored by the Western Association of 
Fish and Wildlife Agencies that we could not have to worry 
about FACA and some of those things.
    Senator Crapo. I appreciate that, and we're going to look 
into that. If there's a problem there, then maybe we need to 
make some more flexibility in the Federal rules, Federal laws.
    Just one other quick question before I turn the time over 
to Senator Thomas. You indicated that one of the big issues was 
resources, so that the State, local and private as well as 
Federal entities involved could accomplish what they know they 
need to do.
    As I indicated earlier with regard to Mr. Knight's 
testimony, we in the last Farm bill put an unprecedented amount 
of new money into conservation programs under the Farm bill. Do 
you see, have you seen as a result of that, have you seen more 
money available, or are there problems we need to address in 
terms of fine tuning the conservation titles in the Farm bill 
to getting money to these issues, or is this something you're 
familiar with?
    Mr. Crawforth. I see money coming available. The Farm bill 
has adapted enough to cover some of the western range lands. I 
think it's taken us a while to work through that process. But I 
see money coming available, I see a willingness, I mean, the 
way the West was settled, the majority of the lands, the 
richest soils and most well watered lands are in private 
ownership. So private landowners absolutely have to be a 
partner in this. The Farm bill is an ideal program to help us 
with that effort, with the checkerboard land ownership in the 
West.
    Senator Crapo. Thank you very much.
    Senator Thomas.
    Senator Thomas. Thank you. I guess all of us are very 
interested in the cooperative effort that's happening here. Do 
you find a conflict among the different species, wolves, for 
example, or something like that in terms of trying to protect 
the grouse?
    Mr. Crawforth. We're hopeful, and to date it's proven out 
that sage grouse, are a sage brush obligate. They literally 
have adapted to the point where if they don't have sage brush 
to eat during a good share of the year, they won't survive.
    But there are about 20 plus other species that are almost 
that obligated to sage brush. So we are hoping that sage grouse 
can be the poster child for the sage brush ecosystems, and 
today, and not become a spotted owl, where we have sage grouse 
recipes all over the countryside.
    To date, that has worked. So anything we do for sage grouse 
would be good for the other obligate species, if you will.
    Senator Thomas. You mentioned the wild horses being 
something of a conflict. What do you mean by that?
    Mr. Crawforth. We're hopeful that we can use the various 
other Federal programs to help merge with sage grouse projects 
and there's a lot of fire and fuels management, wild horses.
    In some areas of the West, we have enough wild horses that 
they are being destructive to the habitat. So the wild horse 
program needs to be funded to where we can address those 
issues. But certainly they have impacted, I know in my State, a 
number of especially water sources are adversely impacted, as 
for all species, agriculture, etc.
    Senator Thomas. I agree with you. I don't know that funding 
is the answer, but I think you need to find a way, and we do 
too, if you have an overpopulation, you have to do something 
with them.
    Mr. Crawforth. Yes.
    Senator Thomas. And we haven't done that.
    We had an interesting bill the other day, however, in the 
east coast, where they wanted to pass a law to have a minimum 
number of wild horses. I told them we'd be happy to share with 
some.
    [Laughter.]
    Mr. Crawforth. If people are thinking that, I may need a 
brown paper bag.
    [Laughter.]
    Senator Thomas. Do you think the other State wildlife, game 
and fish departments, are as committed to this as you are?
    Mr. Crawforth. Yes, particularly the primary States, your 
State of Wyoming, Idaho, Oregon, Nevada, Colorado and Utah have 
a unique situation with the Gunnison sage grouse. But the 
primary sage grouse States are very committed. The ones that 
are on the fringes of current range, we're helping them, if 
that's a good term for dragging them kicking and screaming or 
whatever. But we're all working very much together on this and 
there has been a significant commitment to it.
    Senator Thomas. We hear from time to time that some 
grazers, ranchers in their grazing leases and permits, are sort 
of hindered from doing the grazing they would like to do. How 
much of an impact do you think this has on other multiple uses?
    Mr. Crawforth. I'm fully convinced that the multiple uses 
on western range lands can be accomplished. We all might have 
to make some adjustments. And certainly the argument has been 
made that there were more sage grouse after grazing started 
than beforehand. Others will argue that's just because they ate 
everything and you could see the sage grouse. I don't believe 
any of that.
    I think the multiple uses and working together, maybe 
adjusting seasons of grazing by a week or two, sometimes 
enhancing hot season grazing, sometimes eliminating hot season 
grazing, etc. I think that's the local solution part of it 
that's so important. Because there's no overall, one answer to 
this issue. So we need to look at it locally. It may be 
predation in one area, grazing in another, pinyon juniper 
encroachment in another. So we need to look at it in that 
fashion.
    Senator Thomas. Thank you.
    Senator Crapo. Mr. Crawforth, the WAFWA report on sage 
grouse attempted the difficult but important task of gathering 
up existing data and trying to fit together the different types 
and quantities of data. Where are the greatest weaknesses in 
what we think we know right now about sage grouse?
    Mr. Crawforth. It's the, as I mentioned, there are a lot of 
things. But the primary is the loss and fragmentation and 
degradation of range lands where sage grouse live. There's a 
number of causes for that. I know in particular in Nevada, 
range fires, we've had about 3.5 million acres of sage grouse 
habitat converted to cheat grass and tumble mustard.
    Senator Crapo. In my experience with collaborative groups, 
especially on the scientific side, or information gathering 
side of the situation, I've found that the answers for 
monitoring and research are more acceptable to the parties when 
they have had a part in developing the question in the first 
place. If a partnership were to form such as we have suggested 
here today in the outline, how do you think we could arrange 
for all parties to be involved at the front end in framing the 
questions they are going to be asked and analyzed?
    Mr. Crawforth. I guess my hope would be, since we have an 
established process for local area planning groups that they 
ask the questions, establish the monitoring protocols and 
evaluate the answers. We have over 70 local working groups out 
there and would be excited about anybody else that wants to 
join us in providing information. I think especially from the 
perspective of industry, they have a huge stake in all of this. 
Frequently they have the resources.
    More importantly, they have the good ideas. I know in 
Nevada when we originally had a problem with gold mining and 
cyanide heat bleach and waterfowl were dying in the recovery 
ponds. We met with industry, told them we had to do something 
about this and they had the technical expertise to resolve it, 
and they did. That's what we need here.
    Senator Crapo. Thank you. My last question is sort of the 
same question I asked the other panel, I think I know the 
answer from your testimony, but if we move toward an approach 
for collaboration like we've discussed here in the outline, do 
you think that you and your colleagues are ready for this sort 
of a broadened collaborative effort to address the issue?
    Mr. Crawforth. I think we're more than ready. We demand it 
of ourselves.
    Senator Crapo. All right, thank you very much.
    Anything further, Senator Thomas?
    Senator Thomas. No, sir, I don't believe so. One of the 
things I heard in terms of these kinds of programs by fish and 
wildlife departments and so on is that many of them are funded 
by licenses from the hunters. This really is outside of that.
    How do you deal with that future funding issue in terms of 
fairness and equity?
    Mr. Crawforth. I think that's why we're, at this point in 
time, we have rounded up a few grants, people have given of 
their time, we have used some license dollars, if you will, for 
sage grouse projects and other funding to do the planning. 
That's the heavy lifting from the workload perspective but the 
light lifting from the money perspective. And now putting the 
projects on the ground is where we really need the help. I 
mean, chaining a couple thousand acres of pinyon juniper 
habitat is tremendously expensive, hundreds of thousands of 
dollars. There is just not the resources to do that.
    So we need to move on to new funding sources from what 
we've done, because it's not there.
    Senator Thomas. Your State and mine, of course, are heavily 
Federal lands. That has a role and we need to work on that. 
It's just kind of hard for you to keep your emphasis on these 
kinds of projects when the basis of your income and so on comes 
from the other things.
    Mr. Crawforth. That's absolutely correct.
    Senator Crapo. Thank you very much, Mr. Crawforth. We 
appreciate your testimony and your support.
    Mr. Crawforth. Thank you very much.
    Senator Crapo. We will excuse you at this time, and we will 
now call up our third panel. Again, as they are coming up, I 
will introduce them. We have Mr. Greg Schnacke, president of 
the Colorado Oil and Gas Association; Mr. Gary Back, principal 
ecologist at SRK Consulting; Mr. John O'Keeffe, the vice 
chairman of NCBA Federal Lands Committee and Sage Grouse Task 
Force; Mr. Ben Deeble, the sage grouse coordinator for the 
National Wildlife Federation; and Mr. Jim Mosher, North 
American Grouse Partnership.
    Gentlemen, we welcome all of you with us here today and 
look forward to your testimony and to getting into a dialog 
with you. We would like to start in the order that I've 
introduced you, so Mr. Schnacke, you may proceed.

STATEMENT OF GREG SCHNACKE, EXECUTIVE VICE PRESIDENT, COLORADO 
                    OIL AND GAS ASSOCIATION

    Mr. Schnacke. Thank you, Mr. Chairman and members of the 
subcommittee. My name is Greg Schnacke and I serve as executive 
vice president of the Colorado Oil and Gas Association. I'm 
here representing the Partnership for the West, which is a 
grassroots coalition that we are a member of.
    In summary, our testimony makes two important 
recommendations. First of all, the U.S. Fish and Wildlife 
Service should allow State and local officials to continue 
devising and managing locally led conservation efforts aimed at 
preserving and restoring the greater sage grouse to greater 
biological health and should not affect a Federal takeover of 
these efforts via the Endangered Species Act. Such a listing 
would not be in the best interests of the recovery of this 
species and would chill ongoing sage grouse conservation 
efforts.
    Second, a private and public sector stakeholder group 
across the region should continue to engage in innovative and 
effective sage grouse and sage brush habitat conservation 
efforts. Those efforts should be coordinated as much as 
possible rangewide. We applaud your leadership, Mr. Chairman, 
in facilitating these discussions across interest sectors on a 
long-term conservation strategy for the sage grouse, and we 
look forward to engaging in these discussions.
    However, we must note what we believe is obvious. If the 
U.S. Fish and Wildlife Service goes in the other direction and 
lists these species, it will not only chill current 
conservation initiatives, but will also discourage stakeholders 
from engaging in further discussions about new rangewide 
strategies. As the why we believe a listing of the greater sage 
grouse is not warranted at this time, let me make these points.
    First, an unprecedented set of innovative and aggressive 
sage grouse conservation efforts has been launched across the 
West in recent years. These locally led conservation strategies 
will provide conservationists and wildlife managers with the 
most effective tools to preserve these species. We have 
summarized some of these in our testimony.
    In contrast, threatened or endangered listing under the ESA 
will have a dramatic and chilling effect on these locally led 
conservation efforts and will discourage a wide range of 
stakeholders from continuing to engage in these efforts.
    Second, these locally led efforts are already making a 
difference. The WAFWA analysis indicates population trends over 
the past 10 or 15 years have been up or stabilized in most of 
these States, in many cases, an increase in sage grouse 
numbers.
    Now, we have serious concerns about the reliability of some 
of this data. An example are, many lek counts have been under-
represented in sage grouse populations because they were 
undertaken in poor weather conditions, during the wrong season 
or at the wrong time of the day. The assessment failed to even 
recognized leks documented by many States simply because no 
individuals were counted at the same time. It clearly under-
represents the number of leks in existence. I would suggest the 
committee hold a special hearing on the validity of the data, 
the strength of the science. Senator Thomas, the Petroleum 
Association of Wyoming has a very good group that could assist 
in this effort.
    Third, Federal officials have an important role to play in 
sage grouse conservation, and are already actively engaged in 
these efforts. BLM is expanding its national sage grouse 
habitat conservation strategy in close cooperation with the 
U.S. Fish and Wildlife Service. It will address sage grouse 
conservation needs across more than 50 percent of sage grouse 
habitat. That puts the Federal Government in a key position to 
continue to encourage locally driven conservation efforts in 
coordination with State and local officials and the private 
sector.
    Fourth, in spite of the best intentions of Federal 
officials and wildlife managers, the ESA as currently written 
and the lawsuits that drive its implementation do not allow the 
U.S. Fish and Wildlife Service experts to focus on the most 
important goal of conservation efforts; that is, species 
recovery. In its 30-year history, the ESA is not very 
successful. Therefore, that's a debate for another day, but 
it's something we need to engage in.
    In summary, Mr. Chairman, let me underscore our 
appreciation to you and your staff and the other members of 
this subcommittee for holding this hearing and for your 
interest and leadership in facilitating a continuing dialog 
among stakeholders on long term management and conservation 
strategies for the sage grouse and for sage grouse habitat.
    We agree with you and the others who are testifying here 
today that such a dialog on a long term, rangewide management 
strategy must take place, and we look forward to participating 
fully in those talks.
    Thank you.
    Senator Crapo. Thank you very much, Mr. Schnacke.
    Mr. Back.

         STATEMENT OF GARY BACK, PRINCIPAL ECOLOGIST, 
                         SRK CONSULTING

    Mr. Back. Mr. Chairman and members of the subcommittee, my 
name is Gary Back, and I'm representing the Northeastern Nevada 
Stewardship Group, Inc. On behalf of the Stewardship Group, I 
want to thank the Environment and Public Works Subcommittee on 
Fish, Wildlife and Water for providing the Stewardship Group an 
opportunity to testify at this hearing.
    As a representative of one of the many volunteer local area 
planning groups involved in sage grouse conservation, we 
welcome this opportunity to provide you with information that 
will help sustain these local efforts. I especially want to 
thank Senator Reid and his staff for their assistance.
    The Stewardship Group quickly realized that sage grouse was 
an indicator species of ecosystem health. Because of the 
variety of plant communities or habitats needed by sage grouse 
for breeding, nesting, brood rearing and wintering, the goal of 
managing sage grouse habitat for an optimal balance of shrubs, 
forbs and grasses at community and landscape scales should be 
analogous to restoring and/or maintaining form, function and 
processes in the sage brush ecosystem. Consequently, the focus 
of the effort changed from a single species conservation plan 
to an ecosystem conservation strategy.
    The purpose of this hearing is to identify what is needed 
to continue developing and improving our conservation efforts. 
From the local planning standpoint, the groups need the 
following. First, recognition of the local conservation 
planning groups. These groups must be recognized as having the 
standing necessary to influence resolution of the regional and 
national issues at the local level.
    Second, give the local conservation planning process a 
chance. The current conservation effort for this species in 
over 11 Western States is being conducted by approximately 70 
local conservation working groups, represents a new process for 
addressing species conservation. The ownership of the issues as 
demonstrated by local conservation working groups, is a 
significant step in cooperation among the stakeholders and the 
regulators. This process deserves a chance to demonstrate its 
merit.
    Third, continued and increased funding of existing 
programs. There are already several mechanisms for funding in 
place. Therefore, it is imperative that funding continue to be 
appropriated to these programs. Some examples of existing 
programs include the Farm Security and Rural Investment Act of 
2002, known as the Farm bill. This program has several programs 
that are directly related to landscape management. The funds 
are primarily intended for private lands.
    Some of the programs with direct application to either sage 
grouse conservation or watershed management include Wildlife 
Habitat Incentives Program, the Environmental Quality 
Incentives Program, the Conservation and Technical Assistance 
Conservation, Security Program, and Emergency Watershed 
Program. Another source of funding is the Clean Water Act, 
Section 319(h). These funds are often used in watershed 
management. Another source is the National Fire Plan. This plan 
and associated funding provides for a variety of management 
actions that when effectively incorporated into a watershed 
plan can be used to reduce fuel loading and in the process 
improve habitat for sage grouse.
    Another is the support for investigation into commercial 
uses of pinyon and juniper. Funding for a land grant university 
with a wood products lab to determine the feasibility of such 
an industry could change the treatment of pinyon and juniper 
from a cost-incurring process to a local wage producing 
industry. This type of industry could be an economic life saver 
for many of the rural communities of Nevada, Idaho, Oregon, 
Utah and Wyoming.
    The overriding goal for the stewardship group is to restore 
functionality to the watersheds in our planning area, and by 
doing so, maintain the economic viability of our existing land 
base industries and develop opportunities for new land and 
resource based industries as a means of economic development 
and rural community sustainability. We believe that those that 
are closest to the land can make the best decisions for how the 
land can be managed and meet national, regional and local 
resource and economic objectives.
    We believe that the place based or community based 
stewardship is necessary to reduce conflict and provide 
sustainability. We also believe that watershed management or 
ecosystem management is the most comprehensive and viable means 
for achieving the land values that are important to the 
community. The watershed as a well defined functioning unit 
must have all processes functioning to provide long term 
sustainability as well as ecosystem resiliency.
    On behalf of the Northeastern Nevada Stewardship Group and 
the other local conservation planning groups across the Western 
States, I thank you for this opportunity to testify before the 
Subcommittee on Fish, Wildlife and Water. Thank you.
    Senator Crapo. Thank you, Mr. Back.
    Mr. O'Keeffe.

 STATEMENT OF JOHN O'KEEFFE, CHAIRMAN, PUBLIC LAND COMMITTEE, 
   OREGON CATTLEMAN'S ASSOCIATION; VICE CHAIR, FEDERAL LANDS 
  COMMITTEE, NATIONAL CATTLEMEN'S BEEF ASSOCIATION; OREGON'S 
              DIRECTOR TO THE PUBLIC LANDS COUNCIL

    Mr. O'Keeffe. Good morning, Chairman Crapo and 
distinguished members of this subcommittee. My name is John 
O'Keeffe. I'm here to testify about the sage grouse on behalf 
of the Public Lands Council and the National Cattlemen's Beef 
Association. I serve as the chairman of the Public Lands 
Committee for the Oregon Cattlemen's Association, the Vice 
Chair of the Federal Lands Committee of the National 
Cattlemen's Beef Association, Oregon's Director to the Public 
Land Council, and I chair the Public Lands Council Westwide 
Task Force on Sage Grouse. I also represent private landowners 
on Oregon's sage grouse and sage brush habitat working group.
    At this time, I have one of the previously referred to LIP 
grant proposals being reviewed that would do juniper control 
and meadow enhancement on 2,500 acres of brood rearing habitat 
that the O'Keeffe ranch owns adjacent to Sage Hen Butte in Lake 
County, OR. My family has been ranching in the Warner Valley of 
southeast Oregon since the early 1900's.
    I am the third generation to ranch there. Part of the 
fourth generation is attending his first week of college 
classes as I address this subcommittee. It is my sincere wish 
that my family can continue to ranch in the Warner Valley far 
out into the future. That is why I became involved in the 
associations that represent the livestock grazing industry. I 
appreciate the opportunity to be here today to provide some of 
my experience with sage grouse on public land grazing to the 
committee.
    Environmental groups have filed petitions with the U.S. 
Fish and Wildlife Service seeking to have the sage grouse 
listed. The Service is currently in the midst of a 12-month 
status review to consider whether that available information 
warrants the bird being listed. A principal source of 
information to be considered by the Service is a conservation 
assessment of the status of the sage grouse and its habitat by 
the Western Association of Fish and Wildlife Agencies. This 
assessment concludes that the sage grouse populations have 
tended to stabilize since the mid-1980's. In many areas, 
numbers have increased between 1995 and 2003. Sage grouse 
continue to occupy 165 million plus acres across the West.
    We believe the Western Association of Fish and Wildlife 
Agencies reports supports the conclusion that listing the sage 
grouse under the ESA is not warranted at this time. While the 
number of birds has declined, a substantial population remains. 
These birds continue to occupy a significant range of habitat. 
According to the numbers in the WAFWA report, this is 55 
percent of the original habitat, which is more than what was 
quoted by an earlier witness. This evidence does not support 
the need to list the bird at this time.
    Moreover, there is a reasonable basis to believe that sage 
grouse numbers and habitat will continue to be stable or even 
improved because of the unprecedented conservation effort 
underway. You have already heard from the BLM and the NRCS on 
their efforts. Additionally, PLC and NCBA members have shown 
their willingness to support conservation efforts by 
identifying grazing practices that are compatible with sage 
grouse habitat and transmitting these practices to the 
Department of Interior. The Westwide conservation efforts are 
just finishing the planning stage and getting traction on the 
ground. The Fish and Wildlife Service would send a powerful 
message that conservation efforts do not pay off, if warranted, 
or warranted but precluded where the result of the status 
review.
    We are somewhat concerned that career staff in the Fish and 
Wildlife Service be truly neutral as they prepare the documents 
and recommendations used by the decisionmakers. Regulatory 
agencies tend to regulate and there may be an institutional 
bias toward listing. We urge the Administration to closely 
manage the preparation of the documents to ensure an unbiased 
process. Any help members of this committee can provide to 
ensure adequate management takes place will be greatly 
appreciated.
    The Fish and Wildlife Service bears a tremendous 
responsibility in making listing decisions. ESA is a cumbersome 
Act. Groups opposed to ranching are very sophisticated about 
using litigation to disrupt ongoing, permitted activities at no 
benefit to the species. All across the West, we have seen 
ranches cease to be economical, parcels are sold off for 
development. Loss of open space, additional roads, power lines, 
habitat fragmentation, all these things come with development. 
All these things are among the current threats to sage grouse.
    Finally, we urge the Administration to bear in mind the 
importance of deferring to the State management of the wildlife 
to the greatest extent possible. Conservation will not succeed 
in the long run in this country unless stakeholders who live on 
the land and make their living from it are involved in this 
effort.
    Thank you for the opportunity to present these remarks.
    I would be pleased to answer any questions you may have.
    Senator Crapo. Thank you, Mr. O'Keeffe.
    Mr. Deeble.

   STATEMENT OF BEN DEEBLE, SAGE GROUSE PROJECT COORDINATOR, 
                  NATIONAL WILDLIFE FEDERATION

    Mr. Deeble. Mr. Chairman, members of the subcommittee, my 
name is Ben Deeble. I'm the sage grouse project coordinator for 
the National Wildlife Federation, the Nation's largest 
conservation, education and advocacy organization.
    For more than 5 years, the National Wildlife Federation has 
been involved in the development of monitoring and conservation 
efforts for greater sage grouse in Western States, coordinated 
from our Northern Rockies Natural Resource Center in Missoula, 
MT, and through our affiliate organizations in Wyoming and 
Nevada. During this time, we have been deeply engaged in 
developing State conservation plans for the bird, involved in 
public education about the conservation challenges presented 
here, and we've facilitated an exchange of information about 
both the ecology and the management imperatives for this 
extraordinary species between agencies, other conservationists 
and the general public.
    Fortunately, there have been decades of research on the 
life cycle of sage grouse, so there is ample information on the 
needs of the species. High quality research of scientists 
working under the umbrella of the Western Association of Fish 
and Wildlife Agencies and several academic institutions has 
combined historic population data with cutting edge habitat and 
genetic analysis to synthesize a very solid understanding of 
this bird and its habitats. Much of the full management picture 
can be completed with information from the disciplines of range 
science and restoration ecology.
    While there are still some unanswered questions about sage 
grouse, I am confident in asserting that we know as much about 
this species' life cycle, habitat needs, behavior and ecology 
as any bird in the Nation. Using both proven methods and strong 
inference, we can implement effective conservation actions. 
Using this broad scientific basis, it is my sense that there is 
a potential currently for productive and meaningful 
deliberations among agencies and other partners for 
implementing effective management actions, for designing and 
funding these efforts in specific geographic areas and for 
verifying our results. It will be a huge task.
    Let me make an additional important point at this time. To 
the degree that a stereotype is being created in some places 
that the conservation community wants to shut down livestock or 
energy production in the West using sage grouse, that 
stereotype is false. We believe that in some locations, well 
managed livestock grazing is compatible with healthy sage 
grouse populations and in fact, may work to maintain important 
blocks of sage brush grassland habitat.
    Likewise, there are excellent guidelines on important 
practices related to minimizing and mitigating the effects of 
energy production. All types of energy production will not be 
compatible in all places with sage grouse. But both onsite 
practices and offsite mitigation hold promise for maintaining 
critical habitat in core populations of sage grouse. Using the 
good science that already exists for the management of the bird 
and its habitats, whether in the context of energy development, 
livestock grazing or any of several other human activities, we 
can maintain this important shrub-steppe ecosystem for a 
variety of wildlife species and human uses.
    As one step in rising to this conservation challenge, the 
National Wildlife Federation in late 1999 launched in Montana 
what for us is a relatively unusual field project named Adopt-
A-Lek. Starting with just a handful of volunteers, largely sage 
grouse hunters, we began training and fielding people to count 
sage grouse at dawn each April on their breeding leks. Most 
State agencies generally did not and still do not have the 
capacity to get multiple annual counts of a majority of their 
leks, and we felt we could recruit and train a highly motivated 
and competent labor force to seasonally assist with population 
data collection. Using accepted State survey protocols, our 
volunteers have proven to be reliable, competent and an asset 
to regional survey efforts.
    To give you a sense of scale, last April, 93 volunteers 
drove over 35,000 miles in Montana, Wyoming and Nevada to 
monitor more than 150 leks, in many cases getting multiple 
counts. This constitutes somewhere between 5 percent and 10 
percent of the total greater sage grouse survey effort 
westwide.
    The second leg in our program involves delivering 
incentives to landowners to implement sage grouse habitat 
enhancement measures. A primary objective of this project is to 
explore economically acceptable methods for enhancing sage 
grouse habitats and working landscapes, such as voluntary 
incentives for altering grazing patterns as well as restoring 
range land and habitat productivity through other techniques. 
The National Fish and Wildlife Foundation has offered NWF a 
challenge grant to begin incentive delivery to private 
landowners in 2005 who volunteer to participate in habitat 
management actions related to livestock grazing.
    The third leg of our conservation effort involves somewhat 
more direct engagement with public land management agencies. I 
see that completes my time. I would be happy to give you more 
detailed comments.
    Senator Crapo. We will get into that when we get into the 
questions, then. Thank you very much, Mr. Deeble.
    Mr. Mosher.

STATEMENT OF JAMES A. MOSHER, Ph.D., EXECUTIVE DIRECTOR, NORTH 
                  AMERICAN GROUSE PARTNERSHIP

    Mr. Mosher. Thank you very much, Mr. Chairman.
    Mr. Chairman and members of the committee, I am the 
executive director of the North American Grouse Partnership, a 
wildlife biologist and at every opportunity, an upland bird 
hunter. I have the privilege today to represent also the views 
of the Boone and Crockett Club, Campfire Club, International 
Association of Fish and Wildlife Agencies, the Izaak Walton 
League of American, National Wild Turkey Federation, the 
Theodore Roosevelt Conservation Partnership, Quail Unlimited 
and the Conservation Force.
    This hearing focuses appropriately and in a timely manner 
on the condition of sage grouse and the near and long-term 
challenges to conserving this valuable resource. I thank the 
committee for providing this forum and for looking toward 
solutions that will protect sage grouse while permitting access 
to and use of other important resources. I will take this time 
to highlight some of my written testimony and briefly address 
the suggestions offered by the committee for sustaining sage 
grouse conservation.
    Hunters and allied conservationists contribute in many ways 
to sage grouse conservation. Individual sportsmen and their 
organizations contribute through their license dollars, direct 
contributions to projects, technical expertise and through 
support of conservation organizations that represent their 
interests. For example, in partnership with The Nature 
Conservancy, the North American Grouse Partnership's Idaho 
chapter is demonstrating how to manage for sage grouse on a 
meaningful scale through specific habitat management of The 
Nature Conservancy's Crooked Creek Ranch and through an 
outreach program to other private landowners to implement 
habitat improvements.
    Quail Unlimited projects have benefited sage grouse in 
California and Colorado. In partnership with the Bishop Field 
office of BLM, a broad based group of stakeholders has drafted 
a conservation plan to maintain a healthy sage grouse 
population. Members of the North American Falconers Association 
and others in the falconry community have contributed valuable 
information on critical winter ranges used by sage grouse.
    The National Wild Turkey Federation with their western plan 
supports habitat improvements that benefit not only wild 
turkeys but grouse and other species as well. Sportsmen are 
also working to resolve resource conflicts involving sage 
grouse and other wildlife through collaborative efforts with 
other stakeholders. With support of the Bureau of Land 
Management, the Izaak Walton League convened a series of 
facilitated meetings amongst ranchers, the energy industry and 
sportsmen's groups. The Theodore Roosevelt Conservation 
Partnership convened a similar meeting with support from the 
National Commission on Energy Policy. Our purpose was to 
improve understanding on all sides of the issues and most 
importantly to begin to craft solutions to conflicts that occur 
when our interests overlap on the landscape. Progress was made 
at those meetings and a network was created for further 
communication that continues today.
    The objectives for sustaining sage grouse conservation 
offered by the committee are very consistent with 
recommendations our community has made. We proposed that a 
council be created with the charge of advising on issues that 
arise at the intersection of economic development and wildlife 
resources in order to find innovative ways to enhance both 
these values so important to the country. With the technical 
capacity and partner involvement suggested by the committee, 
such a council could accomplish that purpose and address 
important information needs.
    I believe you have identified the key participants. 
However, renewable energy interests would be an important 
addition. Prairie grouse species appear averse to wind energy 
facilities and wildlife experts warn of significant population 
impacts where wind development occurs in proximity to critical 
grouse habitat.
    Your proposed deliberative process could be an effective 
means for coordination and ongoing assessment of progress. The 
council could provide a valuable forum for developing and 
overseeing a variety of public-private partnerships that would 
benefit from the synergy created by diverse interests and 
technical capabilities. Effectiveness at a population level of 
stipulations and conditions on public land are not well 
documented. We are in agreement with the energy industry on the 
fundamental need for more research, and stipulations or 
conditions to be imposed should be both effective and 
sufficient.
    Last, I agree that creating pilot areas to test management 
techniques and innovative programs is a sensible approach to 
produce near term progress and information. We must, as well, 
be prepared to modify activities in other areas as we learn 
from these pilot projects.
    In conclusion, we believe that Congress and the 
Administration can and should tap the resources within the 
hunting and conservation community. With commitments of funds, 
effectively delivered programs, careful planning and most 
importantly, implementation of real habitat management, we can 
forestall further loss of sage grouse and other wildlife 
resources and the consequences associated with such outcomes.
    I would be glad to answer your questions, and we would be 
happy to work with you and your staff as appropriate.
    Senator Crapo. Thank you very much, Mr. Mosher.
    Let me start my questions back at the beginning with Mr. 
Schnacke. I hear your point about the ESA listing process, and 
it is a point that is commonly made by those who deal with 
various Endangered Species Act issues, and the effect that the 
listing could have on the current efforts underway to deal with 
sage grouse. I was wondering if you could just discuss with me 
a little bit in more detail the chilling effect that you 
believe a listing decision could have on efforts to deal with 
sage grouse restoration.
    Mr. Schnacke. Yes, thank you, Mr. Chairman. Overall, the 
threat of future listings, I think, discourages innovation and 
efforts to go beyond what's required out there. It certainly is 
a big drain on resources. It makes everybody stop in their 
tracks and have to deal with procedures and deadlines and 
requirements for those particular efforts. I think to step back 
and try to take a bigger picture look, that's certainly why 
we're here today, to take the pledge and try to help bring this 
effort forward.
    But we're certainly looking for something that's going to 
provide some assurance to those that are going to go beyond and 
put resources on the table and to do the right thing. That's 
why this threat of future listings hangs out there as a cloud 
over this entire process.
    Senator Crapo. Thank you very much. Mr. Back, I found your 
support of the local planning groups very refreshing and 
appreciated your perspective. I particularly liked your point 
where you indicate that we should give the local process a 
chance, and that placed based decisionmaking is extremely 
valuable.
    I also noted that you brought up the funding issue. It was 
helpful that you identified some of the sources of funding. Do 
you believe that the funding sources that you've identified 
that are out there are adequate for the task?
    Mr. Back. Certainly, it's a start. But as Mr. Crawforth 
indicated, we have millions of acres that will be managed in 
one form or another, either through active treatments or 
changes in management practices. That's going to require 
additional funding.
    Senator Crapo. Thank you. You are familiar with the Federal 
Advisory Committee Act, I assume? Do you believe that that Act 
poses any impediments to our ability to accomplish what we're 
talking about here in the outline?
    Mr. Back. I don't think so. At the local level, we have had 
the agencies involved in our stewardship group, they're a very 
big portion of it. We've had State and Federal agencies, local 
industry, business people, ranchers, environmentalists and 
we've had no problem as far as that type of law being an 
impediment. So I don't think having what's suggested in your 
outline going forward would be an issue.
    Senator Crapo. Thank you very much. Mr. O'Keeffe, I 
certainly appreciate your views on the uncertainty that we face 
in trying to implement the recovery efforts with regard to sage 
grouse and whether they will pay off. There is certainly no 
guarantee for the sage grouse or for people. But one question 
is, how we would proceed in the face of the uncertainty that an 
ESA listing does pose right now.
    Do you believe that you in your community, your neighbors 
as well as those in the cattle business, are prepared to dig in 
and engage in a process like we've identified in the outline 
for a broad based collaborative effort?
    Mr. O'Keeffe. Absolutely. I think we're ready to come 
together and work on those things. I think it will be a 
challenge. The real issue that concerns me with the outline is, 
I think it's an excellent way to conserve sage grouse. What I 
am really concerned about is, as written, that type of an 
effort doesn't protect the grazing permits from being enjoined 
by litigation when the consultation process or any of the other 
technical aspects of the ESA don't quite meet the requirement 
of the law.
    Senator Crapo. That's an interesting point. At least one or 
more of the other witnesses have brought up the point of 
litigation based decisionmaking as opposed to more principled 
decisionmaking based on recovery efforts. If I understand what 
you're saying, you're saying that you're concerned that as much 
as we all may have the right intentions here and get agreement 
from the Federal agencies and others to move forward in a more 
collaborative process, that that could be derailed by 
litigation?
    Mr. O'Keeffe. I think that's one of the biggest dangers 
with the sage grouse situation. As Mr. Deeble points out, 
there's a large segment of the conservation community just 
wanting to get a good solution here. But I think there's 
another segment that we can't forget that's there that is very 
adept at using the Endangered Species Act to enjoin the land 
use practices that they don't agree with. We have to be real 
cognizant of that as we go forward.
    Senator Crapo. Thank you very much. In my next round, I'm 
going to get to you, Mr. Deeble, and Mr. Mosher, but it's time 
for Senator Thomas.
    Senator Thomas. Thank you. Let me go to you two gentlemen. 
It seems like what we're seeking here is a broader sort of 
management of land, open space, trying to keep the environment 
and all those things. When we've been told that the grouse 
thing is pretty well under control, why do we focus on that 
specifically? What does that have to do with the overall 
purpose of maintaining our lands as they are?
    Mr. Deeble. Essentially, sage grouse are a bird of the 
wildest lands we still have left in the western landscapes. 
They are an umbrella species in that they need, the population 
needs, a vast piece of territory to survive and sustain itself 
over the long term. Because it's so dependent on sage brush, it 
essentially can be seen as an umbrella species for the 
ecosystem. If you protect sage grouse, you will also enhance 
your populations of other wildlife, such as antelope, mule 
deer, and elk. You will even in some cases maintain large 
landscapes available for livestock grazing for the long term.
    So clearly it is an umbrella for multiple benefits.
    Senator Thomas. So it's a technique for land management, 
then?
    Mr. Deeble. It's one place, if you can focus through the 
lens of sage grouse conservation on this landscape, we think we 
can keep it intact for a whole range of benefits for the long 
term.
    Senator Thomas. Interesting. Do you have any comments, Mr. 
Mosher?
    Mr. Mosher. I would only add that the health of a landscape 
is a relative issue. In this instance, we're looking at the 
landscape through the eyes of a sage grouse, and I think in 
this particular case that's a fair representation, as Ben 
suggests, of conserving appropriately a very large population.
    Senator Thomas. Right. Sage grouse is relatively, that's 
just one of a number of elements, however. As you say, perhaps, 
it's a measuring device.
    Mr. O'Keeffe, are you suggesting that some of these 
endangered species listings and so on are land management 
techniques, rather than an animal technique? Or in addition to 
that?
    Mr. O'Keeffe. I think that it's become so through the 
courts and otherwise, yes.
    Senator Thomas. Yes. I think you're probably right.
    Does the seasonal restriction have an impact particularly 
on energy production?
    Mr. Schnacke. Well, yes, it makes for short windows when 
you have to schedule rigs and crews and try to get into areas, 
particularly remote areas. It does have an impact. One of the 
points I would make with regard to this discussion is that it's 
been pointed out these ideas that are coming forward are going 
to be very site-specific, and any process we go forward on 
ought to encourage techniques, technology, the types of things 
we can do and are currently doing to increase habitat rather 
than mandate it. There isn't going to be one size fits all. We 
have gotten our best results from efforts that encourage 
companies to use innovative ways to enhance habitat.
    Senator Thomas. Mr. Back, this is just one of the factors 
in the broader aspect of seeking to conserve our resources and 
conserve our land and conserve our open space?
    Mr. Back. Yes, the approach that we have taken is to look 
at things on a watershed or ecosystem approach, so they are not 
focusing just on sage grouse. But as has been indicated by the 
testimony here, sage grouse use a variety of habitats on a 
landscape scale and as you manage for that species and the 
different habitats that it requires, you are managing for many 
of the other species.
    So there may be a time on the landscape where you have a 
grassland that's going to be very productive for things like 
horned larks. But as that grassland changes and the sagebrush 
comes in, you start getting brood habitat for sage grouse, it's 
going to be pronghorn habitat as well. As the sagebrush gets 
thicker and becomes nesting habitat for sage grouse, you have 
something that may suit mule deer or even elk in the winter 
time. As that sagebrush gets taller and becomes sage grouse 
winter habitat, then you have habitat that's certainly suitable 
for mule deer.
    There is a variety of species that are associated with that 
successional trend. So we need to keep that mosaic on the 
landscape to maintain the watershed values as well as those 
wildlife habitat values, as well as the livestock values.
    Senator Thomas. That's interesting, because there are a lot 
of issues there and sage grouse is just one of them, and not 
necessarily the major one. But what you're saying is that it's 
a measurement of something broader.
    Mr. Back. If I may, I think the issue with sage grouse is 
that because the species is so widespread over the 11 Western 
States, sage grouse are different than many of our other 
endangered species, where we have a specific spring or area, or 
a mountain range where that species is found, and it's very 
easy then to focus on that species in that location. When you 
have a species that ranges over such a wide area as sage 
grouse, as has been indicated in the prior testimony, one size 
management doesn't fit all. It is important that we start 
dealing with the system and not just the species.
    That's the advantage; I think that's why this approach, the 
conservation effort, that is taking place for this species is 
unprecedented, because it forces people to look at the big 
picture.
    Senator Thomas. Thank you.
    Senator Crapo. Thank you.
    Mr. Deeble, I want to come back then and start out with 
you. The first thing I wanted to do was to mainly just highly a 
point of your testimony. On page 3 of your written testimony 
you talked about the fact that there is a sort of a certain 
stereotype out there to some extent that many people in the 
conservation community want to shut down some of the multiple 
use interests of our land. But you point out that that is not 
the intent of a large portion of the conservation community, 
and that instead, you believe there is the ability to manage in 
such a way that we accomplish the objectives of conservation as 
well as the objectives of many human uses of the land.
    I personally just want to endorse that, and let you give a 
little further comment on it if you would like to. One of the 
most common things that I end up discussing as I discuss 
environmental policy with my constituency is the fact that I 
believe the vast majority of my constituents, and frankly, of 
Americans, seek both objectives. They want to see our land 
preserved and protected, and the incredibly rich environmental 
heritage that we have in our Nation, whether it be the sage 
grouse or the many other aspects of our environmental heritage. 
They want to see it protected and preserved for generations in 
perpetuity into the future.
    At the same time, I believe the vast majority recognize 
that we have an opportunity to have many other uses of the 
land, economic uses, recreational uses, and public service 
uses, such as generation of power and other types of uses, such 
as that. People tend to believe that if we can sit down 
together and work out in a collaborative fashion solutions to 
these things, we can be very successful at accomplishing 
significant progress in each of those areas.
    I would just like to ask you to elaborate a little further 
on that if you would like to.
    Mr. Deeble. Thank you, Mr. Chairman. I think one of the 
most common critiques of the Endangered Species Act is that it 
delivers to us train wrecks, whether you're a member of the 
conservation community or economic sectors or the general 
public. I think the situation here that we have with sage 
grouse, and its wonderful timing, is that we don't have a train 
wreck yet. This is the time to be sitting down and sorting out 
a strategy, moving forward in a way which delivers some long 
term security to the bird and its habitats. We have time to 
make relatively modest adjustments and clearly sustain the 
species long term.
    That said, right now the Fish and Wildlife Service is 
involved in their petition review. We just have to very much 
support the judgments of the professional staff there at the 
Fish and Wildlife Service. They need to be given the resources 
to provide a competent deliberation and decision. It's a very 
complicated situation right now, particularly with emerging 
factors like new diseases on the landscape, which we haven't 
heard much about today.
    But we've been doing all our work in the context of the 
bird not being listed as threatened or endangered. We feel like 
a lot of people have been. We'd like to see that work continue.
    Senator Crapo. Thank you very much. Then also, before I 
move on to Mr. Mosher, you didn't really get a chance to talk 
about the third leg of your testimony, Mr. Deeble, with regard 
to the more direct engagement with public land management 
agencies. Would you like to go into that a little bit?
    Mr. Deeble. The issue of litigation has come up, and the 
National Wildlife Federation has been involved in 
administrative appeals and litigation related to sage grouse 
conservation. We heard earlier in testimony that public lands 
agencies control about 70 percent of the birds' habitat. So we 
feel it's important to keep our eye on that ball, because 
implementation of some of the best practices for sage grouse 
have been uneven at best, and in many cases slow to come from 
the agencies.
    In particular, there are issues related to things like 
management indicator species status for sage grouse by the 
Forest Service. That designation has now been withdrawn from 
future planning processes and we feel like that's a step 
backward potentially for sage grouse management on Department 
of Agriculture lands.
    The BLM has before them a lot of decisions related to 
resource management plan preparation, where things like areas 
of critical environmental concern designation has been proposed 
for key sage grouse habitats, nominated by their own staff but 
then rejected because they didn't consider sage grouse to meet 
the importance criteria for moving the nominations forward. 
There's those types of processes right now that we're very 
concerned about. We think we could gain ground with them if we 
could get some more unified Agency action.
    Senator Crapo. All right, thank you very much.
    Mr. Mosher, let me move to you. I have to say, as you began 
your testimony talking about the interests of sportsmen in the 
issue as well, I had to think back, and I can't remember for 
sure, but I think that the sage grouse may be the first bird 
that my dad took me out to hunt when I was a young boy. If it 
wasn't the first, it was one of the first. So I have many good 
memories of being able to go into the field and hunt sage 
grouse.
    The issue of preserving that opportunity and moving forward 
is one that I think is very critical. In your view, how can we 
best allocate our resources to optimize the tradeoff between 
the need for knowing where sage grouse live and how they are 
doing in each place and, I guess what I'm talking about is that 
we need both extensive and intensive information. We have a 
broad range here that we have to study, and we need a lot of 
very intensive information about the range. How do we manage 
that tradeoff in terms of trying to answer these questions?
    Mr. Mosher. With great difficulty. You've had much better 
experiences, actually, with sage grouse in that case than I 
have. I have in my life actually shot one, and it was in the 
State of Colorado some years back.
    Senator Crapo. Well, I haven't been able to hunt them for 
many, many years. Maybe we can recover them sufficiently.
    Mr. Mosher. Maybe we need to work on that and get the kids 
grown up and the dogs trained.
    Senator Crapo. That's right.
    Mr. Mosher. There are a number of levels, I think, to your 
question, Senator. Clearly the local working groups and the 
State agencies have been and are increasingly developing an 
incredible amount of detailed information about the local 
situations with regard to grouse, their particular management 
needs, what needs to be done there. At a higher level, I think 
an area of concern that we have had in the conservation 
community, and this goes back to the collaborative discussions 
that I referred to in my testimony, Senator Thomas left, 
actually he was at Moon Crest Ranch when we had one of these 
very first conversations with the energy and ranching folks.
    What I see in my conversations across all the various 
interests, from industry to the ranching community to the 
agencies to other colleague groups is a need for a higher level 
of coordination that I think you're referring to in the 
committee's proposal, a way to step back and look at where, 
with limited resources, do we need to allocate the lion's 
share, where can we get the greatest improvement for the 
resources that we have available.
    This has been a longstanding problem I think that many 
people have spoken to with regard to the adequate monetary 
resources of the Bureau of Land Management, to do simple things 
like monitoring, whether it's on grazing allotments, or whether 
it's monitoring associated with energy leases. We're not doing 
as good a job learning from what we're doing on the landscape 
now as we could. That takes investment. That takes people and 
money on the ground to gather those data.
    It also takes a process whereby those data can be uniformly 
gathered and effectively disseminated to the people that are 
making the management decisions, whether it's private 
landowners or State agencies or the Federal agencies through 
their resource management planning processes.
    Senator Crapo. Thank you. I also wanted to note, or wanted 
to let you know that I did make note of your comment that we 
needed to expand our focus to include renewable energy.
    Mr. Mosher. Yes.
    Senator Crapo. As a matter of fact, in Idaho right now, we 
have a number of wind projects that are under consideration and 
the sage grouse habitat issue is directly involved in those 
projects.
    Mr. Mosher. I'm well aware of that.
    Senator Crapo. So it's something we need to add to our 
list. The need for more adequate research is clearly presenting 
itself in those contexts.
    I'd like to, before we wrap up here, I'd like to just go 
over two or three questions with the whole panel and let you 
each kind of make observations, if you would like, on some 
broader issues. The first is the general question I've been 
posing to all of the witnesses so far. Again, I think I know 
your answers to this, but I'd like to ask it directly, and that 
is, with regard to the outline that the committee has put 
forward, do you believe it's a good idea and do you support us 
moving in that direction for management?
    Mr. Schnacke. Well, Senator, that's why we're here, we're 
here to support this effort. I would just certainly ask the 
committee in the overall effort to adhere to good science and 
to make all this, take a look at this thing from that basis. We 
will also certainly lend our effort to try to bring resources 
to bear for the effort, both individually with our companies, 
member companies as well as what efforts we can bring through 
perhaps working with Senator Allard on the committee and in our 
general assembly to see what we can do to help in this regard.
    Senator Crapo. Thank you. Anybody else want to pitch in on 
that one? If you don't say anything, I'll assume that you 
agree.
    Mr. Back.
    Mr. Back. I certainly agree with the effort and encourage 
you to go forward with it. In the second part of your outline, 
categories of participants and examples of specific ideas, I'd 
certainly like to see the list expanded to include the local 
stewardship groups and actually anyone that's interested in 
coming to the table and working on the problem.
    Senator Crapo. All right, thank you.
    Mr. Mosher.
    Mr. Mosher. I obviously would like to throw in my support 
for this effort, and our appreciation for it. I think it is a 
process that has been described that is very important and very 
timely. Just the observation that sage grouse and other 
wildlife don't recognize lines on maps, regardless of why the 
lines are there, and it's very important to be able to take 
that larger landscape look.
    Senator Crapo. All right.
    Mr. Deeble. Senator, I would like to speak as well in 
support of this effort coming together. Clearly we have a 
situation that is somewhat biologically complex, but much more 
so complex in terms of social issues and economic issues.
    Clearly it's going to require a broad community effort to 
step up to this challenge.
    Senator Crapo. Thank you. Mr. O'Keeffe, I think I asked you 
already, but did you want to add anything?
    Mr. O'Keeffe. Again, I want to say I am incredibly 
supportive of that type of an effort. If we don't have a 
listing, it can continue quite well. If we do have a listing, I 
think we'll need to be sure that the agencies have the manpower 
to process the permits, because that's where the litigation can 
really hurt the industry that I represent.
    Senator Crapo. Thank you. The other question I kind of 
wanted to toss out to see if anybody wants to comment on it is 
really the question I got into with our first panel at the 
Federal Agency level. That is, do you believe that we have 
sufficient flexibility in the law as it exists today and the 
regulations that we see the agencies operating under to 
accomplish the objectives that we're talking about here to get 
a broader, more comprehensive, collaborative effort underway to 
truly impact our management decisions? In other words, can we 
do this without changing the law or having new regulatory 
regimes put into place?
    Anybody want to jump into that? Mr. Mosher?
    Mr. Mosher. Sure, I'll take a chance. The Federal 
Government in my circle has occasionally been described as 
trying to turn a tanker. When you get it moving in the right 
direction, it turns. But it takes a while. I'm not an expert on 
the laws and regulations as they apply in this instance.
    But I have a reasonable familiarity, and I trust the first 
panel this morning when they assured you that, yes, the 
flexibility is there. I think we need not just the flexibility 
within law and regulation, we need the will and the 
determination down the line from the top to the bottom to the 
folks that are deciding how to do things on the ground to make 
it happen and with that determination I think it will.
    I'm optimistic.
    Senator Crapo. So what I understand you to say is that with 
the help from the oversight of this committee and others and 
the encouragement and support from many groups, we can get that 
tanker starting to turn?
    Mr. Mosher. We'd like to help you turn the tanker.
    Senator Crapo. All right, thank you.
    Anybody else? Yes, Mr. O'Keeffe.
    Mr. O'Keeffe. I would say that we definitely would support 
some amendments and changes to the Endangered Species Act in 
the future. I think it's a cumbersome act that's been there for 
a while and we could do some things to improve it.
    I would say that if it's interpreted right, if things work 
we can get through the sage grouse issue with the current rules 
in place. But if some of the calls are interpreted differently, 
I think we can have some real conflicts with the sage grouse 
thing. It's in the details, Senator.
    Senator Crapo. Good point.
    Mr. Schnacke?
    Mr. Schnacke. Let me just echo that. I believe that what 
the livestock people pointed out earlier is true, that there is 
a universe of folks out there that is certainly committed to 
trying to use the Endangered Species Act for purposes that may 
be outside of what this group is trying to accomplish. We do 
share that concern that even if our good intentions are put 
together and implemented, there is still going to be an effort 
to try to take it in a different direction.
    So we would encourage a debate on the Endangered Species 
Act and probably some of the same amendments the livestock 
folks are thinking about.
    Senator Crapo. Good points.
    Mr. Back.
    Mr. Back. I think there are certainly laws and regulations 
on the books within which we can work. What happens is when we 
have the Endangered Species Act invoked, if this species is 
listed, some of the tools go out of the tool box and we become 
restricted. It's kind of like hanging wallpaper with one hand 
tied behind your back.
    Right now if we see a long-term issue that requires some 
type of vegetation treatment where sage grouse currently live, 
we can implement that treatment through the NEPA process, we 
can work through the impacts and mitigation. Once the species 
is listed, the question becomes, may that action adversely 
affect the bird. If you're going to modify the vegetation in a 
manner that has a short-term adverse affect but will improve 
the habitat in the long term, then the answer to that question 
is yes, you may adversely affect it and you won't be allowed to 
do what may be in the long-term best interest of the species.
    So we lose that tool for long-term planning, for long-term 
benefit and sustainability. When we take those tools out of the 
tool box, we're hurt in the long term. We may do something for 
the short term to preserve the bird by preserving the habitat. 
But we can preserve this bird to extinction, because habitats 
are dynamic and we cannot preserve a condition of habitat; we 
have to manage in order to make those ecosystems sustainable.
    Senator Crapo. Thank you. Mr. Deeble.
    Mr. Deeble. Mr. Chairman, to your question, I'm not certain 
that we need to change laws to implement many beneficial 
practices for the bird today. But frankly, my experience 
working on the ground, though, has been that often working with 
private landowners, they can move faster with less baggage and 
less sort of bureaucratic considerations than the agencies 
themselves. The thing that I would ask for in the agencies is 
that down at the field level we allow them to have some 
innovative thinking and move forward in ways that they don't 
necessarily or aren't used to historically. I think we can 
bring the Agency tempo right up that what we're seeing from 
some of the private landowners.
    Senator Crapo. Good point.
    Let me just say, with regard to the issues that you've 
discussed, in fact, the discussion here already covered my 
third area that I wanted you to get into, which was the 
litigation threat and whether that creates a rigidity that we 
need to deal with. Let me just say to the panel that I 
personally believe we do need to change the Endangered Species 
Act, and I've been trying to reform it and to address those 
issues from my own perspective for more than a decade now and 
will continue to do so.
    In fact, this committee is currently as we speak working 
with a number of the groups who are here today and others to 
try to find some good ways to put more flexibility into the 
Act, so that we cannot be trying to hang the wallpaper with one 
hand tied behind us, as one of you has indicated. I will 
continue to work on that.
    The reality, however, the political reality, however, is 
that making any changes to the Endangered Species Act right now 
is very difficult. It requires a truly heroic bipartisan 
effort, because there is so much distrust on all sides with 
regard to any proposed changes. We're just working through that 
dynamic. I know there may be some in the room who don't think 
we need to make any changes or who think the changes we might 
need to make are different than the ones I would think we would 
need to make. That whole debate is ongoing, and frankly, I 
think that not just the Endangered Species Act should be looked 
at in that way. I think the NEPA process could be streamlined 
and improved in some very significant ways.
    But again, that's another very intense debate about which 
the political realities are that we need more time and more 
broad based support for those kinds of approaches before we 
will be able to succeed on them. My hope is that while we are 
moving through that debate and that process, we can find ways 
to achieve the flexibility and the progress that we've been 
talking about here in this committee without having to solve 
the battle over legislative changes to some of these statutes 
that some of us may believe are the right approach.
    I was very pleased today to hear the testimony of our 
Federal Agency managers that they thought we had that 
flexibility in the context of what we are addressing in this 
hearing. The support for the approach that we have tried to 
talk about here has been virtually unanimous among the interest 
groups represented here today, which includes the State, 
Federal and the private sector interest groups.
    So I just thought I would give you my little editorial on 
where I think we're headed in that context. I'm pretty much 
concluded and we're pretty much out of time, but if any of you 
would like to make any final comments or statements, I would 
welcome that before we wrap up.
    Mr. Schnacke. On behalf of our organization, thank you for 
having us here today.
    Mr. Back. Ditto.
    Senator Crapo. All right, well, again, I want to thank all 
of you. Let's continue to work together, because I do believe 
that we can make a tremendous amount of progress in the 
direction of the collaboration we've talked about today.
    Again, thank you all for your efforts in preparing and 
coming to present your testimony. This hearing will be 
concluded.
    [Whereupon, at 10:55 a.m., the subcommittee was adjourned.]
    [Additional statements submitted for the record follow:]
Statement of Hon. Wayne Allard, U.S. Senator from the State of Colorado
    Thank you, Mr. Chairman, for the opportunity to examine 
conservation efforts being implemented across the West for the Greater 
Sage-grouse. I appreciate your attention and dedication to highlight 
locally-driven conservation programs that are doing exactly what they 
have been created to do: conserving a species without the added 
mandates imposed by the Endangered Species Act.
    Mr. Chairman, Colorado is in a unique position with regard to 
conservation efforts for candidate species. In 2000, the mountain 
plover was a candidate species for the Endangered Species list. The 
Colorado Division of Wildlife and many dedicated individuals worked 
diligently to conserve approximately 350,000 acres of private land for 
research and conservation. Through their continued efforts, the species 
has not been listed. The recovery of the mountain plover is a great 
example of how locally-driven conservation programs work, and I want to 
ensure that these successful programs are continued throughout the 
West.
    As we will surely hear from some of our witnesses today, locally-
driven conservation efforts are the best way to effectively manage 
candidate or threatened species. The worst thing that can be done for 
these species is to support a blanket approach mandated from 
Washington, DC that would supplant locally-driven plans. Specifically 
in regard to the Sage-grouse, conservation strategies have been 
developing over the past eight years in Colorado. To negate local level 
studies for an all-encompassing national plan not only goes against 
sound science, but takes a step backward from protecting the species. I 
agree with Colorado's Northwest Resource Advisory Council's resolution 
providing suggestions for the Bureau of Land Management conservation 
strategy for the Sage-grouse. They comment that, ``The federal 
government should clearly acknowledge that different approaches to 
species recovery and habitat management will likely be different 
throughout the country.'' Attention needs to be given to local 
management strategies.
    Locally-driven conservation approaches take into account land 
management and multiple use standards critical to landowners in the 
area, rather than blocking owners from their property as can be done 
when a species is listed on the Endangered Species list. Existing land 
uses should not be compromised because of the Sage-grouse, but 
conservation plans should be developed with a multiple use guideline to 
the extent possible conserving the species. Any national Sage-grouse 
habitat conservation strategy should work with existing land uses to 
manage Sage-grouse and Sagebrush habitat, and possible conflicts should 
be resolved at the local level through planning groups that take into 
account local concerns, and not by mandates from Washington.
    Locally-driven conservation programs have a history of working, 
especially in Colorado. I look forward to finding ways to help sustain 
these conservation efforts, and to help the local land owner who 
voluntarily assists in the conservation efforts of the Sage-grouse.
    Thank you, Mr. Chairman, for the opportunity to discuss this 
important issue.
                               __________

  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana

    Thank you, Mr. Chairman, for holding this hearing today. Taking a 
hard look at the results of sage grouse conservation efforts and 
considering alternative management strategies for the future is vitally 
important to reducing conflict and ensuring healthy sage grouse 
populations across the West, without the need for extensive federal 
intervention.
    Sage grouse conservation efforts have already begun at the local, 
state, and federal levels, directed at both privately and publicly held 
lands. As we all know, coordinating the efforts of so many involved 
individuals and agencies over such a large geographic area is no easy 
feat.
    I would like to welcome Mr. Ben Deeble of the National Wildlife 
Federation, who traveled from Missoula, Montana to testify about his 
first-hand experience with innovative and cooperative conservation 
strategies in Montana. I greatly appreciate his insight and knowledge, 
and the efforts of his organization to gather good data and improve 
sage grouse habitat in Montana and neighboring western states.
    In Montana, we have committed significant resources to sage grouse 
conservation efforts. Unlike many other states, in Montana the majority 
of our sagebrush habitat is on private land, which is why cooperative 
and incentive-based conservation strategies are particularly important 
to our state. The Montana Department of Fish, Wildlife and Parks has 
partnered with the U.S. Fish and Wildlife Service to undertake a 
Sagebrush Initiative program that inventories sage grouse habitat, 
prioritizes habitat to be targeted under the program, and then provides 
landowner incentives to protect that habitat on private lands. It is 
just this sort of collaborative effort--that joins private, state, and 
federal efforts--that is the heart of establishing successful sage 
grouse conservation efforts for the future.
    Although many sage-grouse conservation programs are relatively new 
and their impacts can not yet be determined, the existence of these 
programs demonstrates the commitment held by many stakeholders to 
maintain and improve the quality of sage grouse habitat across the 
west. This is an important step in moving towards measurable 
improvements in sage grouse populations, and away from more stringent 
federal controls.
    That's why we must make sure that these local, collaborative 
efforts have the strength and durability to achieve their goals. We 
should support them with strong and well-funded incentive programs, and 
we can and should commit to landowners that we will help provide them 
with technical and economic assistance.
    We should help ensure adequate communication among all players so 
that the resources available for conservation are allocated in the most 
efficient manner. State wildlife departments should be in touch with 
the Bureau of Land Management and the Forest Service, local land owners 
need to be directed to the appropriate agencies to take advantage of 
rangeland improvement programs, and conservation organizations should 
stay abreast of the developments and success of these programs.
    In conclusion, I would like to reiterate my thanks to those who 
testified today and to those who are committed to sage grouse 
conservation. From our vantage point today, we can see that admirable 
work is being done in the public and private sectors to help protect 
the sage grouse and its habitat. What we need to ensure, however, is 
that this work is encouraged, expanded, funded, and developed to last 
well into the future.
    Thank you Mr. Chairman.

 Statement of Chad D. Calvert, Deputy Assistant Secretary for Land and 
            Minerals Management, Department of the Interior

    Mr. Chairman and Members of the Committee, thank you for providing 
us with the opportunity to discuss the Department of the Interior's 
(Department) efforts with state wildlife agencies, private landowners, 
and others to conserve sage-grouse. As the discussion below reveals, 
the Department is working with stakeholders across the spectrum to put 
forth an unprecedented effort for this species.
    Let me preface my remarks by noting that the U.S. Fish and Wildlife 
Service (FWS), the bureau within the Department responsible for 
implementation of the Endangered Species Act (ESA), is currently 
undertaking a comprehensive range-wide status review as part of its 
determination of whether or not the species is warranted for listing 
under the ESA. During this process, the FWS will consider input from 
the public, states, and other Federal agencies. Because of this ongoing 
review, however, my statement will not address issues that relate to 
the FWS decisionmaking process. Instead, I will first discuss the 
Bureau of Land Management's (BLM) efforts to conserve sage-grouse, 
followed by a brief discussion of some general FWS programs and tools 
that relate to the Department's efforts to improve species 
conservation.

                               BACKGROUND

    Sage-grouse are a popular game bird once seen in great numbers 
across sagebrush landscapes of the West. The greater sage-grouse is 
generally found at elevations of 4,000 to over 9,000 feet, and its 
historic range included Washington, Oregon, California, Nevada, Idaho, 
Montana, Wyoming, Colorado, Utah, North and South Dakota, Nebraska, 
Arizona, and three Canadian provinces. However, conversion of habitat 
to agriculture and urban development, changes in fire regimes, and 
fragmentation all have contributed to declines in sage-grouse 
populations over the past century. According to the Western Association 
of Fish and Wildlife Agencies (WAFWA), greater sage-grouse now occupy 
just over half of the 118.6 million acres of habitat estimated to exist 
prior to the arrival of European settlers.
    The Department is responsible for managing a large number of acres 
of that habitat. The BLM alone is responsible for managing half of the 
remaining sagebrush habitat, approximately 57 million acres, in the 
United States. Of these, 30 million acres are considered to be occupied 
sage-grouse habitat, with another 10 million acres potentially suitable 
for sage-grouse. As discussed below, the BLM currently manages for 
sage-grouse as a special status species across its range and recognizes 
the critical need to maintain and restore sagebrush habitat and 
populations.

                  BUREAU OF LAND MANAGEMENT ACTIVITIES

    In furtherance of Secretary Norton's ``4 C's'' philosophy of 
communication, consultation, and cooperation, all in the service of 
conservation, the BLM has been part of a collaborative approach to 
ensure the conservation of the sage-grouse. As managers of much of the 
habitat for sage grouse, the Department, through the BLM and FWS, 
signed an MOU with the WAFWA and the U.S. Forest Service in 2000. A key 
objective of this MOU is the development of a framework for 
conservation planning across the 11-state range of the greater sage-
grouse. In order to achieve this objective, a State/Federal Sage-grouse 
Conservation Planning Framework Team was developed and is comprised of 
representatives from four state agencies and the three Federal 
agencies.
    Under the last 4 years of this state-Federal partnership, 
information has been developed concerning the condition of sagebrush 
habitats, the present status of populations, and potential threats to 
sage-grouse. Much of this data is available on the SAGEMAP website, 
found at http://sagemap.wr.usgs.gov/, which contains data that can be 
used for research and management of sage-grouse and shrubsteppe 
systems. Also important, a cooperative conservation planning for sage-
grouse, unprecedented in its breadth and scope, has been initiated 
across all eleven states, at both the statewide and local levels. Those 
plans are now being completed and the majority should be in place 
within the next year. The BLM is committed to working with the states 
and local partners to pull these plans into a rangewide conservation 
strategy for sage-grouse.
    In addition, in order to address the need for habitat improvement 
to support sage-grouse populations on BLM-administered lands (pending 
the completion of the MOU's range-wide state conservation plans), the 
BLM drafted a National Sage-grouse Habitat Conservation Strategy in the 
summer of 2003 and made the draft available for public comment. The 
Strategy is being designed to complement the cooperative conservation 
efforts being led by state wildlife agencies. Many of the actions are 
directly related to needs identified during the BLM Director Clarke's 
``listening session'' visits to sage-grouse states in February and 
March of this year. It will provide guidance to BLM offices on planning 
and best management practices, as well as a resources guide, mechanisms 
for voluntary participation in conservation efforts, and improved 
access to science support. Feedback from stakeholders and written 
comments from the public have been received and will also be taken into 
consideration in finalizing the Strategy.
    BLM's national strategy is designed to further improve the Federal 
contribution to the state-Federal conservation efforts already 
underway. The BLM has also offered information to FWS on the bureau's 
land health standards and ecological improvement programs. Examples 
include systematic monitoring and assessments, the mitigation measures 
BLM requires for land uses, and BLM's fire and riparian restoration 
efforts with native plants.
    The BLM will spend over $14 million on sage-grouse conservation in 
fiscal year 2004, and is seeking an increase of $3.2 million for fiscal 
year 2005 for restoration and conservation of sagebrush habitats. These 
projects supplement our planning efforts by supporting specific 
cooperative projects to improve sage-grouse breeding, nesting, brood 
rearing and wintering habitat.
    The Special Status Species Program is the BLM's overarching 
regulatory mechanism to address conservation efforts designed to avoid 
listing of species. Pursuant to the Department's Manual at 632.16, the 
BLM should ``utilize authorities to not only protect listed species, 
but also to avoid precipitating the decline of other species to the 
point where (ESA) listing would be appropriate.'' Furthermore, the 
BLM's manual specifies that sensitive species will be given the same 
level of protection afforded Federal candidate species. All states 
where the BLM manages land classify the greater sage-grouse as a 
sensitive species. Accordingly, the BLM addresses mitigation factors 
for sage-grouse in all of its planning efforts. As an example, BLM-
Wyoming currently requires that habitat and population health for 
special status species be one of six standards in their Standards and 
Guidelines for Healthy Rangelands, which they use to monitor livestock 
grazing. For other activities, such as fluid and solid mineral 
development, recreation use and right-of-way development, the BLM's 
Mitigation Guidelines for Surface Disturbing Activities are applied. 
For sage and sharp-tailed grouse, this generally means no activities 
are authorized within nesting habitat from Febuary 1-July 31, or in 
critical winter concentration areas from November 15-April 30. 
Mitigation like this is carried out by the BLM across the range of 
sage-grouse using standards that are developed collaboratively between 
the BLM and each individual state.

                        OTHER CONSERVATION TOOLS

    The Department, through the FWS, currently has many conservation 
tools available which provide for close cooperation with private 
landowners, state and local governments, and other non-Federal partners 
and that are particularly important in implementation of the ESA.
    Through the Candidate Conservation program, the FWS works with 
states, landowners, and others to voluntarily conserve candidate and 
other declining species. Recently, the FWS applied the policy in the 
case of slickspot peppergrass (Lepidium papilliferum). In that 
instance, a Candidate Conservation Agreement, developed by the BLM, the 
State of Idaho, the Idaho Army National Guard, and several private 
property owners who hold BLM grazing permits, served as part of the 
basis for the FWS's determination to withdraw its proposal to list the 
plant. Among other information central to the FWS's decision to 
withdraw the proposal, conservation efforts in this formalized 
agreement were determined to reduce risk to the slickspot peppergrass 
such that this species is unlikely to become endangered within the 
foreseeable future. The slickspot peppergrass story is a good example 
of partners working together to conserve a species.
    Another tool is a Candidate Conservation Agreement with Assurances 
(CCAA). Under a CCAA, non-Federal property owners who voluntarily agree 
to manage their lands or waters to remove threats to proposed or 
candidate species receive assurances that their conservation efforts 
will not result in future regulatory obligations under the Act, beyond 
what they agreed to, in the event the species becomes listed. Species 
that are considered likely to become candidate or proposed species in 
the near future may also be included in a CCAA.
    CCAAs differ from Candidate Conservation Agreements in several key 
respects. Candidate Conservation Agreements can involve both Federal 
and non-Federal land, and they do not include assurances. Moreover, 
there are no specific regulatory requirements concerning the content of 
Candidate Conservation Agreements. In contrast, CCAAs are specifically 
designed to provide incentives to non-Federal landowners. CCAAs are 
available for non-Federal lands only, and they result in issuance of a 
permit that is the mechanism for providing assurances to the non-
Federal landowner. The Service enters into such agreements when they 
determine that the benefits of the conservation measures under the 
CCAA, when combined with those benefits if they were taken on other 
necessary properties, would preclude or remove any need to list the 
covered species.
    Under the Landowner Incentive Program, the FWS also provides 
financial assistance to partners interested in implementing 
conservation actions that benefit listed and other imperiled species on 
non-Federal lands. This program provides competitive matching grants to 
states, territories, and tribes to establish or supplement landowner 
incentive programs that provide technical and financial assistance to 
private and tribal landowners.
    As part of the Administration's overall Cooperative Conservation 
Initiative and funded through the Land and Water Conservation Fund, the 
Partners for Fish and Wildlife program is a voluntary habitat 
restoration program that provides financial assistance and restoration 
expertise to private landowners, tribes, and other conservation 
partners who choose to improve the condition of fish and wildlife 
habitat on their land. Recognizing that the majority of the Nation's 
current and potential threatened and endangered species habitat is on 
property owned by non-Federal entities, the program affords landowners 
the tools needed to make private lands working landscapes that benefit 
wildlife, while maintaining productive activities. Since its creation 
in 1987, the Partners for Fish and Wildlife Program has established 
over 28,000 agreements with landowners resulting in the restoration of 
1,060,000 acres of uplands, 649,300 acres of wetlands, and 4,670 miles 
of riparian and in-stream habitat.
    These programs reflect the belief that the conservation of listed 
species and their habitat depends on the cooperative participation of 
non-Federal partners. These programs, which require non-Federal cost-
sharing participation, reflect a strong commitment to conservation 
through cooperation, communication, and consultation with private, 
state, and other non-Federal partners.

                            PETITION REVIEW

    Between May 1999 and December 2003, seven petitions were filed with 
the FWS to protect the sage-grouse under the ESA. Three of these 
petitions are to list the greater sage-grouse throughout its range. In 
April 2004, FWS released its 90-day finding that there was enough 
information presented to merit a status review.
    During this status review, the FWS will utilize its Policy for 
Evaluation of Conservation Efforts (PECE), which was developed by the 
FWS and NOAA-Fisheries. PECE is designed to help guide agency personnel 
in the evaluation of whether planned conservation efforts by other 
Federal agencies, state, local, or tribal governments, businesses, 
organizations, or individuals, contribute to forming a basis for not 
listing a species or for listing a species as threatened rather than 
endangered. The final policy, published at 68 Fed. Reg. 15100, 
identifies criteria to be used by the agencies in determining whether 
formal conservation efforts--those identified in conservation 
agreements, conservation plans, management plans, or similar 
documents--that have yet to be implemented or to show effectiveness 
contribute to making listing a species unnecessary.
    The policy lists 15 criteria that FWS personnel will use to direct 
their analysis as to whether a particular conservation effort is 
sufficiently certain to be implemented and effective. Examples of the 
criteria include: (1) the conservation effort, the parties to the 
agreement or plan that will implement the effort, and the staffing, 
funding level, funding source, and other resources necessary to 
implement the identified effort are identified; (2) the legal authority 
of the parties to the agreement or plan to implement the formal 
conservation effort, and the commitment to proceed with the effort, are 
described; and (3) regulatory mechanisms necessary to implement the 
conservation effort are in place.
    The policy is not intended to provide guidance for determining the 
level of conservation or types of efforts needed to make listing 
unnecessary; instead, it is intended to ensure a consistent and 
adequate evaluation process in making a determination as to whether a 
conservation effort is sufficiently certain to be implemented and to be 
effective, and that it contributes to eliminating or reducing one or 
more threats to a species. Under this policy, those conservation 
efforts that are not sufficiently certain to be implemented and 
effective cannot contribute to a determination that listing is 
unnecessary or to a determination to list a species as threatened 
rather than endangered.
    The FWS is currently reviewing material submitted by the BLM, 
Forest Service, states, and other interested parties and intends to 
meet the 12-month deadline for status review on December 29.

                               CONCLUSION

    The Department is committed to working cooperatively with our 
partners toward conservation of the sage-grouse and its habitat. Mr. 
Chairman and Members of the Committee, this concludes my statement. I 
am happy to answer any questions that you might have.
                                 ______
                                 
  Responses by Chad Calvert to Additional Questions from Senator Crapo

    Question 1. I gather from your testimony that most of the 
regulatory procedures already required in BLM sage-grouse conservation 
are provided as ``Standards and Guidelines'' that are written 
specifically for each state and can be amended. What is the process--
step by step--for amending these requirements?
    Response. ``Standards and Guidelines'' refers to the BLM's 
regulations, ``Fundamentals of Rangeland Health and Standards and 
Guidelines for Grazing Administration'' (43 CFR 4180). Policy direction 
for implementing the regulations is set out in the BLM Handbook (H-
4180-1), as is the process for amending Standards and Guidelines. As 
discussed more fully below, the key steps are: advice to the BLM State 
Director from citizen-based Resource Advisory Councils (RACs); approval 
by the Secretary of the Interior; and implementation of new or amended 
Standards and Guidelines through BLM's land use planning process.
    To ensure that the Standards are appropriate for individual areas 
and to increase public support for the Guidelines, BLM State Directors 
worked closely with their respective Resource Advisory Councils (RACs) 
to develop State-level Standards and Guidelines. The BLM's 23 RACs are 
Federal Advisory Committee Act (FACA) chartered, citizen-based, groups 
consisting of 12 to 15 members from diverse interests in local 
communities, including ranchers, environmental groups, tribes, State 
and local government officials, academics, and other public land users, 
which advise BLM on the management of the public lands.
    Standards are expressions of physical and biological conditions or 
the degree of function required for healthy lands and sustainable uses. 
Their purpose is to help the BLM, public land users, and others focus 
on a common understanding of the fundamental resource conditions 
required to assure that the land is healthy and functioning.
    Guidelines explain to BLM managers, permittees, other public land 
users, and interested groups, the methods which the BLM plans to use, 
for example, grazing systems, vegetative treatments, surface occupancy 
restrictions, or improvement projects, to manage activities on the 
public lands in order to assure that the Land Health Standards are 
achieved.
    After State-level Land Health Standards and Guidelines are 
developed by the RACs and the BLM State Directors, the Standards and 
Guidelines are submitted to the Secretary of the Interior for approval. 
New, revised or amended Standards and Guidelines must be approved by 
the Secretary before being implemented. Once approved by the Secretary, 
they are implemented within the geographic area (usually the BLM 
planning area) for which they were developed, through the regular land 
use planning process.

                   SPECIAL STATUS SPECIES MANAGEMENT

    With respect to sage-grouse, the Standards and Guidelines for 
Rangeland Health include specific direction to BLM State directors to 
develop standards to promote conservation of habitat for special status 
species. The goal of Special Status Species Management (BLM Manual 
6840) is to implement management plans for the public lands that 
conserve candidate and Bureau-sensitive species and their habitats, and 
to ensure that actions authorized, funded, or carried out by the BLM do 
not contribute to the need for the species to become listed under the 
provisions of the Endangered Species Act.
    For example, as a result of the greater sage-grouse being 
designated for special status species management, all authorized 
activities occurring on public lands (including livestock grazing, off-
highway vehicle use, oil and gas drilling, and recreational 
development) are evaluated in the regular land use planning process to 
ensure that the activities will not contribute to the need to list the 
species as threatened or endangered.
    If there is a risk that authorized activities on public lands may 
contribute to the need to list the species, the BLM works 
collaboratively with individual States to develop mitigation factors 
(such as stipulations on permitted uses) that are designed to reduce 
the potential negative impact to the special status species from such 
activities. In a March 2003 agreement between BLM-Idaho and the State 
of Idaho's Department of Fish and Game, both the Federal Government and 
State of Idaho designated the greater sage-grouse (among other animals 
and plants) as a sensitive species to be managed under the provisions 
of Special Status Species Management. BLM-Idaho and the State of Idaho 
agreed to manage other activities on both public and state-owned lands 
so as to conserve sage-grouse populations and sagebrush habitat, with 
the goal of minimizing the need for the species to become listed as 
threatened or endangered by either Federal or State governments in the 
future.

    Question 2. One way to expand the State/Federal Sage-grouse 
Conservation Planning Framework Team to include non-governmental 
entities might be to amend the Memorandum of Agreement that originally 
formed the Framework Team. If you were to consider doing so, what would 
be some pro's and con's to chartering a Federal Advisory Committee?
    Response. The factors that make a FACA-chartered advisory council 
uniquely useful--providing expert advice directly and exclusively to a 
Federal agency--may be of less benefit in a collaborative, cooperative 
effort involving many governments (Federal, State, tribal and local). 
The structure and function of FACA committees is highly regulated, 
which may limit the Framework Team's flexibility to take into 
considerations the concerns of State and local governments.
    Chartered under the Federal Advisory Committee Act, an advisory 
council would be able to provide the BLM with expert advice and 
recommendations, as well as diverse opinions, on sage-grouse and 
sagebrush habitat conservation on the public lands. The BLM currently 
works with 39 advisory councils, ranging from our 23 Resource Advisory 
Councils (RACs), which provide advice on multiple use management of 
public lands within a State or region of a State, to area-specific 
advisory councils, such as the Steens Mountain Advisory Council. All 
recommendations by advisory councils are considered by the BLM's State/
field offices and by the Washington office when making decisions about 
the management of public lands.
    FACA-chartered advisory councils operate under formal rules and 
regulations issued by the General Services Administration (41 CFR 101-
6.1001), including, for example: committee members must meet conflict 
of interest standards; nominations of members to FACA advisory councils 
are reviewed under a formal public process; meetings must be open to 
the public and the news media, and announced in advance by publication 
of a notice in the Federal Register; anyone may appear before or file a 
statement regarding matters on a meeting agenda; minutes of meetings 
must be made available to the public; a quorum of members must be 
present to conduct official business.
    In an effort involving collaborative and cooperative management of 
a resource (for example, sage-grouse and sagebrush habitat 
conservation) that occurs in several States and crosses multiple layers 
of government jurisdictions (Federal, State, tribal, local), we would 
have to ask whether the non-Federal governmental participants would 
welcome the addition of a preferred advisor to the BLM that would have 
to operate under strict regulations. FACA-chartered advisory committee 
can provide advice solely to the Federal agency head regarding 
management activities on the public lands. Inclusion of such a group in 
the Framework Team may limit its flexibility to take into consideration 
the concerns of State and local government participants.
    The western states have led the collaborative efforts to develop 
range-wide strategies for the conservation of sage-grouse and sagebrush 
habitat. In 1999, wildlife agencies in the 11 western states that 
comprise the range of the sage-grouse committed to undertake a 
cooperative approach to the management of sage-grouse populations 
within and among their states. In 2000, these state wildlife agencies, 
through the Western Association of Fish and Wildlife Agencies (WAFWA), 
joined with the USDA Forest Service and the Bureau of Land Management 
and U.S. Fish and Wildlife Service at the Department of the Interior, 
to develop, in collaboration and cooperation, a rangewide strategy for 
the conservation and management of sage-grouse and their sagebrush 
habitats on the public lands and on lands administered by State and 
local governments. Under the 2000 MOU, the Federal agencies agreed to 
collaborate with State and local governments in the development of 
State and local sage-grouse conservation plans, and to develop plans 
for conservation of sage-grouse and sagebrush habitat on the public 
lands that would complement and coordinate with the State and local 
plans. The MOU provides for the direct participation of private parties 
and non-governmental entities through local working groups convened by 
each State. A FACA-chartered advisory board would be a preferred 
advisor to the BLM as to activities on the public lands and would 
represent a fundamental shift in the BLM's collaborative and 
cooperative approach to working with the western states in the State-
led sage-grouse conservation effort.

    Question 3. In the Subcommittee Outline document, we are 
envisioning a group that could recommend an organized overall approach 
to sage-grouse conservation across many states and including many 
contributing partners. These partners-including agencies such as the 
BLM, states and state agencies, and private landowners-would still have 
final say whether to adopt recommendations or participate in an 
organized effort. How would you define the scope of this effort in 
order to make it most likely to succeed in balancing site-specific 
realities with the benefits of a regional overview?
    Response. The Subcommittee Outline presents several interesting 
points, and we would appreciate the opportunity to discuss the Outline 
in greater specificity with Subcommittee staff. In many respects, the 
Outline offers parallels to the collaborative and cooperative efforts 
undertaken over the past four years by 11-state wildlife agencies, 
local governments, and Federal agencies under the 2000 Memorandum of 
Understanding between the Western Association of Fish and Wildlife 
Agencies (WAFWA) and the BLM and U.S. Fish and Wildlife Service at the 
Department of the Interior and the Forest Service at the USDA.
    Under this MOU, WAFWA led the effort to prepare a rangewide sage-
grouse Conservation Assessment, released on June 9, 2004, that examined 
sage-grouse populations and habitat conditions across the 11 states 
comprising the range of the sage-grouse. Each of the 11 States either 
has completed or is currently working to complete, through local 
working groups, state and local sage-grouse conservation plans. The 
BLM's National Strategy for Sage-Grouse Habitat Conservation on the 
public lands was released on November 16, 2004. The State/Federal 
effort under the MOU has produced both a rangewide overview (the 
Conservation Assessment) and site-specific implementation (sage-grouse 
conservation plans at the local and state levels, and sagebrush habitat 
conservation plans for the public lands).

    Question 4. What would be the most effective way to include the 
ideas of local working groups in the effort envisioned in the 
Subcommittee Outline?
    Response. We cannot overstate the importance of the participation 
of local working groups in the development of plans, at the local, 
State, and public land levels, for the conservation of sage-grouse and 
sagebrush habitat. Under the 2000 MOU, the ideas, opinions, and 
recommendations of local working groups are channeled through the 
individual States and are included in the development of local and 
State-level conservation plans. The BLM takes into consideration the 
ideas of local working groups as it develops, under the MOU, habitat 
conservation plans for the public lands that complement and coordinate 
with state and local sage-grouse conservation plans. As structured 
under the MOU, this collaborative process has worked well to 
incorporate the opinions and recommendations of local working groups.
      
  Statement of Bruce I. Knight, Chief, Natural Resources Conservation 
                   Service, Department of Agriculture

    Mr. Chairman and Members of the Committee, I am pleased to appear 
before you today to present the Department of Agriculture's perspective 
on habitat restoration and preservation associated with the sage grouse 
in eleven western states. I thank the Members of the Committee for the 
opportunity to appear, and I would like to express gratitude to the 
Chairman and members of this body for your interest in USDA's roles in 
helping farmers, ranchers, and other private landowners improve sage 
grouse habitat. Under the leadership of Secretary Veneman, we at USDA 
have taken proactive steps to provide additional program assistance 
specifically for sage grouse habitat conservation.
    I would like to take a moment to highlight the background of the 
USDA Natural Resources Conservation Service (NRCS) to place our 
involvement into context. NRCS assists owners of America's private land 
conserve their soil, water, and related natural resources. Local, state 
and Federal agencies and policymakers also rely on our expertise. We 
deliver technical assistance based on sound science and suited to a 
farmer's or rancher's specific needs. In addition, NRCS offers 
voluntary assistance to landowners in the form of financial incentives, 
cost share and conservation easements. In 2002, President Bush signed 
into law the most conservation oriented Farm bill in history, which 
reauthorized and greatly enhanced conservation programs. In total, the 
new Farm bill enacted by the President is estimated to provide a $17.1 
billion increase in conservation funding over a 10-year period. In 
addition, direction was provided to assist agricultural producers meet 
regulatory challenges that they face.
    From the standpoint of the mission and perspective of the NRCS, we 
have recognized that the issue of sage grouse habitat has become of 
increased concern to many farmers, ranchers, and other private 
landowners. We also recognize that 28 percent of the existing sage 
grouse habitat is found on private lands. This area represents about 40 
million acres. Our goal is to help agricultural producers maintain and 
improve sage grouse habitat as part of larger management efforts that 
provide for multiple land benefits. Mr. Chairman, there exists 
substantial potential to combine and coordinate sage grouse habitat 
efforts across governments, with farmers and ranchers, sportsmen 
groups, businesses and other stakeholders. NRCS is eager to join forces 
with the many interested parties in accelerating our efforts for sage 
grouse.

                           PROGRAM ASSISTANCE

    Last month, the Secretary announced $2 million in Grassland Reserve 
Program (GRP) funding available specifically for special projects to 
help protect sage grouse habitat. The Grassland Reserve Program helps 
viable ranching and farming operations protect and enhance grassland, 
rangeland, shrubland and certain other lands and provides assistance 
for rehabilitating grasslands. Eligible lands are enrolled in GRP 
through easements and rental agreements. The additional $2 million for 
sage grouse assistance was made available in Colorado, Idaho, Utah, and 
Washington. Each state received $500,000 to protect and enhance sage 
grouse habitat on GRP easement lands, with technical assistance and 
additional financial assistance provided through state and local 
partnerships. The sage grouse funding was in addition to nearly $70 
million that was made available in fiscal year (FY) 2004 to enroll land 
in the Grassland Reserve Program nationwide.
    The Department also recently announced targeted sage grouse 
assistance through the Wildlife Habitat Incentives Program (WHIP). 
Specifically, NRCS provided $350,000 to protect habitat of sage grouse 
at Parker Mountain, Utah. WHIP is a voluntary program for people who 
want to develop and improve wildlife habitat primarily on private land. 
Through WHIP, NRCS provides both technical assistance and up to 75 
percent cost-share assistance to establish and improve fish and 
wildlife habitat. WHIP agreements between NRCS and the participant 
generally last from 5 to 10 years from the date the agreement is 
signed. Under the targeted sage grouse initiative in Utah, landowners 
will use the funds for brush management, reseeding, water development 
and wildlife habitat management on approximately 104,000 acres.
    But our assistance to the sage grouse goes far beyond the targeted 
funding that has been announced. For example, our agency's flagship 
conservation cost-share program, the Environmental Quality Incentives 
Program (EQIP) is providing nearly $1 billion in conservation 
incentives and cost-share assistance nationwide this year, with even 
greater funding authorized for fiscal year 2005. We also know that the 
conversion of farm and ranchlands to non-agricultural usage poses a 
particular challenge to sage grouse habitat. I would note that the 
Department's Farm and Ranch Lands Protection Program is providing $112 
million this year to partner with state, local, and non-governmental 
efforts to protect prime farm and ranchland from development. While it 
is difficult to quantify the impacts, we know that both of these 
programs are making important contributions toward protecting and 
developing sage grouse habitat. Combining the efforts of all our 
programs and technical assistance, NRCS estimates that in fiscal year 
2004 more than 80,000 acres of sage grouse habitat will benefit 
directly from private lands conservation efforts with more than 1 
million acres experiencing a secondary benefit. For fiscal year 2005, 
we estimate that about 1.5 million acres of sage grouse habitat will 
benefit from primary and secondary effects combined.
    NRCS offers both technical and financial assistance that can help 
producers preserve, restore, and enhance sage brush habitat. In terms 
of conservation planning, NRCS provides a broad range of expertise, 
largely through the agency's Conservation Technical Assistance program, 
that can result in multiple complementary benefits, including the 
reduction of soil erosion and water quality improvements. Specific 
examples of NRCS assistance include the following:
    <bullet> rangeland planting
    <bullet> livestock fencing
    <bullet> water developments
    <bullet> rangeland treatments
    <bullet> prescribed grazing
    <bullet> conservation cover
    <bullet> field borders
    <bullet> land reclamation for fire control
    <bullet> critical area planting
    <bullet> reduction of incidental chemical spraying
    <bullet> pest management
    <bullet> brush management
    <bullet> shrub establishment
    <bullet> native grass and legume establishment
    <bullet> riparian herbaceous plantings
    <bullet> riparian forest plantings
    <bullet> wetland restoration
    <bullet> protection of sage brush habitat
    While NRCS offers many established conservation planning and 
practice measures that benefit sagebrush and sage grouse habitat, we 
are also taking steps to develop new scientific and technical tools to 
assist our field staff. For example, we recently developed new 
technical guidance through a collaborative arrangement with the 
Wildlife Habitat Council, which will assist field staff to implement 
conservation measures that benefit sage grouse habitat. The guidance is 
currently in peer review and is expected to be released before the end 
of the calendar year. NRCS also operates Plant Materials Centers 
(PMCs), which develop new plant cultivars and planning/management 
techniques in order to meet conservation objectives. We are directing a 
new initiative within the Plant Materials program to improve sage 
steppe restoration efforts, such as developing new science for 
improving restoration and interspersion of grasses and forbs within 
sagebrush habitat, and to develop techniques for control and management 
of invasive species such as cheat grass. Also, this year NRCS committed 
funding to assess the effects of conservation practices on sage grouse. 
We believe that we must provide our field staff with as much knowledge, 
data, and technical standards and specifications as possible, in order 
to ensure that farmers and ranchers are getting the expert advice that 
they need. NRCS is also planning a training course on conservation and 
management of sage grouse habitat for our field conservationists 
planners this coming spring.

                 OUTREACH AND INTERAGENCY COLLABORATION

    Mr. Chairman, while NRCS has focused to meet landowner needs, we 
also want to ensure that we partner appropriately with agencies within 
the Department of the Interior and governmentwide. We know that 
significant gains are being made on private lands and seek to ensure 
that the voice of agriculture is being heard and the stories of success 
on farms and ranches are being incorporated into discussions and 
decisions about the sage grouse. Also, we at USDA want to fully 
understand the perspective and objectives of partner agencies in order 
to ensure that our work is well directed, not duplicative, and best 
suits the needs of our customers.
    Earlier this year, we initiated a leadership retreat with the U.S. 
Fish and Wildlife Service (FWS) in order to give the top leadership 
staff of both agencies insight into each other's operations. We are 
also working together to develop many important concepts with respect 
to how conservation improvements should be regarded in future 
regulatory decisionmaking. Mr. Chairman, we know that the relationship 
between agriculture and wildlife will become a matter of ever 
increasing importance in the future. We want to ensure that we are in 
the best position possible to explain the linkages and work toward the 
most positive outcomes possible for the sage grouse, other species, as 
well as farmers and ranchers alike.
    We are also working with the Western Governors Association (WGA) on 
ways to further define our efforts, products and develop a strategy for 
further collaboration. NRCS maintains a full time employee on staff as 
a liaison with the WGA. We are working to identify ways to engage 
private land holders up front, on what it means to have sage grouse 
present by obtaining their presence and viewpoints in early meetings. 
Also, NRCS has developed a joint publication with the Western Governors 
Association on the interrelationship of private lands and sage grouse 
habitat.
    Mr. Chairman, we recognize there will be many challenges ahead, but 
we are enthusiastic about what is being done on private lands, and 
about all of the further progress that is possible.
    Thank you again, Mr. Chairman and Members of the Committee, for 
inviting USDA to participate in today's hearing. I would be pleased to 
respond to any questions that Members of the Committee might have.
                                 ______
                                 
   Response by Bruce Knight to Additional Question from Senator Crapo

    Question. The programs through which you are making funds available 
are competitive, grant application type programs. How do ``State 
Technical Committees'' make decisions in governing these programs? For 
example, if a regional group such as that envisioned in the 
Subcommittee Outline were to recommend priorities for' sage grouse, 
what would be the process of adjusting the application ranking 
procedure so as to adopt those recommendations?
    What would be the most effective way to include the ideas of local 
working groups in the effort envisioned in the Subcommittee Outline?
    Response. The Natural Resource Conservation Service (NRCS) 
conservation funds are available, not through a competitive grant 
application, but through various cost-share and easement programs that 
are available to farmers and ranchers. Each State then establishes an 
application ranking period to allow evaluation of projects for 
different program funding. Contracts are awarded based upon an 
environmental score for each application that achieves the natural 
resource benefits identified by local, State and national priorities. 
Practices eligible for cost share and the ranking criteria are 
developed with input from local work groups and State Technical 
Committees. Applications are ranked in this manner for the 
Environmental Quality Incentives Program, Wildlife Habitat Incentives 
Program, Wetlands Reserve Program, Grassland Reserve Program and the 
Farm and Ranch Land Protection Program. Ranking worksheets and 
application information for these programs are available on-line at 
http://www.nrcs.usda.gov/programs/.
    State Technical Committees are established under the authority of 
Section 1261 of the Food Security Act of 1985 to provide advice for 
technical considerations and technical guidelines necessary to 
implement conservation. The NRCS State Conservationist chairs the 
committee. Additionally, State Technical Committees provide 
recommendations on a number of natural resource issues within a variety 
of conservation programs. Although the State Technical Committee has no 
implementation or enforcement authority, the Department of Agriculture 
(USDA) gives strong consideration to the committee's recommendations, 
such as any recommendations on improving sage grouse habitat.
    On April 20, 2004, the NRCS Deputy Chief for Programs issued an 
internal memo to all State Conservationists in the 11 Western States 
with declining sage grouse populations. The memo stated NRCS's 
commitment to develop and implement a proactive strategy to conserve 
sage grouse habitat. Recognizing that conservation programs could 
provide significant benefits, each State Conservationist was encouraged 
to consider sage grouse habitat in program ranking and project 
selection criteria. Each State Conservationist made some adjustments in 
the criteria to meet this objective in 2004, and further adjustments 
are expected in 2005. Recommendations from a regional group, such as 
envisioned in the Subcommitteeq Outline, could be provided to each 
relevant State Technical Committee for discussion.
    Local work groups have proven to be a unique and valuable source of 
expertise and perspective on private lands conservation at the 
grassroots level. We typically think of the role of the work groups as 
providing recommendations on program and technical matters of interest 
to USDA. However, we can certainly see the potential value in dialogue 
on sage-grouse related issues with the regional group contained in the 
Subcommittee Outline. Certainly, open lines of communication between 
the groups would be important, and potentially more formal 
collaborative arrangements could take place where membership deems 
appropriate.
                               __________

Statement of Terry Crawforth, Director, Nevada Department of Wildlife, 
  and Vice-President, International Association of Fish and Wildlife 
                                Agencies

                              INTRODUCTION

    Mr. Chairman, Senators, thank you for inviting me to discuss our 
sage grouse conservation efforts across the western United States. I am 
Terry Crawforth, Director of Nevada Department of Wildlife. Today, I 
would like to tell you of what I believe to be the largest volunteer 
species conservation effort ever undertaken. An effort designed by the 
Western Association of Fish and Wildlife Agencies, with association 
membership composed of the Fish and Wildlife Agencies from the 23 
western states and Canadian provinces.
    Sage grouse were first identified by Lewis and Clark in 1831 as 
Centrocercus urophasianus. These ``spiny-tailed pheasants'' have 
inhabited Western North America for over 11,000 years and are thought 
to have occupied an area of approximately 500,000 square miles with 
optimum numbers estimated at 2 million. Currently, sage grouse occupy 
approximately 258,000 square miles in 11 states and two Canadian 
provinces with a total population estimate exceeding well over 250,000 
adult birds. Sage grouse are a sagebrush obligate and represent over 20 
other species of wildlife that require healthy sagebrush ecosystems in 
order to survive.

                               BACKGROUND

    The Western Association of Fish and Wildlife Agencies has been 
engaged in sage grouse conservation since 1954 when it formed a 
Technical Committee of scientists and managers. The technical committee 
advised the western directors in 1995 that they were concerned with the 
decline in numbers and reduction in distribution of sage grouse across 
their range and recommended that the Association begin specific 
conservation actions. That year, the member states and provinces 
committed to take the lead in conserving sage grouse in a Memorandum of 
Understanding (MOU), entitled, ``Conservation of Sage Grouse in North 
America.'' That MOU called for development of science based local area 
conservation planning efforts. The dimensions of this effort are 
significant but successful. To date the western states have developed 
the cooperation and assistance of the Bureau of Land Management, U.S. 
Forest Service, and the U.S. Fish and Wildlife Service via a separate 
MOU; installed an interdisciplinary range-wide planning framework team; 
achieved several grants to fund the various planning efforts; completed 
significant research; standardized data collection techniques and 
increased our data gathering efforts (last year, biologists and 
volunteers counted over 50,000 males on 2,600 breeding grounds or 
leks); and in cooperation with the U.S. Geological Survey, published a 
600-page status assessment of greater sage grouse and sagebrush 
habitats. In this report, our team evaluated the best science available 
to determine the status of sage grouse and its habitat. We determined 
that populations declined dramatically from 1965 to the mid-1980's, 
declined at a slower rate from the mid-1980's and were nearly stable 
for the past 10-years. While a wide variety of threats to sage grouse 
were identified in the assessment, the most significant are the 
degradation, fragmentation and out right loss of western sagebrush 
habitat.

                          CONSERVATION EFFORTS

    All of the information and science was developed in order to 
support our most important achievement--grass roots conservation plans. 
The western states, in cooperation with communities, Native Americans, 
industry, NGO's, and the various Federal agencies have been developing 
local area and state by state conservation plans. These local working 
groups currently number more than 50 in 10 states and will number more 
than 75 groups by 2006. These planning efforts are coordinated by each 
state and are nationally coordinated by the National Sage Grouse 
Conservation Planning Framework Team which has members from the 
association, Bureau of Land Management, U.S. Forest Service and U.S. 
Fish and Wildlife Service. The leadership of Nevada Governor Kenny 
Guinn has led the Western Governor's Association (WGA) to adopt three 
resolutions supporting this approach to conservation planning and 
implementation. On-the-ground conservation actions are being 
implemented across the range, where funding is available and 
cooperative projects are identified. The WGA has highlighted numerous 
sage grouse planning and project success stories in their Endangered 
Species Act listing submission to the U.S. Fish and Wildlife Service. 
We sincerely appreciate the Governors' support and would like to 
acknowledge the attention that Bureau of Land Management Director 
Kathleen Clarke has applied toward sage grouse conservation. Our sage 
grouse conservation actions are designed to evaluate conservation 
challenges and implement treatments to address these challenges, 
monitor the results of the treatment and adapt future management based 
upon those results.

                               CONCLUSION

    In conclusion, we have learned from previous species conservation 
efforts and succeeded in the largest mobilization ever of the public in 
a conservation effort. Much of that success can be attributed to the 
fact that local groups were allowed to develop local solutions without 
the encumbrance of rules and processes such as those required by the 
Endangered Species Act. Clearly, this effort will benefit sage grouse 
and all other wildlife species that use or depend upon sagebrush 
habitats. We are finished with the first phase of the planning cycle 
and are beginning project implementation. Successful implementation of 
meaningful conservation will require years of coordinated effort and a 
substantial infusion of new money to match existing Federal programs 
such as Farm bill, fire and fuels management, invasive species, and 
even the wild horse program. Federal agencies that manage 70 percent of 
the world's sage grouse habitat, primarily the Bureau of Land 
Management and U.S. Forest Service, do not have the resources to 
reallocate funds from existing programs to the sage grouse/sagebrush 
ecosystem conservation efforts. State wildlife agencies and local 
government are similarly strapped for funds and personnel to conduct 
planning, implementation, and monitoring efforts. The range-wide effort 
to conserve sagebrush, sage grouse and associated species, using an 
incentive based, publicly driven process is an historic new model for 
conserving a species or ecosystem before it needs protection by the 
ESA. Local folks are best qualified to address these issues and are 
more than willing to step up to the plate. What they need is financial 
support in order to implement planned projects, and if I might be so 
bold as to suggest that this might come in the form of increased State 
Wildlife Grants or even a separate federally funded sage grouse/
sagebrush conservation initiative.
    Thank you and I would gladly answer any questions.

    [GRAPHIC] [TIFF OMITTED] T6657.001
    
    [GRAPHIC] [TIFF OMITTED] T6657.002
    
    [GRAPHIC] [TIFF OMITTED] T6657.003
    
Responses by Terry Crawforth to Additional Questions from Senator Crapo
    Question 1. Of the technical questions that remain to be answered 
more satisfactorily, how would you rank the following types of 
information in terms of importance to management: mapping of presence 
and absence of sage grouse, improving the reliability of population 
indices or estimates, estimating demographic parameters such as birth 
and survival rates, elineating habitat types that correspond to 
demographic parameters?
    Response. It is difficult to rank the technical information needed 
since species and habitat population demographic data must be achieved 
somewhat simultaneously in order to design management prescriptions. 
The western states and federal agencies have completed much of this 
work on a gross scale. Our challenge now is to refine the gross data, 
while developing smaller management unit specific data, techniques and 
research needs in support of local area planning.

    Question 2. What would be the proper relationship between local 
working groups and state agency personnel if a region-wide initiative 
were to from as envisioned in the Subcommittee Outline? For example, 
would state personnel be most effective as advisors to the members of 
the groups or as members of the groups themselves?
    Response. The western states hope that everyone will join the 
existing sage grouse planning effort designed and implemented by the 
Western Association of Fish and Wildlife Agencies. In that process, we 
have a multi-agency range-wide team to provide range-wide technical 
data and research. Each state and local group has functioned 
differently, by design, in order to facilitate what works best locally. 
We have been the most successful where one staff from each agency is an 
equal member with other team members and can bring technical 
information or experts to the table when needed.

    Question 3. What would be the most effective way to include the 
ideas of local working groups in the effort envisioned in the 
Subcommittee Outline?
    Response. With all due respect, the effort envisioned by the 
Subcommittee is already several years in progress and in need of 
support. Seventy local groups have brought their ideas to the table, 
acquired the necessary technical information, completed plans and are 
engaging in project implementation. What they need are any 
unrepresented interests to join them with ideas, energy and funding.

                               S6621_____

 Statement of Greg Schnacke, Executive Vice President, Colorado Oil & 
         Gas Association on Behalf of Partnership for the West

                            I. INTRODUCTION

    Mr. Chairman and Members of the Subcommittee, my name is Greg 
Schnacke and I serve as Executive Vice President of the Colorado Oil & 
Gas Association. I am here representing the members of the Partnership 
for the West grassroots coalition, of which our Association is a 
member.
    I am pleased to provide this testimony on local and regional 
efforts throughout the West to conserve the Greater Sage-grouse. This 
testimony has been specifically endorsed by a wide range of the 
Partnership's members, and that list is included at the conclusion of 
this testimony.
    By way of background, the Partnership for the West is a non-profit, 
broad-based alliance of people who support a clean environment and a 
healthy, growing economy. The membership includes more than 400 
companies, associations, coalitions and group leaders who collectively 
employ or represent more than one million citizens across America in 
the following sectors: farm/ranching, coal, timber/wood products, small 
businesses, utilities, hard rock mining, oil & gas, construction, 
manufacturing, property rights advocates, education proponents, 
recreational access advocates, county government advocates, local, 
state and Federal elected officials, grassroots activists and others.
    Founded in 1984, the Colorado Oil & Gas Association is a non-profit 
organization designed to foster and promote the beneficial, efficient, 
responsible and environmentally sound development, production and use 
of Colorado oil and natural gas.
    As this Subcommittee is aware, the U.S. Fish & Wildlife Service 
(USFWS) is currently reviewing this species for possible listing as 
``threatened'' or ``endangered'' under the Endangered Species Act 
(ESA).
    Our testimony makes two very important recommendations:
    1. The USFWS should allow state and local officials to continue 
devising and managing locally led conservation efforts aimed at 
preserving and restoring the Greater Sage-grouse to biological health, 
and should not affect a Federal takeover of these efforts via an 
Endangered Species Act (ESA) listing. Such a listing would not be in 
the best interests of the recovery of this species and would chill 
ongoing sage-grouse conservation efforts.
    2. Private- and public-sector stakeholders across the region should 
continue to engage in innovative and effective sage-grouse and sage 
brush habitat conservation efforts, and those efforts should be 
coordinated as much as possible range-wide. We applaud the Chairman's 
leadership in facilitating discussions across interest sectors on long-
term conservation strategies for the sage-grouse. We look forward to 
engaging in those discussions. However, we must also note the obvious: 
if the U.S. Fish and Wildlife Service (USFWS) goes in the other 
direction and lists this species, that will not only chill current 
conservation initiatives but will also discourage stakeholders from 
engaging in further discussions about new, range-wide strategies.

                II. STATE AND LOCAL CONSERVATION EFFORTS

    In support of the first recommendation, I would like to make four 
main points, which will be more fully developed throughout my 
testimony:
    1. An unprecedented set of innovative and aggressive sage-grouse 
conservation efforts have been launched across the West in recent 
years. It is these locally led conservation strategies that will 
provide conservationists and wildlife managers with the most effective 
tools to preserve this species. In contrast, a ``threatened'' or 
``endangered'' listing under ESA will have a dramatic and chilling 
effect on these locally led conservation efforts and will discourage a 
wide range of stakeholders from continuing to engage in these efforts.
    2. These locally led conservation efforts are already making a 
difference. A recent analysis by the Western Association of Fish and 
Wildlife Agencies (WAFWA) indicates that population trends over the 
last 10-15 years in nearly every one of the 11 Western states with 
sage-grouse shows a stabilization of populations and, in many cases, an 
increase in sage-grouse numbers. We have serious concerns about the 
reliability of some of WAFWA's data. For example, many lek counts 
underrepresented sage-grouse populations because they were undertaken 
in poor weather conditions, during the wrong season or at the wrong 
time of day. The WAFWA Assessment failed to even recognize leks 
documented by many States simply because no individuals were counted at 
the same time. This clearly under-represents the number of actual leks 
in existence. However, this report does represent the best science thus 
far available on this species. And, we believe that its findings 
indicate that the conservation efforts that have been launched by 
Federal, state and local governmental and private sector stakeholders 
in the past decade are making a positive difference in the future of 
this species.
    3. Federal officials have an important role to play in sage-grouse 
conservation and are already actively engaged in these efforts. The 
Bureau of Land Management (BLM) is expanding its National Sage-grouse 
Habitat Conservation Strategy in close cooperation with USFWS that will 
address sage-grouse conservation needs across more than 50 percent of 
sage-grouse habitat. This puts the Federal Government in a key position 
to continue to encourage locally driven conservation efforts in 
coordination with state and local officials and the private sector.
    4. In spite of the best of intentions of Federal officials and 
wildlife managers, the ESA as currently written--and the lawsuits that 
drive its implementation--do not allow USFWS experts to focus on the 
most important goal of conservation efforts: species recovery. The 
current ESA mechanism has, over its 30-year history, shown little 
success in species recovery. By contrast, locally led conservation 
efforts are far more successful in this regard. We believe that anyone 
who truly cares about the future of this species will not want to see 
its biological future constrained by the demonstrated failings of the 
ESA.

1. Western States Are Mounting Aggressive and Unprecedented 
        Conservation Efforts
            A. State Governments are Taking a Lead Role
    The Governors of all 11 Western States with sage-grouse habitat are 
crafting and implementing comprehensive conservation efforts aimed at 
preserving this species. For example:
    <bullet> Of the 11 States and two Canadian Provinces with sage-
grouse populations, nine have completed sage-grouse conservation plans. 
Montana recently completed its draft plan. Colorado and Oregon are on 
fast tracks to completing their plans, and North and South Dakota 
completed their plans recently. Idaho has a completed plan and is in 
the process of revising it. California has been working with the State 
of Nevada on a joint plan up to this point, but is developing its own 
work plan for its population of sage-grouse.
    <bullet> Western States and Provinces are expected to have a total 
of more than 70 Local Working Groups (LWGs) in various phases of 
planning, implementing and monitoring progress by Winter 2006.
    <bullet> There are 23 LWGs scheduled to have completed conservation 
plans by the summer of 2004. Range-wide coverage of conservation plans 
are expected by the Winter of 2008. In seven states, conservation 
efforts have begun and are taking place whether or not a statewide plan 
is complete: WA, UT, OR, NV, MT, ID and CA. In addition, Federal land 
managers in Wyoming and Colorado are working with state Game and Fish 
officials to develop a wide range of development stipulations aimed at 
helping to conserve sage-grouse populations and habitat.
            B. Private Sector Leaders Are Working To Implement 
                    Conservation Programs
    The innovation is not being left to state governments alone: 
landowners and others in the private sector are engaging in multi-party 
efforts on sage-grouse conservation across the West. Several of these 
are detailed in the Western Governor's Association's (WGA) recent 
report ``Conserving the Greater Sage-grouse.'' (see http://
www.westgov.org/wga/publicat/sagegrouse-rpt.pdf.)
    Energy development companies are working range-wide to implement 
conservation measures both on a voluntary basis and in conjunction with 
state and Federal land managers.
    Also, in recent years, Resource Management Plans developed as part 
of energy development on Federal lands are increasingly focused on 
factors such as noise restrictions near leks, as well as noxious weed 
management, outreach and education, recreational disturbance of sage-
grouse, etc. These plans provide for lek surveying and clearances, as 
well as conservation efforts including lek avoidance, seasonal 
prohibitions and project ``visiting hours'' to limit or eliminate 
disturbance to the bird.
    A recent scientific analysis, submitted to the USFWS by the Western 
Governors' Association, outlines a powerful array of sage-grouse 
conservation efforts that have been undertaken by oil and gas companies 
as part of the lease stipulations and conditions of approval on mineral 
development on Bureau of Land Management lands. We have attached this 
analysis and request that it be entered into the record as part of our 
testimony.
    Many natural resource companies are undertaking a wide array of 
sage-grouse conservation initiatives. For example:
    <bullet> In Wyoming, the Bill Barrett Corporation (BBC), an oil and 
gas development company, has begun coordinating with state and Federal 
officials to improve sage-grouse habitat. In one project, BBC 
instituted a pinyon and juniper pine tree clearing program to enhance 
Sage-Grouse habitat. In another, Barrett installed a series of sediment 
check dams in eroding wet meadows to improve sagebrush habitat for 
grouse and other species.
    <bullet> Western Gas Resources has been instituting practices to 
minimize impacts on the sagebrush environment in its operations, such 
as the use of mowing, rather than clearing, sagebrush for roads 
wherever possible to minimize damage to soils and sagebrush under 
story. The company has also instituted an education program for 
employees and contractors regarding procedures to minimize impacts to 
sage-grouse and other wildlife species.
    <bullet> Utilities have also been heavily involved in sage-grouse 
protection efforts. For example, several utility companies, including 
Xcel Energy, are involved with the Eagle/Southern Routt Greater Sage-
grouse Working Group in Colorado. One of the results of this 
involvement has been that the utilities actively consult with the 
Colorado Division of Wildlife on electricity transmission line siting 
to minimize impacts on sage-grouse populations.
    <bullet> Hagenbarth Livestock Company in Idaho has cooperated in 
several projects to conserve sage-grouse habitat, including the Spencer 
Complex project. The Spencer Complex project seeks to enhance over 
5,000 acres of sage-grouse habitat across private property and state 
and Federal lands.
    <bullet> The Gordon Cattle Company is involved in a significant 
sagebrush habitat conservation project in Montana, cooperating with the 
State to establish an uninterrupted expanse across private property, 
state, and BLM lands. The resulting conservation corridor will provide 
more than 24,000 acres of prime sage-grouse habitat.
    <bullet> The Powder River Coal Company voluntarily instituted ``The 
Prairie Project'' in 2001, which had four main goals: to identify key 
sage-grouse habitats on its North Antelope Rochelle Mine; to collect 
data on habitat quality and on sage-grouse reproductive data in the 
Mine area; and to monitor the sage-grouse's use of reclaimed mine land. 
This landmark effort has resulted in several awards, including a 2002 
Mine Reclamation and Wildlife Stewardship Award from the Wyoming Game 
and Fish Department and the 2004 ``Corporation of the Year'' award from 
the Wyoming Wildlife Federation.
    <bullet> Newmont Mining Company has been working with the BLM and 
Nevada Division of Wildlife to develop and implement habitat 
improvement plans on Newmont's lands in the Battle Mountain Range. 
These planning efforts will ultimately result in both improved habitat 
and additional sage-grouse habitat, throughout a significant area in 
Nevada.
    <bullet> Also in Nevada, the Round Mountain Gold Corporation has 
been aggressively involved with sage-grouse protection at its Smoky 
Valley Common Operation. Round Mountain Gold has been working to 
incorporate sage-grouse considerations into all its work, from mining 
operations through reclamation.
    These are just a few of the hundreds of individual Sage-Grouse 
conservation efforts being led by private-sector companies in the 
energy and natural resource sectors.
2. These Local Conservation Efforts are Paying Dividends
    The WAFWA assessment noted that if trends characteristic of the 
1960's through the mid-1980's continued, the sage-grouse had a 
relatively high likelihood of being extirpated. However, the report 
found that for many populations, ``those trends have not continued.'' 
It goes further to state: ``. . . data suggest sage-grouse populations 
in many areas have been relatively stable for the last 15-20 years and 
some areas could be considered populations strongholds.''
    In fact, many States in the West have seen population increases in 
recent years. And, many of these population increases coincide with the 
onset of state and locally led sage-grouse habitat conservation 
efforts.
    While the WAFWA assessment is widely recognized as the best and 
most comprehensive science that has been compiled yet about the sage-
grouse, we have serious concerns about the validity of some of its 
data. Nonetheless, if the USFWS ends up relying on the WAFWA assessment 
in its status review for this species, we believe that it is impossible 
to ignore the positive population trends for the Greater Sage-grouse 
over the last 15-20 years across much of the West and the fact that 
these trends coincide with the onset of increased sage-grouse 
conservation efforts.

                               CALIFORNIA

    <bullet> Annual rates of change standardized on 2003 populations 
indicated a relatively stable to increasing population trend (Fig. 
6.5). Sage-grouse populations increased at an overall rate of 0.7 
percent per year from 1965 to 2003. (p. 6-25)
    <bullet> The proportion of active leks remained relatively stable 
and high throughout the assessment period, with 5-year averages varying 
from 77 percent to 90 percent between 1965 and 2003 (Table 6.4).
    <bullet> Although lek size class varied over the assessment period 
no obvious patterns could be documented, further suggesting a 
relatively stable population (Fig. 6.4).

[GRAPHIC] [TIFF OMITTED] T6657.004


                                COLORADO

    <bullet> Annual rates of change standardized on 2003 populations 
indicated a relatively stable to increasing population trend (Fig. 
6.8). Sage-grouse populations increased at an overall rate of 1.0 
percent per year from 1965 to 2003.
    <bullet> The average number of leks censused per-five-year period 
increased by 159 percent from 1965 to 2003. The number of active leks 
censused was similarly high, ranging from 35 to 114 and increasing by 
124 percent over these same periods.
    <bullet> Greater Sage-grouse in Colorado have been generally 
increasing for about the last 17 years and available information does 
not suggest a dramatic overall decline in breeding populations over the 
last 39 years.

[GRAPHIC] [TIFF OMITTED] T6657.005


                                 IDAHO

    <bullet> From 1985 to 2003, the population fluctuated around a 
level that was approximately 7 percent below the 2003 population and 
had an average change of 0.12 percent per year. Populations in the late 
1960's and early 1970's were approximately 2 to 3 times higher than 
current populations (Fig. 6.11). The population reached a low in the 
mid-1990's and then has increased since that time.
    <bullet> An average of 74 to 319 leks were censused in 5-year 
periods from 1965-69 through 2000-03. From 1965 to 2003, the average 
number of leks censused in 5-year periods increased by 331 percent. The 
number of active leks censused was similarly high, ranging from 69 to 
245 and increasing by 255 percent over these same periods.

[GRAPHIC] [TIFF OMITTED] T6657.006


                                MONTANA

    <bullet> From 1987 to 2003, the population fluctuated around a 
level that was approximately 9 percent below the 2003 population and 
had an average change of -0.07 percent per year. Populations in the 
late 1960's and early 1970's were approximately two times higher than 
current populations (Fig. 6.14). The population reached a low in the 
mid-1990's and then has increased since that time.
    <bullet> The number of leks counted increased and then remained 
relatively stable until the late 1990's (Table 6.8). By 2000, 
monitoring efforts increased substantially when the average number of 
leks counted during 2000-03 increased by 146 percent over the average 
number of leks counted in 1995-99 (Table 6.8). Overall, the number of 
active leks monitored followed the same increasing pattern as total 
number of leks (Table 6.8).

[GRAPHIC] [TIFF OMITTED] T6657.007


                                 NEVADA

    <bullet> From 1986 to 2003, the population fluctuated around a 
level that was approximately 1.1 percent above the 2003 population and 
had an average change of -2.53 percent per year. Populations in the mid 
to late 1970's were approximately 1.2 to 3.5 times higher than 2003 
populations (Fig. 6.17). Populations in the late 1960's and late 1970's 
fluctuated widely (Fig. 6.17) and there is no way of assessing whether 
these were actual changes in the populations or artifacts of sampling 
effort. The population reached a low in the mid-1990's and has not 
changed substantially since that time.
    <bullet> By 2000, monitoring efforts increased substantially when 
the average number of leks counted during 2000-03 increased by 146 
percent over the average number of leks counted in 1995-99 (Table 6.8). 
Overall, the number of active leks monitored followed the same 
increasing pattern as total number of leks (Table 6.8).

[GRAPHIC] [TIFF OMITTED] T6657.008


                              NORTH DAKOTA

    <bullet> From 1986 to 2003, the population fluctuated around a 
level that was approximately 1.4 percent above the 2003 population and 
had an average change of -0.66 percent per year.
    <bullet> The average number of leks counted per 5-year period 
increased by 42 percent from 1965 to 2003. Over these same 5-year 
periods, effective monitoring was relatively stable with an average of 
14 to 21 active leks censused (Table 6.9).
    <bullet> North Dakota did not employ a standard monitoring scheme 
of multiple counts spread over a four-six week period. Instead, all 
counts were conducted in about a 1-week period during mid-April and 
observers attempted to count all leks > 2 times (Sith 2003). However, 
this approach was consistently applied over the last 40 years.

[GRAPHIC] [TIFF OMITTED] T6657.009


                                 Oregon
    <bullet> From 1986 to 2003, the population fluctuated around a 
level that was approximately 13 percent above the 2003 population and 
had an average change of 0.95 percent per year. Populations in the late 
1960's and early 1970's were approximately two to two times higher than 
current populations (Fig. 6.23). The population reached lows in the mid 
1970's and mid 1990's and then has increased somewhat since that time.
    <bullet> Oregon has had a long-term extensive monitoring program 
for sage-grouse and has identified 377 leks in the state. The years 
1965-2003 were used as the assessment period. The average number of 
leks counted per 5-year period increased by 750 percent from 1965 to 
2003 (Table 6.10).
    <bullet> However, recent brood survey data from Oregon indicates 
that average production from 1985 to 2003 has steadily increased 
(average = 1.55 chicks per hen), and indicates a 37 percent reduction 
in production from the long-term average.

[GRAPHIC] [TIFF OMITTED] T6657.010


                                  UTAH

    <bullet> From 1965-85, the population declined at an average rate 
of 0.83 percent and fluctuated around a level that was approximately 
1.4 times higher than the 2003 population. From 1986 to 2003, the 
population fluctuated around a level that was approximately 5 percent 
below the 2003 population and increased at an average rate of 0.18 
percent per year. Populations in the early 1970's were approximately 
two times higher than current populations (Fig. 6.30). The population 
reached a low in the mid-1990's and then has increased considerably 
since that time.
    <bullet> Utah has had a long-term extensive monitoring program for 
sage-grouse and has identified 254 leks in the state. Although the 
average number of leks monitored in the 1970-75 period increased by > 
160 percent over the average number censused in 1965-70, we were still 
able to use 1965-2003 as our assessment period. The average number of 
leks counted per 5-year period increased by 289 percent from 1965-70 to 
2000-03 (Table 6.13). The number of active leks monitored followed the 
same increasing pattern as total number of leks (Table 6.13).

[GRAPHIC] [TIFF OMITTED] T6657.011


                                WYOMING

    <bullet> From 1968-86, the population declined at an average rate 
of 9.66 percent and fluctuated around a level that was approximately 19 
percent below the 2003 population. From 1987 to 2003, the population 
fluctuated around a level that was approximately 2 percent below the 
2003 population and had an average change of 0.33 percent per year. 
Lows were reached in the mid-1990's and there has been some gradual 
increase in numbers since that time.
    <bullet> The proportion of active leks remained relatively stable 
over the assessment period, ranging from 63 percent to 78 percent from 
1965 to 2003 (Table 6.15).

[GRAPHIC] [TIFF OMITTED] T6657.012


                               WASHINGTON

    <bullet> From 1965-85, the population declined at an average rate 
of 8.73 percent and fluctuated around a level that was approximately 
1.4 times higher than the 2003 population. From 1986 to 2003, the 
population fluctuated around a level that was approximately 1.2 percent 
above the 2003 population and had an average change of -0.20 percent 
per year.
    <bullet> Washington has identified 62 leks and has had a long-term 
monitoring program in place. Thus 1965-2003 was used as the assessment 
period. The average number of leks counted per 5-year period increased 
substantially over the assessment period (Table 6.14). In 1965-69, an 
average of three leks per year were censused but by 2000-03, an average 
of 47 leks per year were counted, an increase of > 1400 percent. The 
average number of active leks counted per 5-year period also increased 
by > 500 percent.

[GRAPHIC] [TIFF OMITTED] T6657.013


3. Federal Land Managers Are Already Strongly Involved in Sage-grouse 
        Conservation Efforts
    BLM, which manages approximately 52 percent of sagebrush habitat, 
has also been very active and has released a draft National Sage-grouse 
Habitat Conservation Strategy to serve as a framework to address the 
conservation of sage-grouse habitats on BLM-managed lands.
    As noted recently by the WGA in its report to USFWS, the U.S. 
Department of Agriculture's (USDA) private-lands conservation programs 
provide many opportunities for accomplishing the goals developed for 
Sage-grouse conservation. The programs provide incentives for private 
landowners to develop or set aside lands that can be utilized to create 
or enhance Sage-grouse habitat. These programs include the Grassland 
Reserve Program (GRP), Conservation Reserve Program (CRP), Wildlife 
Habitat Incentives Program (WHIP), Environmental Quality Incentives 
Program (EQIP), Wetlands Reserve Program (WRP), and the Farmland 
Protection Program (FPP). In the West, CRP lands are locally important 
to Greater Sage-grouse and Sharp-Tailed Grouse conservation.
    A variety of funding sources exist to implement the conservation 
efforts of the state and Federal Governments. BLM maintains a lengthy 
document on its Sage-grouse web pages entitled ``Funding Availability 
for Partners in Sage-grouse Conservation Efforts.'' (see http://
www.blm.gov/nhp/spotlight/sage--grouse/Sage--Grouse--Funding--
Availability--for--Partners.pdf). This describes just some of the 
funding that may be available to protect Sage-grouse from such sources 
as USFWS, BLM, USDA, the Forest Service, Department of Defense, 
Department of Energy, State Fish and Game Agencies, and nongovernmental 
organizations.
    In addition to partnering with government at various levels, 
Westerners including farmers, ranchers, miners, drillers and others who 
live and work on the land continue to fund ongoing research as well as 
conservation efforts. Without them, many of the studies, lek 
rehabilitation projects, lek mapping, disease control programs and 
other efforts critical to the sustainability of the Sage-grouse would 
end, imperiling the Sage-grouse and losing an opportunity to know 
vastly more about this hallmark of the West and the sagebrush sea it 
inhabits.
    Existing Federal or regional conservation initiatives undertaken by 
BLM and other agencies which affect the Sage-grouse and sagebrush 
biome, as described in the BLM's Draft Sage-Grouse Conservation 
Strategy (BLM, 2003, pgs. 3 to 4) include:
    Plant Conservation Alliance (PCA) (1994). PCA is a public/private 
partnership among 10 Federal agencies and more than 195 non-Federal 
cooperators. In complying with Congressional direction, the PCA 
(through BLM) is leading an interagency native plant material 
development program for use in restoration and rehabilitation efforts 
on Federal lands. Funds have been provided for the development of 
appropriate native plant materials within the sagebrush ecosystems 
(BLM, 2004a).
    Great Basin Restoration Initiative (GBRI) (1999). The GBRI was 
initiated by the BLM in response to widespread habitat losses from 
wildfires and other causes in the Great Basin. Concern over the loss of 
Sage-grouse and other sagebrush dependent species' habitats was a 
significant and important factor that influenced how GBRI evolved. The 
BLM proposed Sage-grouse conservation strategy is consistent with and 
supports these efforts. The GBRI seeks to restore areas of high value, 
reduce the effects of invasive grasses and noxious weeds, and reverse 
the cycle of destructive wildland fires and weeds. The GBRI team 
provides technical assistance and meets about three times annually 
(BLM, 2004)
    Sage-grouse and Sagebrush Habitat Conference (1999). Convened by 
BLM in Reno, Nevada in November 1999, the conference hosted 150 
attendees. Representatives from states affected by a possible listing 
of the species under ESA shared information regarding possible 
cooperative conservation efforts among the states and Federal agencies 
(BLM, 2001).
    Interagency Cooperative Agreement (2000). In July 2000, WAFWA 
completed a Memorandum of Understanding (MOU) between itself and the 
USFS, the USFWS and the BLM. This MOU established state wildlife 
agencies as the lead for state and local conservation planning efforts 
for sage-grouse. In July 2002, WAFWA approved a proposal to develop a 
range-wide Conservation Assessment (CA) for sage-grouse and sage-grouse 
habitat to be completed in 2004. It was intended that the CA would form 
the basis for development of future conservation measures.
    Interagency Committee (2002). With increasing numbers of at-risk 
species in the West, the BLM, USFS, USFWS, and state wildlife agencies 
began addressing the need to coordinate more effectively for the 
conservation of at-risk species. In 2002, an interagency committee was 
formed to coordinate planning and restoration information for species 
within sagebrush ecosystems, including the sage-grouse, and develop or 
coordinate processes to integrate such information into Federal land 
management plans.
    Development of Cooperative Habitat Assessment Procedures (2002). In 
2002 the BLM, in cooperation with the USFS Pacific Northwest Research 
Station and the USGS Biological Resources Division Snake River Field 
Station, developed science-based procedures that use existing 
information to conduct regional sagebrush habitat assessments for 
species of concern. Development of the procedures was completed in 2003 
(Wisdom, et al, 2003). The procedures were used to develop the 
prototype Great Basin assessment. Information from that assessment will 
be used in support of sage-grouse conservation planning, in development 
of the CA, and the Great Basin Restoration Initiative. They will also 
be used to conduct, or support, prototype assessments for the other 
geographic regions.
    Sagebrush And Grassland Ecosystem Map Assessment Project (SAGEMAP) 
(2003). The SAGEMAP project, conducted by the Snake River Field Station 
of the USGS Forest and Rangeland Ecosystem Science Center and 
cooperatively supported by numerous Federal and state agencies, 
universities, and organizations, is identifying and collecting spatial 
data layers needed for research and management of sage-grouse and shrub 
steppe systems. The datasets, which can be queried, viewed, and 
downloaded from the SAGEMAP FTP site, are important for understanding 
and management of shrub steppe lands and associated wildlife. The data 
can be used to identify factors causing the declines of wildlife and 
shrub steppe habitats.
    BLM Draft National Sage-Grouse Conservation Strategy (2003). The 
plan includes goals to guide BLM's implementation of a national 
strategy for management of sage-grouse, including a consistent 
management framework to address sage-grouse conservation needs, 
increased understanding of sagebrush habitats, and the development of 
partnerships to enhance effective sage-grouse habitat management.
    This rather lengthy list indicates that the sage-grouse already 
receives a significant amount of management attention from the Federal 
Government.
4. The Endangered Species Act is a Flawed Statute, Driven by a Flawed 
        Petition Seeking A Listing for the Sage-grouse
    The Partnership strongly believes that there are significant 
problems with the way the current statute addresses threatened and 
endangered species protection, and we hope to get into this important 
policy matter in more detail over the next several months. To take just 
one example: the scientific rigor employed by many Federal agencies in 
their decisionmaking, such as in EPA's FIFRA program, is simply not 
required under the ESA for the Fish & Wildlife Service.
    Looking at the Greater Sage-grouse specifically, it is clear that 
there is a great cloud of professional skepticism surrounding the 
petition for listing the grouse under the ESA. An independent review of 
the listing petition conducted by the Petroleum Association of Wyoming 
found the petition is filled with ``gross overstatements,'' ``blatant 
speculation,'' ``theoretical rambling,'' and ``misstatement of fact.'' 
They concluded: ``[Our] overall reaction to the petition is that the 
review of literature is not objective and so clearly is driven by an 
agenda that it damages the credibility of the entire document.''
    To review a summary of this critical analysis, go here: http://
www.partnershipforthewest.org/sage--grouse--science--critique.pdf

                            III. CONCLUSION

    It is our sincere hope that the USFWS allows state and local 
efforts to continue and does not list this species. We believe this 
outcome is the best outcome for the future of the Greater Sage-grouse. 
It also will encourage stakeholders--both public and private--to 
continue to engage in collaborative efforts on future conservation 
efforts.
    In that regard, we want to offer our praise and thanks to the 
Chairman for his efforts and commitment to facilitate such a 
collaborative dialog. We look forward to engaging with him and others 
in those discussions. We hope, however, that this collaboration can 
occur in the absence of a Federal takeover of sage-grouse conservation 
via ESA.
    Thank you very much, Members of the Subcommittee, for considering 
the views of the Partnership for the West.
    individual partnership members who have endorsed this testimony
American Gas Association
American Loggers Council
Arch Coal, Inc.
Associated Governments of Northwest Colorado
Berco Resources, LLC
Bill Barrett Corporation
BlueRibbon Coalition
Bob Balunda
CH 4 Energy
Colorado Rural Electric Assn.
Colorado Snowmobile Association
Colorado State Rep. Diane Hoppe
Colorado Timber Industry Association
David Haase
DDX Corp.
Devon Energy
EnCana Oil & Gas (USA) Inc.
EOG Resources
Evergreen Resources
Gerhard and Associates
Greenwood & Company
Harvard Petroleum Company, LLC
Helding Construction LLC
ICMJ's Prospecting and Mining Journal
Independent Petroleum Association of America
Independent Petroleum Association of Mountain States
Jackson County, Colorado
Julander Energy Company
Kennecott Energy Company
Kennedy Oil
Lance Oil & Gas
Lander County Public Lands Adv. Board
MDU Resources Group, Inc
Mountain States Lumber and Building Material Dealers Association
National Park Adventures
New Mexico Oil and Gas Association
North Dakota Farm Bureau
North Park Sage Grouse Working Group
Northwest Mining Association
Off-Road Business Association (ORBA)
Orion Energy Partners
Ozarks (MO) Chapter, Property Rights Congress
Peabody Energy Corp.
Ponderosa Resources Corp.
Resource Roundup
Southwest Chapter New Mexico People for the U.S.A.
Southwest Gas Corporation
Sunlight Massage/Bodyworks
Synergy Operating, LLC
The Paladin Group
Top of Utah Snowmobile Association
Twentymile Coal Company
United Four Wheel Drive Associations
Warrior's Society Mountain Bike Club
Washington County
Western Business Roundtable
Western Gas Resources
White Eagle Exploration, Inc.
Williams RMT
Williams RMT Production
Wyoming Ag-Business Association
Wyoming Mining Association
Wyoming Stock Growers Association

                               __________

    Statement of Gary Back, Principal Ecologist, SRK Consulting and 
                   Northeast Nevada Stewardship Group

                              INTRODUCTION

    Mr. Chairman and Members of the Subcommittee, my name is Gary Back 
and I am representing the Northeastern Nevada Stewardship Group, Inc. 
(Stewardship Group). On behalf of the Stewardship Group, I want to 
thank the Environment and Public Works Subcommittee on Fish, Wildlife, 
and Water for providing the Stewardship Group an opportunity to testify 
at this hearing. As a representative of one of the many volunteer local 
area planning groups involved in Sage-grouse conservation, we welcome 
this opportunity to provide you with information that will help sustain 
these local efforts. I especially want to thank Senator Reid and his 
staff for their assistance.
    The Nevada State motto is ``Battle Born'' in reference to statehood 
being granted during the Civil War conflict. Similarly, the Stewardship 
Group was born out of conflict; conflict surrounding public land issues 
in the West. As the level of conflict elevated, a private citizen (Leta 
Collord) and a Bureau of Land Management (BLM) Field Office Manager 
(Helen Hankins) agreed that there had to be a better way to not only 
resolve the conflicts, but also to improve stewardship of the land. The 
two agreed that the BLM Partnership Series was worth trying in this 
arena of conflict. The Partnership Series is a series of training 
modules in community-based collaboration or consensus building. This 
training helps individuals, groups, organizations, and agencies with 
diverse backgrounds and viewpoints to focus on their common values, and 
to use these diverse viewpoints to develop plans and actions that can 
achieve those values on the landscape, community, or economy.
    In September 1998, the BLM Elko Field Office and several local 
mining companies sponsored a three-day workshop on the collaborative 
process that was followed a month later by a meeting of the trainees to 
determine if the were interested in putting the training into practice 
and forming a community-based stewardship group. The group agreed to 
give this a try, and the Northeastern Nevada Stewardship Group, Inc. 
was formed. Over the next several meetings, the Stewardship Group 
developed a mission statement, a copy of which is included as 
Attachment A. This mission statement can be paraphrased as: ``The 
solution has to work for all of us, or it works for none of us''. We 
believe it is imperative to conserve the natural resources of our 
region without losing our heritage and culture, while maintaining our 
local economy.
    The Stewardship Group also recognized that to maintain credibility 
with the public and the land management agencies, the work had to be 
science-based. To this end, the Stewardship Group has sponsored one or 
two science symposia each year since 1999. The intent of the symposia 
has been to provide members and the public an opportunity to interact 
with scientists specializing in various topics related to the issues we 
were undertaking, and to educate ourselves about the processes that 
occur on the landscape. Examples of the symposia include:

        <bullet>  National Environmental Policy Act Workshop, 1999;
        <bullet>  Great Basin Rangelands Science Symposium, 1999;
        <bullet>  Sagebrush Symposium, 2000;
        <bullet>  Fire Ecology and Revegetation Symposium, 2001;
        <bullet>  Restoration and Management of Sagebrush/Grass 
        Communities Workshop, 2002;
        <bullet>  History of Rangeland Monitoring, 2003;
        <bullet>  Sage-grouse Ecology and Management of Northern 
        Sagebrush Steppe, 2003; and
        <bullet>  Mining and the Community A Partnership 
        (Sustainability Workshop), 2003.

    These symposia and workshops provided a forum to discuss the 
various issues, dispel myths, and move the group to a common 
understanding. This was an essential part of the process.

          COLLABORATION AND SAGE-GROUSE CONSERVATION PLANNING

    The Stewardship Group decided to focus on emerging issues; to work 
on the issues before they became embroiled in heated public debate. In 
1999 there were suggestions that environmentalists were preparing to 
petition the U.S. Fish and Wildlife Service to list the Greater Sage-
grouse (Centrocercus urophasianus) as threatened and endangered under 
the Endangered Species Act of 1973 (as amended). Because this issue had 
the potential to affect land users of every persuasion, and therefore, 
the potential to bring diverse viewpoints to the table to resolve the 
issue, Sage-grouse conservation was selected as the issue for the 
Stewardship Group to implement the collaborative process. This was a 
new issue and hard-line positions had not yet developed. The potential 
existed for a successful collaborative effort and the citizens worked 
to resolve differences for the common good.
    The Stewardship Group incorporated community values into the 
development of this strategy, a strategy developed to provide for the 
natural resources within the county, as well as to provide for the well 
being of the people, continuance of the land uses, and maintenance of 
the cultures of Elko County. The Stewardship Group quickly realized 
that the Sage-grouse was an indicator species of ecosystem health. 
Because of the variety of plant community types (i.e., habitats) needed 
by Sage-grouse for breeding, nesting, brood-rearing, and wintering, the 
goal of managing Sage-grouse habitats for an optimal balance of shrubs, 
forbs, and grasses at community and landscape scales should be 
analogous with restoring and/or maintaining form, function, and process 
in the sagebrush ecosystem. Consequently, the focus of the effort 
changed from a single-species conservation plan to an ecosystem 
conservation strategy.
    The emphasis on Sage-grouse has not been lost in the process. 
Throughout the process, sagebrush obligate species, special status 
species (both plants and animals), and other unique land features 
(e.g., aspen stands, sub-alpine forests, etc.) were be considered with 
the intent on maintaining the diversity of communities on the 
landscape. Sage-grouse have been the impetus for this conservation 
effort, but should be viewed as the ``means'' not the ``ends''; by 
understanding the ecology of this species and the ecology of the 
sagebrush plant community on which it depends, some of the general 
concepts for ecosystem management can be developed. The ``ends'' is to 
achieve properly functioning ecosystems that allow for sustainability 
of the resources and the sustainability of the land uses that depend on 
those resources.
    During this time, Nevada Governor Kenny Guinn convened a statewide 
Sage-grouse Conservation Team. The Stewardship Group was invited to 
participate in this statewide effort. The result has been a Nevada and 
Eastern California Sage-grouse Conservation Plan (State Plan). The 
Stewardship Group's Elko County Sagebrush Ecosystem Conservation 
Strategy (Strategy) has been incorporated into this State Plan. The 
Stewardship Group's Strategy is a watershed-based, ecosystem 
conservation strategy and the State Plan is primarily focused on Sage-
grouse conservation. While the two planning efforts share common goals 
and considerable overlap in process, they remain separate approaches. 
The end result is that the NNSG has incorporated some of the statewide 
strategy for Sage-grouse conservation, but will implement Sage-grouse 
conservation through watershed/ecosystem management.
    The Strategy and the State Plan identify some common goals. The 
goal of the Strategy is to:
      Manage watersheds, basins, and sub basins in a manner that 
restores or enhances (as appropriate) the ecological processes 
necessary to maintain proper functioning ecosystems, inclusive of Sage-
grouse.
    The objectives of the Strategy are to:
      Implement a watershed analysis process on the watersheds within 
the planning area by initiating the assessment of three watersheds each 
year; and
      Develop a watershed plan for each watershed within one and one-
half years following the initiation of the process.
    The Strategy also includes goals specific to various resources 
(e.g., Sage-grouse, vegetation, special status species, livestock, 
recreation, mining, and fuels management). However, these goals are 
general goals that can be refined at the watershed management unit 
level.
    The first goal of the State Plan is to:
      Create healthy, self-sustaining Sage-grouse populations well 
distributed throughout the species' historic range by maintaining and 
restoring ecologically diverse, sustainable, and contiguous sagebrush 
ecosystems and by implementing scientifically-sound management 
practices.
    The watershed assessment will follow range, watershed, riparian, 
and Sage-grouse habitat evaluation processes developed by the BLM, U.S. 
Geological Survey, NRCS, Agricultural Research Service, USFS, 
Environmental Protection Agency, U.S. Fish and Wildlife Service, 
National Oceanic and Atmospheric Administration, National Park Service, 
the Bureau of Indian Affairs, and the Western Association of Fish and 
Wildlife Agencies. The use of existing methodology provides acceptance 
by the land management agencies and allows coordination with existing 
data bases.
    The watershed management plans will include actions and management 
strategies that address the specific land health and Sage-grouse 
habitat issues identified in the watershed assessment. Once completed, 
the individual projects, groups of inter-related projects, or the 
entire watershed plan will be subject to National Environmental Policy 
Act (NEPA) analysis to determine the impacts of such actions on the 
critical elements of the human environment, as well as the cumulative 
impacts of such actions.
    The Strategy identifies several management strategies that are 
likely to be incorporated into the watershed management plans on a 
site-specific basis. As other issues are identified in the watershed 
assessment process, additional management strategies will be developed.
    Monitoring at the watershed plan-level, at the individual watershed 
project-level, and at the on-the-ground resources-level, will be part 
of the watershed management process. For each monitoring level, the 
responsibility for conducting the monitoring, the variable(s) to be 
monitored, the frequency at which monitoring is to occur, and the 
manner in which the monitoring will be reported will be specified. The 
variables to be monitored will be directly related to the goals and 
objectives of the watershed plan, the project, and the resources to be 
affected by the project.
    The feedback provided by the monitoring with respect to the 
objectives will provide the basis for implementing adaptive management 
strategies. If objectives are being achieved, then the type of action 
implemented will continue. If objectives are not being achieved, then 
the hypothesis on which the objective is based, the practice that was 
implemented, the conditions under which it was implemented, the 
variables being monitored, and monitoring methodology will all be re-
evaluated to determine where changes need to be instituted. The 
Stewardship Group has been working closely with the University of 
Nevada-Reno on developing the adaptive management process for the 
watershed management plans.
    This Strategy is the process for identifying the site-specific 
issues, developing watershed-specific management/conservation plans, 
proposing and implementing site-specific actions, determining the 
appropriate monitoring of these actions, and implementing adaptive 
management concepts to the entire process. The Strategy includes an 
assessment of the planning area that consists of a summary of Sage-
grouse biology and ecology, a description of sagebrush ecology, a list 
of factors that affect Sage-grouse and Sage-grouse habitats, and a 
historical perspective of the landscape changes and Sage-grouse 
populations. The on-the-ground watershed assessment will examine the 
functionality of the watershed processes, such as water, nutrient, and 
energy cycling.
    The condition of the vegetation with respect to Sage-grouse habitat 
requirements was also evaluated using soil mapping provided by the 
Natural Resource Conservation Service (NRCS), various vegetation 
mapping efforts provided by the Elko Field Office, BLM, allotment 
evaluation data from BLM and U.S. Forest Service, Humboldt-Toiyabe 
National Forest (USFS), and field experience of the members of the 
team. The evaluation generally followed the protocols developed in 
Idaho and included five habitat categories:
    <bullet> R-0: Habitat areas with desired species composition that 
have sufficient, but not excessive, sagebrush canopy and sufficient 
grasses and forbs in the understory to provide adequate cover and 
forage to meet the seasonal needs of Sage-grouse (4,805,000 acres);
    <bullet> R-1: Habitat areas which currently lack sufficient 
sagebrush and are currently dominated by perennial grasses and forbs, 
yet have the potential to produce sagebrush plant communities with good 
understory composition of desired grasses and forbs (1,170,000 acres);
    <bullet> R-2: Existing sagebrush habitat areas with insufficient 
desired grasses and forbs in the understory to meet seasonal needs of 
Sage-grouse (2,018,000 acres);
    <bullet> R-3: Sagebrush habitat areas where pinyon-juniper 
encroachment has affected the potential to produce sagebrush plant 
communities that provide adequate cover and forage to meet the seasonal 
needs of Sage-grouse (354,000 acres); and
    <bullet> R-4: Habitat areas which have the potential to produce 
sagebrush plant communities but are currently dominated by annual 
grasses, annual forbs, or bare ground (251,573 acres).
    The remaining 1,626,000 acres of the planning area were identified 
as non-Sage-grouse habitats (forests, urban areas, salt-desert shrub, 
etc.).
    This breakdown indicated that although Elko County has considerable 
acreage of intact Sage-grouse habitat (R-0 acreage), there are almost 4 
million acres of habitats that are currently not supporting Sage-grouse 
that are capable of providing Sage-grouse habitat if management actions 
are implemented. The potential habitat on which sagebrush can be 
readily established and sagebrush habitat that is in poor condition (R-
1 and R-2 acreage, respectively), and the areas formerly occupied by 
sagebrush but now occupied by pinyon-juniper and cheatgrass (R-3 and R-
4 acreage, respectively) account for 44 percent of the acreage 
(3,793,000 acres) within the planning area. These habitat condition 
categories that represent risks to Sage-grouse also represent acreage 
that is not functioning in terms of watershed values. Consequently, the 
issues of habitat quantity and habitat quality were identified as major 
issues to be addressed and are directly linked to watershed health.

        WHAT IS NEEDED TO CONTINUE DEVELOPING AND IMPROVING OUR 
                          CONSERVATION EFFORTS

Recognition of the local conservation planning groups
    The collaborative process is not a process that moves quickly. 
Building trust amongst the diverse viewpoints at the table requires 
time. Recognition of these efforts occurs at two levels. The first is 
recognition of the groups as a means of getting local input into the 
decision-making process. These are about a place-based, community-
based, and in fact, community-led process for stewarding landscapes, 
watersheds, and ecosystems. These groups embody the Western Governors 
Association concept of ``en libra'', of local solutions to national and 
regional issues. This is recognition on a functional level.
    The second level is that of providing standing. These groups must 
be recognized as having the standing necessary to influence resolution 
of the regional and national issues at the local level. For example, 
the Endangered Species Act is a federal law which applies across the 
country, but implementation of recovery actions should be conducted 
through collaboration at the local level where recovery actions impact 
local economies and culture, and where local knowledge can be added to 
the equation to resolve the issue. Groups that follow the principles of 
collaboration and community-based stewardship should be recognized as 
important components of the natural resource issue-solving process.

Give the Local Conservation Planning Process a Chance
    Most of the local conservation working groups have just begun their 
work. Others that have been working for several years are just getting 
the implementation phase started. These groups need an opportunity to 
implement their plans and to evaluate the success or failure of their 
efforts. While many of these efforts were initiated to eliminate the 
need to list Sage-grouse as threatened or endangered under the ESA, it 
is too early to know if these efforts will have significant impact on 
Sage-grouse conservation. However, it is likely that a listing of the 
species will have significant impact on the local, voluntary 
conservation effort and will remove some of the tools from the 
conservation tool box. The current conservation effort for this species 
over eleven western states and being conducted by approximately 70 
local conservation working groups represents a new process for 
addressing species conservation. The ``ownership'' of the issue as 
demonstrated by the local conservation working groups is a significant 
step in cooperation among the stakeholders and the regulators. This 
process deserves a chance to demonstrate its merit.

Start up funding
    The Stewardship Group was fortunate to be in an area with mining, 
ranching, and business community, as well as federal and state 
agencies, that were willing to provide the initial support. The mining, 
ranching, and business community provided initial funding for postage, 
supplies, symposia, demonstration projects, meeting facilitator, etc. 
The BLM and USFS also provided funding and facilities, and the 
Stewardship applied for and received several grants. Other state and 
federal agencies have also contributed in kind services. However, not 
all groups that have started or that will start in the future will have 
the same resources available. A funding mechanism to provide at least 
two years support for administrative needs could make a significant 
difference in the success or failure of these groups.
    This is probably best set up as a grant process whereby the local 
groups apply for available funds and whereby the success rate of groups 
can be tracked. This will also allow some follow-up to determine what 
commonalities occur among the successful groups, as well as the 
characteristics of the unsuccessful groups.

Continued and increased funding for existing programs
    There are already several mechanisms for funding in place; 
therefore, it is imperative that funding continue to be appropriated to 
these programs, and as the demand increases, that the funding level for 
these programs is also increased. Some examples of existing programs:
    1. BLM Partnership Series--this training program has been in 
existence and ongoing development for several years and the Stewardship 
Group, as one of the groups whose success is largely based on the 
initial and follow-up training through the Partnership Series, is 
highly supportive of this program. This program uses the cultural 
setting that defines the interrelationship of people to the land as the 
basis for landscape or watershed or ecosystem management, and as the 
basis for applying science to the management process.
    2. Farm Security and Rural Investment Act of 2002 (Farm bill)--this 
bill has several programs that are directly related to landscape 
management. The funds are primarily intended for private lands, and in 
Nevada and other western states where much of the private lands was a 
result of the Homestead Act, these private lands are often the most 
productive lands because they include most of the springs, streams, and 
riparian zones. These areas are important seasonal habitats for a 
variety of wildlife species, including Sage-grouse. Therefore, funding 
to provide incentives for sustained stewardship of these lands is 
critical. Some of the programs with direct application to either Sage-
grouse conservation (habitat improvement) or watershed management 
include:

        <bullet> Wildlife Habitat Incentives Program (WHIP)--this 
        program is administered by the Natural Resources Conservation 
        Service (NRCS) which works with private landowners and 
        operators, conservation districts, Federal, State, and Tribal 
        agencies to develop wildlife habitat on their property. Funds 
        from this program have been used to enhance habitats for Sage-
        grouse.
        <bullet> Environmental Quality Incentives Program (EQIP)--is a 
        voluntary program that provides assistance to ranchers who face 
        threats to soil, water, air, and related natural resources on 
        their lands. One of the national priorities for this program is 
        to promote at-risk species habitat conservation. These funds 
        could be applied to cheatgrass-dominated areas or areas 
        dominated by pinyon-juniper for restoration of these lands to 
        sagebrush-grasslands.
        <bullet> Conservation Technical Assistance (CTA)--this program 
        provides voluntary technical assistance to land-users, 
        communities, units of state and local government, and other 
        Federal agencies in planning and implementing conservation 
        systems. The assistance is for planning and implementing 
        conservation practices that address natural resource issues. 
        This program is currently under funded for the demand.
        <bullet> Conservation Security Program (CSP)--this program 
        supports ongoing stewardship of private agricultural lands by 
        providing payments for maintaining and enhancing natural 
        resources. This is a watershed-based program which fits well 
        with the watershed approach being used by the Stewardship 
        Group.
        <bullet> Emergency Watershed Program (EWP)--this program 
        provides funding to project sponsors for restoring vegetation 
        and stabilizing river banks; restoration of natural functions 
        of a watershed. This program is currently under funded for the 
        demand.

    3. Clean Water Act (CWA) Section 319(h)--provides grants to states 
to implement Nonpoint Source Pollution Management Programs. CWA Section 
319(h) grants are available for projects aimed at reducing, 
controlling, and preventing nonpoint source pollution, such as 
sedimentation, with the ultimate goal of improving water quality. These 
projects often use the watershed management approach. These programs 
can be used for implement best management practices to reduce nonpoint 
source pollution. Comprehensive watershed projects are eligible for 
funding. The Stewardship Group views this funding as an essential part 
of our ability to acquire funds for the watershed planning and project 
implementation for projects that have direct bearing on water quality.
    4. National Fire Plan--this plan and associated funding provides 
for a variety of management actions that when effectively incorporated 
into a watershed plan can be used to reduce fuel loading (to reduce the 
risk and intensity of wildfires), and in the process improve habitat 
for Sage-grouse and other wildlife species and increase forage for 
livestock by changing the ratio woody biomass to herbaceous biomass on 
the landscape. These practices can be used to create mosaics of 
different aged stands of sagebrush (i.e., different Sage-grouse 
seasonal habitats) on the landscape while reducing the risk of 
catastrophic wildfire. Similarly, dense stands of pinyon-juniper 
woodlands can be managed under this program to restore sagebrush plant 
communities to historic sites. These actions also have direct benefits 
to the watershed. This type of multi-faceted project increases the 
cost-benefit over single-faceted projects.

Sustainable funding for watershed coordinator
    The priority need for the Northeastern Nevada Stewardship Group, 
Inc. is funding for a full-time watershed coordinator. We have managed 
to complete the initial Strategy planning document using volunteer 
efforts and small grants. However, as the watershed assessment process 
for over 10.5 million acres is initiated, the need for a coordinator is 
paramount. This is not a task that can be done appropriately on spare 
time. Coordination with the public land management agencies, state 
agencies, private landowners, and stakeholders alone is more than the 
volunteer effort can accomplish and the actual coordination of 
assessment data collection and data analysis dictates that a full-time 
position be funded.

Development or application of new technology
    The Stewardship Group is pursuing the application of new technology 
developed in part by the Agricultural Resources Service (USDA). This 
technology is a combination of digital imagery to conduct vegetation 
cover sampling and the use of software to interpret the digital 
imagery. This technology will allow the Stewardship Group to quickly 
and cost-effectively assess the plant communities within the watershed 
and asses the availability of various seasonal habitats and areas in 
need of restoration. This technology appears to be able to reduce 
initial field work by thousands of man-hours. The Stewardship Group is 
seeking the opportunity to use this technology for assessment and long-
term monitoring of upland vegetation as well as riparian systems. The 
Stewardship Group is currently seeking grant money to implement this 
assessment technology. A federal program to encourage the development 
and transfer of technology for conservation planning would greatly 
benefit the conservation effort.

Support for an investigation into commercial uses of pinyon pine and 
        juniper
    The expansion of pinyon-juniper woodlands into sagebrush range 
sites is a common threat to Sage-grouse over much of the West. In the 
past, the woodlands have been removed by chaining\1\ or other 
mechanical methods that leave the biomass on site to slowly decay. This 
is a costly technique and is not likely to be used at the scale 
necessary to restore significant areas of Sage-grouse habitat. There 
are preliminary indications that the fiber from these trees can be used 
in a number of wood products, including flooring, woodstove pellets, as 
briquettes to be added to coal-fired power plants (increases efficiency 
and reduces emissions). Funding for a land grant university with a wood 
products lab to determine the feasibility of such an industry would 
change the treatment of pinyon-juniper from a cost incurring process to 
a local wage producing industry. This type of industry could be an 
economic life saver for many of the rural communities of Nevada, 
Oregon, Utah, and Wyoming.
---------------------------------------------------------------------------
    \1\ Chaining involves connecting a ship's anchor chain to two 
bulldozers and having the bulldozers drag the chain across the 
landscape, uprooting or breaking the trees.
---------------------------------------------------------------------------
                                SUMMARY

    The overriding goal for the Stewardship Group is to restore 
functionality to the watersheds in our planning area, and by doing so, 
maintain the economic viability of our existing land-based industries 
and develop opportunities for new land- and resource-based industries 
as a means of economic development and rural community sustainability. 
We believe that those that are closest to the land can make the best 
decisions for how the land can be managed to meet national, regional, 
and local resource and economic objectives. We believe that the place-
based or community-based stewardship is necessary to reduce conflict 
and provide sustainability. We also believe that watershed management 
or ecosystem management is the most comprehensive and viable means for 
achieving the land values that are important to the community. The 
watershed, as a well-defined, functioning unit, must have all processes 
functioning to provide long-term sustainability, as well as ecosystem 
resiliency.
    On behalf of the Northeastern Nevada Stewardship Group, Inc. and 
other local conservation planning groups, I thank you for this 
opportunity to testify before the Subcommittee on Fish, Wildlife, and 
Water.
                                 ______
                                 
      Attachment A--Northeastern Nevada Stewardship Group, Inc.'s 
                           Mission Statement

    As the Northeastern Nevada Stewardship Group, Inc. We appreciate:
    Opportunities which allow us to live and work in Northeast Nevada;
    Natural resources which enable local prosperity;
    Productive ecosystems which provide healthy natural environments 
and quality lifestyles;
    And our western heritage, culture, and customs.
    Therefore,
    In order to ensure a better future for our families, community, and 
future generations
    To build trust among our diverse citizenry,
    And to ensure sustainable resource use,
    We join together as full partners
    To provide a collaborative forum for all willing participants.
    We are dedicated to the dynamic and science-based resolution
    Of important issues related to: resource stewardship,
    And informed management of our public lands,
    And positive socio-economic outcomes.
    (Adopted February, 1999)
                                 ______
                                 
   Responses by Gary Back to Additional Questions from Senator Crapo

    Question 1. What we are considering in the Outline specifically 
involves the kind of recognition for local groups that you suggest. We 
can do this under the Federal Advisory Committee Act (FACA), which is a 
formal process. Are you familiar with that process, do you think it 
would help, or are there other ways to recognize local groups that you 
have in mind?
    Response. I have reviewed Public Law 92-463, Federal Advisory 
Committee Act (Act), and the type of advisory board that can be created 
under the Act is an appropriate means of initiating technical 
deliberations among state and federal agencies and non-federal partners 
on management actions.
    Currently, the local working groups are not organized in any manner 
that allows effective communication among groups and no one group could 
adequately represent the other local working groups. While the various 
western states are focal points or are working to become focal points 
for the local working groups, the states cannot and should not 
represent the local working groups. Having 70 or more local working 
groups as members of any advisory committee is not feasible. Therefore, 
there are at least two processes that can provide for local working 
group representation and input into any formal advisory committee:
    1. Solicit ideas and successful case studies from the local working 
groups as a regular agenda item for the advisory committee meetings. A 
representative of the local working group which has been involved in 
the project or development of a management practice could be invited to 
make a brief presentation.
    2. Have a local working group representative as a standing member 
of the advisory committee. This would be an individual or organization 
with non-federal and non-state employment status that can represent the 
various local groups and is in contact with the local working groups. 
This individual or organization would be in regular contact with the 
local working groups to identify the various successes, failures, 
strategies, and technology for sage grouse habitat and/or population 
management.
    In reviewing the outline of ideas for sustaining sage grouse 
conservation, drafted by the staff of the Subcommittee on Fisheries, 
Wildlife, and Water, the participants that have been identified to date 
(i.e., energy, environmental, ranching, state wildlife management 
agencies, and sportsmen's groups) certainly represent those that are 
likely to be impacted by sage grouse management. As indicated under 
``Policy objectives for discussion,'' item II., these partners will 
begin to ``negotiate stipulations, restrictions, and mitigation on 
federal land to preserve a base of remaining breeding and winter 
habitats.'' I can only speak for the local group to which I belong, but 
our perspective has been to determine how the landscape needs to be 
managed first, and then look to stipulations, restrictions, and 
mitigation as last resort steps. This is why it is important to have 
the local working group representation. Our group is focused on making 
a better pie, rather than trying to determine how to slice the pie into 
more pieces and to determine who should get what size piece. Our focus 
is based on the recognition that the western rangelands are not 
functioning near their potential, thus the pie has shrunk in size over 
time and our priority is to increase the functionality of the systems. 
From what we have been able to project, once we are close to potential, 
dividing the pie becomes unnecessary. Therefore, I would recommend that 
the policy objectives for discussion should include systems analysis, 
specifically ecosystem analysis, as a solution to the confrontational 
issues that develop out of Endangered Species Act, single-species 
management policy (recovery plans).

    Question 2. You have firsthand insight into the challenge for 
working people who want to join a volunteer group such as a sage grouse 
working group. In addition to recognition and money, can you suggest 
what might be needed to provide encouragement to people who have worked 
hard already and who see that there is a long road ahead?
    Response. The two most important incentives that apply to most 
individuals are self-determination and opportunity for improvement of 
their cultural, social, or economic situation. True collaboration 
addresses the incentive of self-determination. By being part of a group 
that is working to resolve issues, not through negotiation or by vote, 
but through consensus allows the individuals in the group to keep the 
process going until the group has developed a solution that works for 
everyone, that addresses the values of all who are in the group. For 
the Northeastern Nevada Stewardship Group, Inc. the issue that brought 
everyone to the table was the potential listing of sage grouse under 
the Endangered Species Act, and how that listing would impact their 
livelihoods, recreational pursuits, etc. While it is easy to identify 
risks to sage grouse and their habitat, and then develop management 
schemes that eliminate the risks, this becomes very contentious when 
the risks are identified as grazing, energy development, certain types 
of recreation, etc. However, when we worked through the risks to 
understand how the ecosystems work, we found that a functioning system 
was better for the livestock operator as well as for sage grouse; we 
found that a functioning system was better for energy development and 
transmission than a non-functioning or under-functioning ecosystem; and 
we found that a functioning ecosystem is resilient. A resilient system 
allows for a certain level of impact, such as the development of 
mineral deposits or energy reserves, because other parts of the system 
can provide for sage grouse while the impact takes place. Once the 
impact is removed and the land reclaimed, the system begins to function 
again. As mitigation for the short-term impact, the entity creating the 
impact can contribute to projects that restore rangeland health.
    The opportunity for improvement of an individual's or community's 
cultural, social, or economic situation is a strong incentive. Many 
rural western communities have limited opportunities for economic 
development; therefore, sustainability of the existing ranching, 
mining, tourism, energy, and agricultural industries is important. For 
the operation of the Northeastern Nevada Stewardship Group, Inc. we had 
the constraint that our solutions had to have positive socio-economic 
outcomes. For example, that signaled our ranching community that we 
were not going to use livestock grazing as the scapegoat for the 
current sage grouse issue and that we were not going to improve the 
situation for sage grouse at the expense of the livestock operator. As 
a result, we had tremendous participation by the ranching community, 
and we had better opportunity to develop solutions that were acceptable 
to the ranching community because of their input. This approach is so 
much more palatable to those who live and work in the community than 
having solutions developed in a vacuum and imposed on the community. 
When these solutions include not only benefits to the sage grouse, but 
can truly improve rangeland health, then those who depend on the range 
stand to benefit as well. Thus we can retain our western heritage and 
culture, improve our economic condition, and improve the social aspect 
of our community. I truly cannot think of any more powerful incentives 
than self-determination and improvement of cultural, social, and 
economic conditions.

    Question 3. What would be the most effective way to include the 
ideas of local working groups in the effort envisioned by the 
Subcommittee Outline?
    Response. As stated above, the 70+ local planning groups are not 
organized and having the local groups included in the effort envisioned 
by the Subcommittee Outline is truly a conundrum. However, I had a 
discussion with Mr. Mike Brubaker, Executive Director/CEO of Council 
for US Landcare Initiative, Inc. last week and due to there mission to 
rally broad public participation in a conservation and environmental 
framework, I thought the Landcare organization would be a good 
representation for local working groups. I would suggest that you visit 
the Landcare website (www.landcareus.org) and contact Mr. Brubaker 
directly at 717-627-1043, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c2afa0b0b7a0a3a9a7b082aea3aca6a1a3b0a7b7b1ecadb0a5">[email&#160;protected]</a>, or at Council 
for US Landcare Initiative, Inc., 29 Ridge Road, Lititz, PA 17543. 
Landcare is relatively new in the United States, but it is likely that 
they will eventually be working with many of the local working groups 
and at the moment, this appears to be the best means of getting local 
group representation in the partnership as outlined by the 
Subcommittee.

                               __________

 Statement of John O'Keeffe, National Cattlemen's Beef Association and 
                        the Public Lands Council

    Good morning, Chairman Crapo and Distinguished Members of this 
Subcommittee, my name is John O'Keeffe. I am here to testify about the 
sage grouse on behalf of the Public Lands Council and the National 
Cattlemen's Beef Association. I serve as the Chairman of the Public 
Land Committee for the Oregon Cattleman's Association, the Vice Chair 
of the Federal Lands Committee of the National Cattlemen's Beef 
Association (NCBA), Oregon's Director to the Public Lands Council 
(PLC), and Chair the Public Lands Councils' West-wide task force on 
Sage Grouse. I also represent private landowners on Oregon's Sage-
grouse and Sage brush habitat working group.
    The Public Lands Council (PLC) represents sheep and cattle ranchers 
in 15 western states whose livelihood and families have depended on 
Federal grazing permits dating back to the beginning of last century. 
The National Cattlemen's Beef Association (NCBA) is the trade 
association of America's cattle farmers and ranchers, and the marketing 
organization for the largest segment of the nation's food and fiber 
industry. Both PLC and the NCBA strive to create a stable regulatory 
environment in which our members can thrive.
    Ranching out west has been part of the landscape, the economy, and 
the culture for approximately three centuries. About 214 of the 262 
million acres managed by BLM are classified as ``rangelands,'' as are 
76 million of the 191 million acres managed by the Forest Service. More 
than 23,000 permittees, their families, and their employees manage 
livestock to harvest the annually renewed grass resource grown on this 
land. Western ranching operations provide important additional benefits 
to the Nation by helping to preserve open space and reliable waters for 
wildlife, by serving as recharge areas for groundwater, and by 
supporting the economic infrastructure for rural communities. Our 
policy is to support the multiple use and sustained yield of the 
resources and services from our public lands which we firmly believe 
brings the greatest benefit to the largest number of Americans.
    My family has been ranching in the Warner valley of southeast 
Oregon since the early 1900's. I am the third generation to ranch 
there. Part of the fourth generation is attending his first week of 
college classes as I address this Subcommittee. It is my sincere wish 
that my family can continue to ranch in the Warner valley far out into 
the future. That is why I became involved in the Associations that 
represent the livestock grazing industry.
    I believe that ranchers are natural stewards of the land. 
Government incentive programs can help us do our jobs. At this time I 
have a Landowner Incentive Program (LIP) Grant proposal being reviewed 
that would do juniper control and meadow enhancement on 2500 acres of 
brood rearing habitat that the O'Keeffe Ranch owns adjacent to Sagehen 
Butte in Lake County, Oregon. The LIP program uses U.S. Fish and 
Wildlife Service dollars funneled through local wildlife agencies to do 
on the ground conservation projects.
    I appreciate the opportunity to be here today to provide some of my 
experience with sage grouse and public lands grazing to the Committee 
on behalf of the sheep and cattle rancher members of the Public Lands 
Council and the National Cattlemen's Beef Association.

                              SAGE GROUSE

    Environmental groups have filed petitions with the U.S. Fish and 
Wildlife Service (FWS) seeking to have the sage grouse listed as a 
threatened or endangered species under the Endangered Species Act 
(ESA). The Service is currently in the midst of a 12-month status 
review under which is considering whether the available information 
warrants listing the bird. A listing decision is expected around the 
end of the current calendar year.
    A principal source of information to be considered by the Service 
is a conservation assessment of the status of the sage grouse and its 
habitat by the Western Association of Fish and Wildlife Agencies 
(WAFWA). The assessment concludes that sage grouse population numbers 
have ``tended to stabilize'' since the mid-1980's. ES-4. In many areas 
numbers increased between 1995 and 2003, even though there continues to 
be a decline in numbers in other areas. Id. Sage grouse continue to 
occupy 668,412 km<SUP>2</SUP> of habitat, down from a pre-settlement 
area of 1,200,483 km<SUP>2</SUP>. ES-4. A total of 50,566 male sage 
grouse were counted on leks throughout western North America. Id.
    PLC and NCBA recognize that the decline in numbers of sage grouse 
has led some members of society to become concerned about the long-term 
viability of the bird. Nevertheless, we believe the WAFWA report 
supports a conclusion that listing the sage grouse under the ESA is not 
warranted at this time. The legal issue for listing under the Act is 
whether a bird is threatened or endangered. A principal criteria for 
addressing the issue is the extent to which habitat has disappeared. 
While the numbers of the bird have declined, a substantial population 
remains. These birds continue to occupy a significant range of habitat. 
Those who cite the decline in numbers or habitat as evidence of the 
need to list the bird fail to acknowledge that substantial numbers and 
habitat remains. The evidence does not support the need to list the 
bird at this time.
    Moreover, there is a reasonable basis to believe that sage grouse 
numbers and habitat will continue to be stable or even improve because 
of the unprecedented conservation effort underway. The Bureau of Land 
Management (BLM) manages more than 50 percent of sage grouse habitat in 
the United States. The Bureau has collected information on the 
extensive effort it has already undertaken to conserve sage grouse 
habitat, and on additional steps it intends to take for this purpose. 
Each state with habitat has initiated habitat-wide planning efforts 
involving local working groups composed of stakeholders in the welfare 
of the species. The Western Governor's Association has collected 
information on the conservation effort currently occurring on private 
lands. The Natural Resource Conservation Service (NRCS) has committed 
to spending a significant amount of its program dollars on habitat 
restoration and conservation on private lands. The Senate has stepped 
up and directed NRCS to make $5 million available for habitat 
conservation in the next fiscal year. There is no need to fear the 
imminent demise of the bird under these circumstances.
    There is further reason to believe the bird may be safe. The best 
research shows that sage brush vegetation communities can be treated to 
produce the right mix of plant types needed to support viable 
populations. The efforts of BLM, NRCS, and private stakeholders to 
restore and conserve habitat can potentially make a positive 
difference. Additionally, PLC and NCBA members have shown their 
willingness to support the conservation effort by identifying grazing 
practices that are compatible with sage grouse habitat and transmitting 
these practices to the Department of the Interior.
    In the face of these conservation efforts, FWS would send a 
powerful signal to society that conservation efforts do not pay off and 
so there is no reason to try should the Service decide to list the bird 
at the end of the status review or decide that listing is warranted but 
precluded at that time. Such a result would be particularly difficult 
for the grazing industry to accept at a time when sage grouse 
population numbers are viable (even if less desirable than some would 
prefer), and in the absence of compelling information showing that 
grazing practices are correlated to degradation of sage grouse habitat. 
The WAFWA report states:

         ``[n]umbers used by agencies . . . do not provide the 
        information on management regime, habitat condition, or kind of 
        livestock that can be used to assess the direct effects of 
        livestock grazing on large regional scales. Indices of seral 
        stage used to relate current conditions to potential climax 
        vegetation may not correlate with current understanding of the 
        state-and-transition dynamics of sagebrush habitats. Over half 
        of the public lands have not been surveyed relative to 
        standards and guidelines established for those lands.''

    ES at 2-3. Adapting my grazing operation to government regulation 
is a burden I carry every day I stay in business. Fairness requires 
there be a good reason for the U.S. Government to impose additional 
regulations on its citizens. To date, this reason has not emerged in 
the sage grouse debate.
    PLC and NCBA are hopeful that facts will win at the end of the day 
and the Administration will decide that listing the sage grouse under 
the ESA is not warranted at this time. We are somewhat concerned that 
career staff in the FWS be truly neutral as they prepare the 
documentation and recommendations used by decisionmakers in deciding 
whether to list the bird under the Act. Regulatory agencies tend to 
regulate, and there may be an institutional bias toward listing because 
that is what the FWS tends to do. We urge the Administration to closely 
manage the preparation of the documents to ensure that career staff is 
open to and present information that shows listing is not necessary as 
well as information that suggests listing might be needed. Any help 
members of this Committee can provide to ensure adequate management 
takes place would be greatly appreciated.
    The FWS bears a tremendous responsibility in making listing 
decisions. Increasing the costs of doing business by listing the sage 
grouse under the ESA could force additional ranchers to shut down their 
operations. Eliminating ranches can threaten the very fabric of rural 
life in parts of the west. Loss of ranches may have the perverse effect 
of increasing the threat to sage grouse habitat. When ranches are sold, 
the land often gets divided for subdivisions. Fragmentation of habitat 
that comes with the loss of open space and the additional roads and 
power lines needed to serve the subdivisions would not be far behind. 
We hope the Administration carefully thinks through all of these 
factors in deciding whether to list the sage grouse under the ESA.
    Finally, we urge the Administration to bear in mind the importance 
of deferring to state management of wildlife to the greatest extent 
possible. We recognize that the ESA is a Federal statute that imposes 
duties on the Federal Government. Additionally, much of sage grouse 
habitat is on Federal land with a corresponding Federal responsibility 
to manage that land. Still, conservation will not succeed in the long 
run in this country unless the stakeholders who live on the land and 
make their living from it are involved in the effort. For this reason, 
PLC/NCBA are strong proponents of putting as much responsibility for 
wildlife management State action that is adequate to conserve the 
species should be fully credited tow.
    As a practical matter, the FWS is incapable of managing wildlife 
across the entire west. The Service simply does not have the budget, 
personnel, or statutory mandate to undertake such a broad 
responsibility. PLC and NCBA urge the Administration to defer to state 
plans to the greatest extent possible in formulating its plan for sage 
grouse management, whether or not the bird is listed under the Act.
    Thank you for providing the PLC and NCBA this opportunity to 
present these remarks. I would be pleased to answer any questions you 
may have.
                                 ______
                                 
 Responses by John O'Keeffe to Additional Questions from Senator Crapo

    Question 1. Can you see a way to improve the direction we are 
headed with this Outline?
    Response. My view is that the most likely area to make progress is 
by proceeding with the six or more pilot areas proposed in the 
discussion section of the outline.
    It would be crucial that in each of the six areas the right person 
is chosen to represent the private landowners of the area. This person 
would have two functions: (1) be a liaison between the private 
community and the agency community. (2) act as a sounding board to the 
initial effort so that as the private community was made aware of the 
effort, it would appear to them to be realistic, non-threatening, and 
likely to have positive population and habitat results on Sage Grouse.

    Question 2. What would be the most effective way to include the 
ideas of local working groups in the effort envisioned in the 
Subcommittee Outline?
    Response. I would suggest that you go to some local working groups 
that are established but not in deadlock or deep conflict. Allow these 
groups to be involved in designing the pilots from the ground up. 
Hopefully this would result in at least several successful efforts that 
could be use as templates to take the process west wide.

                               __________

  Statement of Ben Deeble, Sage-Grouse Project Coordinator, National 
                          Wildlife Federation

    I am Ben Deeble, Sage-grouse Project Coordinator of the National 
Wildlife Federation (NWF), the nation's largest conservation education 
and advocacy organization. Our members are America's mainstream 
conservation advocates who share a commitment to instituting common 
sense conservation of wildlife throughout this great continent.
    For more than five years, the National Wildlife Federation has been 
involved in the development of monitoring and conservation efforts for 
greater sage-grouse in the western states, coordinated from our 
Northern Rockies Natural Resource Center in Missoula, Montana, and 
through our affiliate organizations in Wyoming and Nevada. During this 
time we have been deeply engaged in developing state conservation plans 
for the bird, involved in public education about the conservation 
challenge presented here, and facilitated the exchange of information 
about both the ecology and management imperatives for this 
extraordinary species between agencies, other conservationists, and the 
general public. We have organized conferences on sage-grouse 
conservation and on broader topics related to wildlife and energy 
development.
    Fortunately, there have been decades of research on the life-cycle 
of sage-grouse, so there is ample information on the needs of the 
species. High quality research of scientists working under the umbrella 
of the Western Association of Fish and Wildlife Agencies (WAFWA) and 
several academic institutions has combined historic population data 
with cutting-edge habitat and genetic analysis to synthesize a very 
solid understanding of this bird and its habitats. Much of the full 
management picture can be completed with information from the 
disciplines of range science and restoration ecology. While there are 
still some unanswered questions about sage-grouse, I am confident in 
asserting that we know as much about this species' life cycle, habitat 
needs, behavior, and ecology as any bird in the nation, and using both 
proven methods and strong inference, we can implement effective 
conservation actions. Using this broad scientific basis, it is my sense 
that there is a potential currently for productive and meaningful 
deliberations among agencies and other partners for implementing 
effective management actions, for designing and funding these efforts 
in specific geographic areas, and for verifying our results.
    And it will be a huge task. In my mind, what complicates the 
management of sage-grouse is two-fold. Foremost is that many different 
factors can affect the habitat quality of the bird, from outright 
conversion of their habitats for things like intensive crop production, 
to much more subtle factors like weed and evergreen tree invasion. 
Roads and their vehicle traffic, utility lines, fences, pesticides, 
weeds, wildfire, new predator populations, pond building, urbanization, 
extreme weather, over-grazing, overhunting--all have been shown to have 
implications for sage-grouse reproduction and adult survival. The 
second complicating factor is that sage-grouse, even where thriving, 
exist in relatively low densities and move around a lot. Individuals 
within populations can be highly mobile, in some cases regularly 
migrating 80 miles or more in multiple directions, with sustainable 
populations occupying areas that ultimately comprise huge landscapes. 
Yet the birds are, to some extent, specialized, using relatively 
specific parts of these large landscapes, parts which must remain in 
high quality and interconnected by hospitable corridors. Both sets of 
characteristics make populations particularly vulnerable to habitat 
fragmentation and degradation. In addition, while any one of the above 
factors alone may not be devastating to grouse populations, in many 
places multiple factors likely work synergistically to both suppress 
reproductive success and elevate adult mortality, resulting in 
population declines and eventual extirpation. These several factors 
also occur across multiple jurisdictions of federal, state, and private 
lands, making coherent management for the bird bureaucratically, 
socially, and economically complex. There are many examples where 
bureaucracies are working at cross-purposes within agencies, and many 
instances where private interests are doing the same.
    Some populations remain robust, but many are clearly in an ongoing 
downward trend towards local and regional extinction. Greater sage-
grouse populations and reproductive rates have been declining in the 
West for at least the last four decades. Population declines are 
estimated rangewide to average approximately 33 percent, while 
productivity has declined an average of 25 percent (Connelly and Braun 
1997). These declines are the result of a variety of causes, with 
degradation and destruction of shrub-steppe habitats being dominant 
factors (Wambolt et al. 2002). Unprecedented new activities in these 
landscapes also have the potential to speed regional extinctions, and 
new disease issues are emerging. Essentially sage-grouse are a bird of 
the wildest sagelands we have left in the West, as evidenced by the 
fact that we have already lost populations from at least one-third of 
their historic range West-wide. All populations throughout the species' 
range have now been petitioned for listing under the federal Endangered 
Species Act (ESA) (WDFW 2000, Webb 2002).
    That said, let me be emphatically clear. To the degree that a 
stereotype is being created in some places that the conservation 
community wants to ``shut down'' livestock or energy production in the 
West using the:: sage-grouse, that stereotype is false. We believe that 
in some locations well-managed livestock grazing is compatible with 
healthy sage-grouse populations and, in fact, may work to maintain 
important blocks of sagebrush grassland habitat. Likewise, there are 
core guidelines on important practices related to minimizing and 
mitigating the effects of energy production. All types of energy 
production will not be compatible in all places with sage-grouse, but 
both onsite practices and offsite mitigation hold . promise for 
maintaining critical habitat and core populations of sage-grouse. Using 
the good science that already exists for the management of the bird and 
its habitats, whether in the context of energy development, livestock 
grazing, or any of several other human activities, we can maintain this 
important shrub-steppe ecosystem for a variety of wildlife species and 
human uses.

                   Adopt-A-Lek: Population Monitoring

    As one step in rising to this conservation challenge, the National 
Wildlife Federation in late 1999 launched in Montana what for us is a 
relatively unusual field project named ``Adopt-A-Lek.'' Starting with 
just a handful of volunteers, largely sage-grouse hunters, we began 
training and fielding people to count sage-grouse at dawn each April on 
their breeding leks. Most state agencies generally did not, and still 
do not, have the capacity to get multiple annual counts of a majority 
of their leks, and we felt we could recruit and train a highly-
motivated and competent labor force to seasonally assist with 
population data collection. Using accepted state survey protocols, our 
volunteers have proven to be reliable, competent, and an asset to 
regional survey efforts. We provided seed money for our affiliates in 
Wyoming and Nevada to launch their own state-based Adopt-A-Lek programs 
in 2001. The project has grown dramatically through support from the 
National Fish and Wildlife Foundation, state agencies, private 
foundations, the U.S. Forest Service, and we hope in 2005, the Bureau 
of Land Management (BLM). To give you a sense of scale, last April 
ninety-three volunteers drove over 35,000 miles in Montana, Wyoming, 
and Nevada to monitor more than 150 leks, in many cases getting 
multiple counts. This constitutes somewhere between 5-10 percent of the 
total greater sage-grouse survey effort West-wide.
    In addition to helping collect the on-the-ground data that is 
critical to sage-grouse conservation efforts, we believe that 
recruiting local people for population monitoring is perhaps the best 
way to help educate and inform them about the landscape and habitats 
the birds survive in, and bring their experience up to levels where 
they can help develop and fully participate in further conservation 
efforts. While NWF has been very successful to-date fielding volunteers 
to census sage-grouse, and the project has proven relatively economical 
compared to similar agency-based efforts, it is likely that a 
substantial shift in geographic scope or census intensity would require 
new multi-year funding mechanisms.

          HABITAT ENHANCEMENT INCENTIVES TO PRIVATE LANDOWNERS

    The second leg in our program involves delivering incentives to 
landowners to implement sage-grouse habitat enhancement measures. A 
primary objective of this project is to explore economically acceptable 
methods for enhancing sage-grouse habitats in working landscapes, such 
as voluntary incentives for altering grazing patterns, as well as 
restoring rangeland and habitat productivity through other techniques. 
An additional objective of this proposal is to conduct habitat 
management experiments to test if attaining WAFWA's recommended 
guidelines for nesting and early brood-rearing habitats in the vicinity 
of leks will increase the local grouse population. The new plan for 
sage-grouse conservation in Montana and several other states identifies 
grazing management as one of the available tools for enhancing grouse 
habitats (MDFWP 2002). Elsewhere, both positive and negative impacts to 
sagegrouse habitat from livestock grazing have been documented (Beck 
and Mitchell 2000). A field tour of the majority of lek sites 
throughout southwest Montana in April 2003 identified a lack of 
herbaceous cover in otherwise relatively large expanses of sagebrush as 
potentially the limiting factor for sagegrouse productivity and 
populations in the region (Braun 2003). The National Fish and Wildlife 
Foundation has offered NWF a challenge grant to begin incentive 
delivery to private landowners in 2005 who volunteer to participate in 
habitat management actions related to livestock grazing. Financial 
support for landowners engaged in management experiments involving 
reduced springtime grazing of grouse habitats is essential because of 
the particularly significant economic impacts incurred by loss of 
forage during this time of year (Torell et al. 2002). Private lands 
with existing suitable sagebrush canopy will be prioritized for 
breeding habitat enhancement. However, because of mixed land ownership 
patterns and public lands grazing leases, enhancement sites could be a 
combination of suitable private and public lands anywhere within lek 
specified buffers, if we can get through the red tape. Landowners will 
use financial incentives for the specific objective of meeting their 
own herd forage needs while managing lands to achieve the recommended 
guidelines for sage-grouse breeding habitat. Recommended breeding 
habitat conditions will be achieved on the maximum number of acres 
possible within buffers using the available incentives. Incentive 
levels will be market-based, designed to be essentially economically 
neutral for the landowners that enact the habitat prescriptions. 
Management prescriptions will be developed and implemented with the 
objectives of increasing herbaceous (grass and forb) vegetation within 
sagebrush stands of >15 percent canopy from May 15-July 1 for multiple 
years.
    In addition to financial incentives, some landowners have requested 
legal protections from potential liability, such as through inclusion 
under a Candidate Conservation Agreement with Assurance (CCAA), should 
sage-grouse be listed under the ESA while the species is being 
conserved on their property. A CCAA will be developed for use in 
Montana, and we anticipate some additional states will be able to offer 
Certificates of Inclusion to private landowners by 2005.

        CURRENT AGENCY ACTIONS, GREATER SAGE-GROUSE AND THE ESA

    The third leg of our conservation effort involves somewhat more 
direct engagement with public land management agencies. There are many 
opportunities in agency actions to adopt improved and proven habitat 
management practices for sage-grouse conservation. While some local 
jurisdictions have made great strides, adoption of proven beneficial 
practices have been, in many places, uneven at best. Guidance from 
agency leadership has been slow in being issued, and agency 
implementation at the field level has suffered from inadequate 
information, staff, funding, conflicting priorities, economic concerns, 
and business-as-usual inertia. As a result, NWF has found itself in the 
unfortunate situation of challenging through the courts and 
administratively some agency actions in efforts to gain management 
improvements for sage-grouse habitat. NWF has been conducting all its 
efforts in a regulatory environment that lacks federal recognition of 
greater sage-grouse as threatened or endangered, and progress in the 
proliferation of state-level planning and research efforts during this 
period has been significant. The question yet unanswered is whether the 
current momentum to sustain greater sagegrouse populations and 
habitats, particularly the expensive and time-consuming task of 
delivering conservation on-the-ground, will continue without the threat 
of further listing action.
    Actions to conserve a closely related species, the Gunnison sage-
grouse in southern Colorado and Utah, have come almost too late, with 
only a few thousand birds known to remain in some dozen small isolated 
populations. This species most certainly requires upgrading in its 
designation and more stringent protections under the ESA. Recovery, if 
possible, will require a much more intensive effort relative to the 
land area involved.
    Regarding the petition pending to list greater sage-grouse as 
federally threatened or endangered rangewide, here, too, we support the 
professional wildlife biologists making their best evaluation of the 
species' status, without political interference. There are new factors 
emerging, like vulnerability of the species to West Nile virus, that 
complicate the already complex task of evaluating the species across 
eleven states, and the Service should be given every resource it needs 
to competently complete this status determination.
    Lesser classifications by agencies have both assisted agency 
progress towards developing and implementing conservation actions, and 
have been underutilized for grouse conservation. The Forest Service 
considers sage-grouse a ``sensitive'' species rangewide and uses the 
bird as a ``management indicator'' species in several forests and 
grasslands, which has greatly aided conservation planning. In our 
opinion, the loss of this latter management designation under newly 
adopted planning regulations will be an unfortunate step backwards for 
sage-grouse conservation on Department of Agriculture lands. State Fish 
and Game agencies still manage sage-grouse as a huntable species in 
many areas, and are doing their best to responsibly manage seasons and 
bags to allow some pursuit of a harvestable surplus of sage-grouse 
where healthy populations are still found. In our view this is 
reasonable, professional wildlife management, and seasons should be 
managed based on science, not political considerations. In some places 
the science suggests the season should be closed. The BLM gives sage-
grouse special status classification through their planning process, 
but in very few instances has taken substantive action to do new on-
the-ground special management for the bird. For example, despite a 
decade-old agency directive to designate Areas of Critical 
Environmental Concern (ACEC) for sage-grouse, none have been 
implemented. As recently as last year, BLM field offices in Montana 
were denying nominations of priority sage-grouse habitats as ACECs, 
using the rationale that sage-grouse did not meet the ``importance'' 
criterion that would trigger full nomination review. As another 
example, withdrawal of leasable and locatable minerals, has yet to 
occur anywhere specifically to conserve sage-grouse.

                               CONCLUSION

    The unfortunate situation today is that we cannot point to a single 
place where a large sage-grouse population is clearly secure for the 
long-term. Sage-grouse do not have a single place that is not 
vulnerable to weed invasion or wildfire, open to potential energy 
development or over-grazing, slated for agricultural conversion or 
subdivision, and certainly no place that is shielded from the potential 
impacts of disease. We need to take action to buffer the populations in 
several places against both catastrophic and chronic events by 
restoring the productivity and security of this species and its 
habitat. Many mechanisms already exist and are being proposed for 
conserving the large landscapes the birds need, through easements and 
special management designations. Many talented people are already on 
the ground doing potentially helpful work. What is lacking is the 
precedent for enough diverse partners to work together to focus and 
fund the tasks at hand, then get them done.
    Thank you for the opportunity to testify before your committee.

    [GRAPHIC] [TIFF OMITTED] T6657.014
    
    [GRAPHIC] [TIFF OMITTED] T6657.015
    
   Responses by Ben Deeble to Additional Questions from Senator Crapo
    Question 1. What else would you recommend as a way to sustain and 
encourage participation in local working groups?
    Response. Working groups must be adequately funded, to support both 
facilitated meetings where groups are guided through educational 
exercises and project development, and for on-the-ground project 
implementation.
    Participation in working groups will be enhanced if participants 
feel they are learning new things and gaining access to financial and 
logistical resources for implementing new things on-the-ground. Perhaps 
counter-intuitively, I also believe participation in LWGs will decline 
as the proposed conservation actions prove unthreatening to particular 
interests. There will be a certain self-selection process and LWG size 
will decline as people who have been attending just to watch the ball 
(instead of move the ball) fall away. You will end up with a small core 
of people who are highly motivated, and (after a time) educated, to 
move forward with positive on-the-ground work.
    LWGs also need to recognize more than just local citizens as key 
participants; resource professionals need recognition for providing 
critical technical review. LWGs will have greater participation by 
local agency staff if they feel they have a recognized role in the 
proceedings. Some LWGs invite agency staff as passive advisors rather 
than as decision-makers in the processes, and as a result sideline much 
of the technical knowledge, de facto reducing competent review of LWG 
proposals and products. This tendency may become the Achillies heal of 
the LWG process. Agencies should be encouraged to have their staff 
participate in meaningful ways, and LWGs should be encouraged to accept 
the technical expertise of the agencies.

    Question 2. We need both extensive and intensive information: we 
need to know the extent of where sage-grouse occur and how they are 
doing in each place. In your view, how can we allocate our resources to 
optimize this trade-off?
    Response. Sage-grouse population trends (intensive information) are 
most readily obtained through lek surveys, where known leks are 
repeatedly subjected to counts of cocks using a consistent protocol, 
and from this annual monitoring the local population trends can be 
inferred. Some states have so few leks, and enough field staff, to 
conduct replicate counts of all their leks annually. Other states have 
many leks, but not enough field staff, so must sub-sample their known 
leks, and may not obtain any replicate counts. States do not have 
consistent methods of determining this sub-sample; this should be 
standardized to develop statistically comparable data between regions. 
Replicate counts (three counts per year per let) of active leks is the 
accepted protocol for optimal annual surveys. Using modestly trained 
technicians through such projects as the National Wildlife Federation's 
``Adopt-A-Lek'' is one means of increasing state capacity to obtain 
intensive information through replicate counts; LWG participants could 
also be used to conduct intensive surveys.
    Intensive survey effort could, be stratified to survey both sage-
grouse leks found in the core of the known range as well as leks found 
at the current periphery of known range, which could have the dual 
benefit of detecting changes in core populations and population extent.
    Extensive information about sage-grouse occurrence has generally 
been determined by a thorough review of agency records. To my 
knowledge, no call for data has been issued to bird watchers, 
landowners, industry, hunters, or other individuals who may encounter 
sage-grouse. Today unsurveyed habitats are generally searched aerially. 
Instrumentation of sage-grouse has also resulted in learning the 
migratory range of many populations. It should be assumed that range-
contraction is ongoing in some areas.
    In my opinion, the collection of intensive information should have 
a higher priority than extensive information. Resources need to be 
mustered to conserve the bird in core areas, and intensive information 
about population trends in these core areas is essential. The extent of 
many populations is already well known.

    Question 3. What would be the most effective way to include the 
ideas of LWG's in the effort envisioned in the Subcommittee Outline?
    Response. Local working groups should not be expected to work well 
in a vacuum. LWGs should be encouraged to exchange information between 
each other, and should be able to tap information resources of other 
entities. In particular, success stories need to be exchanged and 
successful methods needs to be propagated.
    One approach for integrating LWG ideas with those of the 
Subcommittee would be to present the proposed policy objectives to 
them, and ask for their feedback in terms of their receptiveness to the 
objectives and how that particular LWG could participate in achieving 
the objectives. That response could provide guidance as to where the 
Subcommittee may want to geographically launch their efforts and which 
objectives to emphasize.
                               __________

  Statement of Jim Mosher, Executive Director, North American Grouse 
 Partnership and American Wildlife Conservation Partners, Representing 
     Views of: Boone & Crockett Club, Campfire Club, International 
    Association of Fish & Wildlife Agencies, Izaak Walton League of 
    America, National Wild Turkey Federation, North American Grouse 
    Partnership, Theodore Roosevelt Conservation Partnership, Quail 
                               Unlimited

    Mr. Chairman and members of the Committee, my name is Jim Mosher. I 
am the executive director of the North American Grouse Partnership, a 
wildlife biologist and, at every opportunity, an upland bird hunter. My 
professional career has encompassed university teaching and research, 
environmental consulting and administration of non-profit conservation 
programs and organizations.
    The North American Grouse Partnership that I now serve is a very 
young organization, incorporated in the State of Idaho by a group of 
dedicated sportsmen and professional biologists concerned in particular 
about the lack of adequate management to address the needs of prairie 
grouse species and the grasslands and sage communities that support 
these populations. Our organization's approach and strategy as we work 
on behalf of grouse conservation at the local and national policy level 
is based on a few fundamental principles: (1) sound scientific 
understanding should drive resource management decisions, (2) the well-
being of the species on which we focus our attention reflects the 
health, or lack thereof, of whole communities [it is the habitat that 
supports those communities that is our primary concern], and (3) fair 
and sustainable solutions to resource conflicts arise best from open 
and honest dialog among all who have a stake in the outcomes.

                             THE CHALLENGES

    This hearing appropriately focuses attention on the condition of 
sage grouse populations, their habitats and the near and long-term 
challenges to conserving this valuable resource--issues of immense 
concern to us and our colleagues. I thank the Committee for providing 
this forum to look toward solutions that will protect sage grouse while 
permitting access to and use of other important resources. I must also 
note here that the challenges that are faced today by sage grouse are 
of no less concern for other grouse species. While we are working to 
find the most effective measures to protect and restore sage grouse 
habitat and populations, we must understand that we could be here again 
very soon talking about lesser prairie chickens or other prairie grouse 
if we are not successful in properly managing our grassland and sage 
communities.
    There are at least three fundamental problems affecting landscapes 
that grouse depend on for survival: (1) habitat fragmentation [or 
insufficient habitat scale], (2) habitat alteration resulting from a 
number of human uses and (3) woody succession and/or invasive species. 
Note also that the effects of prolonged drought exacerbate these 
challenges. Absent our ability to control that factor, we must pay 
particular attention to the amount and quality of remaining habitat.
    It is worth acknowledging here that sage grouse populations are not 
in the condition they are in today simply because of any one land use. 
Many different uses fragment the habitat and/or impact species behavior 
and habitat use. It is rather the cumulative affect of all of these 
factors. Our system of land management has tended to drive public and 
private land decisions to be made in isolation without fully 
considering cumulative and range-wide effects. Addressing these issues 
singly is moreover likely to polarize stakeholders and make sensible 
solutions more difficult if not impossible to secure.
    We suggest as this discussion about the positive actions that may 
be taken continues, that we would benefit as well from a consideration 
of underlying policy questions that arise from conflicting resource 
interests, especially on our multiple use public lands. There is an 
implication that we can do it all, everywhere, all the time we only 
need to be more careful about how we undertake each activity. We do 
very positive things like instituting Best Management Practices to 
minimize impacts and/or mitigate for some that are unavoidable. We 
trust that all the interests will be served. I imagine we would all 
agree that's not always so. At least with respect to sage grouse, there 
are clearly levels and scale of activities beyond which populations 
will not survive. As local populations become disconnected from 
adjacent populations they become more fragile and the likelihood of 
collapse of each increases. There have been and will be places where 
the real test is an `either/or' question. In these places we can't do 
it all. The question is--do we permit activities that will likely 
preclude maintaining viable grouse populations? How do we decide where 
those places are? How then do we decide? These are difficult questions 
because in large part they make us face unpleasant choices and imply 
winners and losers. I think a positive step is to face these choices 
and put these questions openly on the table whenever and wherever they 
pertain with all the stakeholders engaged.

                CONTRIBUTIONS FROM THE HUNTING COMMUNITY

    Despite difficult challenges we face to conserve sage grouse, the 
community of hunters and allied conservationists for whom sage grouse 
are an integral part of our lives none-the-less have and will continue 
to contribute in numerous ways. As a threshold matter, it should be 
recognized that sportsmen have largely paid for the restoration of 
wildlife once in this country and should not be expected to do so alone 
again. In this instance it is sportsmen-supported state wildlife 
agencies that have taken the lead in the Conservation Assessment of 
Greater Sage Grouse and Sagebrush Habitat as well as in development of 
strategic planning that is now is process. This Assessment is a 
fundamentally important document that begins to chart a course to 
conservation measures--our ultimate success will be predicated on 
effective and widespread implementation.
    We are generally a practical-minded group and clearly understand 
that prevention is nearly always less expensive than the cure. 
Investments in sage grouse habitat improvement and range expansion made 
now will be far less costly than any recovery attempts later. Moreover, 
in the absence of appropriate management now we may foreclose some 
recovery options entirely.
    Individual sportsmen and their organizations contribute to sage 
grouse conservation in many ways through their license dollars, direct 
contributions to projects, technical expertise, through support of 
conservation organizations that represent their interests and through 
those organizations' programs. Sportsmen give generously of their time 
and their funds whenever and wherever the effort promises successful 
outcomes for wildlife. There are many specific examples of these 
contributions including local projects that have been funded by and 
implemented through volunteers. The following are a few examples of 
what sportsmen's conservation groups can do and are doing specifically 
for sage grouse.
    In partnership with The Nature Conservancy, the N.A. Grouse 
Partnership's Idaho Chapter is now demonstrating how to manage for sage 
grouse on a meaningful scale. Working on TNC's Crooked Creek Ranch, 
where sage grouse nesting success was acceptable, but the rate of chick 
survival was poor. We have partnered with Idaho Fish & Game to improve 
the habitat in a number of ways in this instance by increasing the 
composition of forbs. Forbs are broad-leaved herbaceous plants 
important during the first 10 days of the grouse chick's life for the 
nutrition provided by insects, especially beetles and ants that they 
attract. Geographically broader application of this management faced 
the challenge of the expense of the seed mixtures that included 
sufficient forb seed. The Chapter applied for and received a grant from 
the Office of Species Conservation to create and administer the Grouse 
Habitat Restoration Fund. The fund cost shares with property owners to 
make the more expensive seed mix affordable, distributes information 
about the program and encourages landowners to voluntarily improve sage 
grouse habitat. With the implementation of this program more forbs can 
be established in sage grouse habitats across the state of Idaho, and 
an increase in chick survival should follow.
    Quail Unlimited projects have benefited sage grouse in California 
and Colorado. In partnership with the Bishop Field office of BLM, a 
broad-based group of stakeholders has drafted a conservation plan to 
preclude listing and maintain a healthy sage grouse population. They 
will cut young pinyon-juniper trees encroaching on known breeding 
habitat, build guzzlers in brood rearing habitats where habitat is 
suitable but distribution is limited by availability of water, continue 
radio telemetry study and habitat mapping to identify crucial seasonal 
habitats for future conservation actions, monitor utility lines to 
determine if anti-raptor perching devices may reduce predation, inform 
recreational visitors on how to enjoy sage grouse habitat with minimal 
impact and new builders on how to minimize their impact on surrounding 
sage grouse habitat. These projects will serve to begin implementing 
the conservation plan, monitor success of the actions, identify areas 
for future conservation actions, involve youth in an active and 
positive role, benefit the community, and educate current and future 
users of sage grouse lands. With the BLM Craig district in Colorado, QU 
has established a project to increase the grass and forb component and 
increase the vigor of the sagebrush canopy in known sage grouse brood 
rearing areas. Research has shown that sage grouse utilize new sage 
growth as their nearly exclusive winter diet. Much of the sage in this 
area is very old with little succulent new growth. This project has 
restored over 4,000 acres of decadent sage through brush beating 
(mowing) and chemical treatment of selected sites in a patchwork 
design.
    Members of the North American Falconers' Association and other 
members of the falconry community have contributed valuable information 
on critical winter ranges used by sage grouse. This information has 
been provided at least for large areas of Idaho, Montana and Wyoming. 
The National Wild Turkey Federation, with their Western Plan, supports 
habitat improvements that benefit not only wild turkeys but grouse and 
other game and non-game species as well.
    Recently, the Western Governors' Association published a 
compilation of examples by states of sage grouse conservation projects, 
several of which have significant involvement by sportsmen and their 
organizations.
    In addition to volunteering time, money and labor on specific 
projects, sportsmen have been effectively engaged in efforts to resolve 
resource conflicts involving sage grouse and other wildlife through 
support of collaborative efforts with other stakeholders. Nowhere has 
that been more evident recently than with discussions about energy 
development and its relationship to sage grouse and other wildlife that 
share the same habitat.
    With support from the BLM, the Izaak Walton League initiated 2 
years ago a series of facilitated meetings among ranchers, the energy 
industry and sportsman groups. The reports of those meetings are 
available on the League's web site at www.iwla.org. The Theodore 
Roosevelt Conservation Partnership supported a similar meeting in New 
Mexico with the assistance of the National Commission on Energy Policy. 
The purpose of the meetings was to improve understanding on all sides 
of the issues, limitations and interests of our respective communities, 
and most importantly to begin to craft solutions to conflicts that 
occur when our interests overlap on the landscape. We made useful 
progress at those meetings and built a network for further 
communication that continues today.
    Related to these discussions, we have used other opportunities to 
more broadly engage with the energy industry. Representatives of the 
Boone & Crockett Club, the Wildlife Management Institute and I have 
made presentations at the National Petroleum Forum and Fluid Minerals 
Conference about the outcomes of our facilitated meetings and the 
issues of concern to sportsmen. In addition, I spoke on similar issues 
to the National Energy Council comprised of state government 
representatives. These forums have provided useful opportunities to 
explain the concerns of the wildlife community and to make clear our 
desire to find mutually acceptable solutions to the inevitable 
conflicts.
    In early November, the Wildlife Working Group of the National Wind 
Coordinating Committee will meet here in D.C. We will discuss issues of 
impacts from wind energy development on grouse in a session that will 
address the affects of tall structures. As pressure increases to expand 
and incentives are provided for renewable energy development, conflicts 
over construction and especially siting of wind facilities will 
increase. Prairie grouse species appear averse to such facilities. 
Although additional research is needed to confirm preliminary data, 
wildlife experts warn of significant population impacts where wind 
development occurs in proximity to important grouse habitat.
    In addition to the many cooperative efforts with industry, a 
working group comprised of the American Sportfishing Association, 
International Association of Fish & Wildlife Agencies, Izaak Walton 
League of America, Theodore Roosevelt Conservation Partnership led by 
the Wildlife Management Institute, North American Grouse Partnership 
and Trout Unlimited, has met with senior Administration officials. We 
have made a number of suggestions regarding ways to avoid future 
impacts to fish and wildlife. For example, we have called for improved 
monitoring. To work effectively and provide answers about real impacts 
from land uses, monitoring must include not just species presence and 
abundance, but longer term measures of whether they survive, reproduce 
and sustain viable populations. We need to affirm Multiple Use 
Management of Federal Lands. We need specific policy criteria developed 
to assist Federal land managers in identifying and protecting high 
resource value places and specific guidance to ensure that such a 
review and subsequent action takes place in a timely manner. Federal 
land managers should make decisions carefully when they may constrain 
the government's flexibility to control activities that prove to pose 
risks to important fish, wildlife, and water resources. BLM should 
undertake a comprehensive assessment of the effectiveness of 
stipulations to determine if they are accomplishing their intended 
purpose. Adequate financial resources for reclamation should be a part 
of the cost of doing business on Federal lands.
    To be sure, these recommendations have been considered and adopted 
to some extent and we commend the agencies for that work. We think we 
can all do more.

                         COMMITMENT TO DO MORE

    All these projects, meetings and collaborative processes involve 
considerable time and expense contributed by individuals and their 
organizations. Yet, our organizations and the individual sportsmen 
involved in all theses efforts on behalf of sage grouse are committed 
to programs and resolution to conflicts that best meet our Nation's 
needs and those of the various stakeholders. Above all we are resolute 
in our commitment to sustaining, and wherever possible restoring, sage 
grouse populations. We will contribute expertise, time, money and labor 
individually and collectively within our respective limits.

                            RECOMMENDATIONS

    What follows are a range of suggestions, made by sportsmen, to 
improve conditions for wildlife. We have suggested authorizing royalty 
reductions or credits to those entities with existing and future 
Federal energy development leases, with proceeds used to enable Federal 
land lessees to protect or enhance our nation's natural resources. The 
purpose is to provide financial support to monitor, enhance and secure 
populations of prairie grouse and other natural resources. We are 
currently developing a North American Grouse Management Plan that 
identifies specific actions which can be used to protect or improve 
grouse habitats. Among these actions are habitat and population 
monitoring, trapping and relocating grouse from healthy populations, 
modified livestock grazing and watering systems, changing the season of 
use and density of energy developments, and enrolling lands in the 
suite of conservation programs available through USDA and the FWS.
    The Conservation Assessment of Greater Sage Grouse and Sagebrush 
Habitats is a good baseline, and some states have developed or are 
developing conservation plans that should identify positive management 
opportunities. However, improvements must occur on the ground to 
achieve real progress.
    From our perspective in discussions with other stakeholders, we 
would encourage increased coordination and cooperation among all 
stakeholders. Opportunities include developing a workable plan to 
respond [adapt] based on returning monitoring data in a timely way--not 
just for energy development but for other land uses as well; research 
designed to assess if, how, where BMPs and stipulations are 
accomplishing their purpose; a process for determining when/where 
certain land uses are not compatible with sage grouse and/or other high 
priority resources within or apart from formal management plans; and 
the means to provide an effective opportunity to assess potential 
conflicts prior to management actions.
    There are opportunities to coordinate related activities and 
leverage and prioritize limited resources by:

          1. Identifying information needs. Are we measuring the right 
        things? Are we using the data we're collecting? What is the 
        relationship between what we measure and actual population 
        responses? We need to learn from what we are doing see appended 
        letter regarding a proposal by Questar.
          2. Identifying conservation actions that can be implemented 
        now, such as pre-development assessment, identification of 
        protected areas, and restoration programs.
          3. Developing a realistic budget to meet the information 
        needs as part of a funding needs package that addresses amounts 
        and potential sources of funds Federal, state and private. We 
        especially need to understand and make visible the real needs 
        of land management agencies to meet mandated requirements as 
        well as implementing sage grouse conservation measures.
          4. Considering creation of a `Wildlife Conservation 
        Partnership Council'. The Council would be chartered to raise 
        the profile of wildlife conservation, the values of wildlife to 
        the country's heritage and economy and to encourage public/
        private partnerships. More specifically, the Council could 
        advise on issues that arise at the intersection of economic 
        development and wildlife resources with the purpose of finding 
        innovative ways to enhance both of these values so important to 
        the country. This could focus significant human and fiscal 
        resources to resolving some of those conflicts.

    This past February, while recognizing that many land uses that can 
compete with grouse will and need to continue, several specific actions 
concerning sage grouse conservation were suggested including:
    1. Identify, with State agencies and private conservation 
interests, all high value Sage Grouse range.
    2. Apply available best management practices for any development on 
public lands through appropriate agency authority.
    3. Provide adequate funding to monitor populations and habitat 
conditions throughout sage grouse range.
    4. Support completion and implementation of the North American 
Grouse Management Plan and its linkage to State conservation plans, and 
consider legislative authority for the Plan through a mechanism similar 
to the N.A. Waterfowl Conservation Act.
    In some places and at some times over-utilization by livestock 
grazing remains a challenge to successful reproduction and population 
recovery for upland gamebirds as well as other grassland and shrubland 
species. Poor range conditions for many reasons, combined with 
herbicide and mechanical treatments carried out with the intention of 
reducing all plants except grasses on rangelands, have had impacts on 
endemic wildlife populations throughout North America. Although 
conservation programs allow for reimbursement of prescribed burning 
expenses, no allowance is made to create the necessary fuel, for 
example through grazing deferment, for conservation success. State and 
Federal programmatic and tax incentives could be applied to reduce 
grazing intensity in areas of high conservation priority.
    The Grassland Reserve Program is the one USDA program that not only 
provides restoration and easement dollars but also restricts all forms 
of habitat fragmentation for the term of the agreement. This program is 
the first to recognize that a number of developments and structures can 
measurably reduce the conservation value of a property. This program 
needs increased funding.
    We should consider expanding annual incentive payment options 
available for modified grazing systems under the Environmental Quality 
Incentives Program (EQIP). At present EQIP offers only up to 3 years of 
annual incentive payments to farmers and ranchers who choose to enroll 
in the program. While this time period may be sufficient for some land 
management practices, it does not provide the long-term incentive 
necessary for many of the land management practices available under 
EQIP. We are particularly interested in the gains that could derive 
from modifying EQIP to enable producers to receive annual incentive 
payments for up to 10 years for land management practices benefiting 
prairie grouse. Many producers who support prairie grouse populations 
have indicated that annual incentive payments throughout an extended 
EQIP contract period would attract them to the program.
    In highly fragmented or small land ownership areas, we should 
consider financial incentives for neighboring landowners to form 
wildlife cooperatives, whereby state and Federal taxes are abated to 
provide a public benefit. Many landowners are eager to enter into such 
wildlife cooperatives.
    In conclusion, there are unavoidable and serious ecological 
consequences should human development, in many forms, continue 
unchecked on public lands, and financial investment is required to 
conserve and restore wildlife habitats. All of our private efforts to 
conserve sage grouse and their habitats will be insufficient to the 
task if our policies and programs do not provide for and encourage 
effective conservation measures. Government policies must address 
cumulative impacts and establish landscape level ecological goals and 
fragmentation ceilings. We believe that Congress and the Administration 
can and should tap the resources within our community to the benefit of 
all interests. It will take the commitment of funds, effectively 
delivered programs, careful planning and most importantly 
implementation of real habitat management to forestall further loss of 
sage grouse and other wildlife resources, and the consequences 
associated with such outcomes.

[GRAPHIC] [TIFF OMITTED] T6657.016

[GRAPHIC] [TIFF OMITTED] T6657.017

[GRAPHIC] [TIFF OMITTED] T6657.018

[GRAPHIC] [TIFF OMITTED] T6657.019

[GRAPHIC] [TIFF OMITTED] T6657.020

[GRAPHIC] [TIFF OMITTED] T6657.021

[GRAPHIC] [TIFF OMITTED] T6657.022

[GRAPHIC] [TIFF OMITTED] T6657.023

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
